<html>
<title> - RECENT TRENDS CONCERNING ANNUAL BUDGETS FOR THE NATIONAL WILDLIFE REFUGE SYSTEM AND IMPLICATIONS FOR MANAGEMENT ACTIVITIES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                       RECENT TRENDS CONCERNING
                        ANNUAL BUDGETS FOR THE
                       NATIONAL WILDLIFE REFUGE
                      SYSTEM AND IMPLICATIONS FOR
                         MANAGEMENT ACTIVITIES

=======================================================================

                           OVERSIGHT HEARING

                               before the

                  SUBCOMMITTEE ON FISHERIES, WILDLIFE
                               AND OCEANS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                     Wednesday, September 24, 2008

                               __________

                           Serial No. 110-88

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE
44-614 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
              DON YOUNG, Alaska, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Wayne T. Gilchrest, Maryland
Solomon P. Ortiz, Texas              Chris Cannon, Utah
Frank Pallone, Jr., New Jersey       Thomas G. Tancredo, Colorado
Donna M. Christensen, Virgin         Jeff Flake, Arizona
    Islands                          Stevan Pearce, New Mexico
Grace F. Napolitano, California      Henry E. Brown, Jr., South 
Rush D. Holt, New Jersey                 Carolina
Raul M. Grijalva, Arizona            Luis G. Fortuno, Puerto Rico
Madeleine Z. Bordallo, Guam          Cathy McMorris Rodgers, Washington
Jim Costa, California                Louie Gohmert, Texas
Dan Boren, Oklahoma                  Tom Cole, Oklahoma
John P. Sarbanes, Maryland           Rob Bishop, Utah
George Miller, California            Bill Shuster, Pennsylvania
Edward J. Markey, Massachusetts      Bill Sali, Idaho
Peter A. DeFazio, Oregon             Doug Lamborn, Colorado
Maurice D. Hinchey, New York         Mary Fallin, Oklahoma
Patrick J. Kennedy, Rhode Island     Adrian Smith, Nebraska
Ron Kind, Wisconsin                  Robert J. Wittman, Virginia
Lois Capps, California               Steve Scalise, Louisiana
Jay Inslee, Washington
Mark Udall, Colorado
Joe Baca, California
Hilda L. Solis, California
Stephanie Herseth Sandlin, South 
    Dakota
Heath Shuler, North Carolina

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
            Christopher N. Fluhr, Republican Staff Director
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

             SUBCOMMITTEE ON FISHERIES, WILDLIFE AND OCEANS

                MADELEINE Z. BORDALLO, Guam, Chairwoman
     HENRY E. BROWN, JR., South Carolina, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Wayne T. Gilchrest, Maryland
    Samoa                            Cathy McMorris Rodgers, Washington
Neil Abercrombie, Hawaii             Tom Cole, Oklahoma
Solomon P. Ortiz, Texas              Bill Sali, Idaho
Frank Pallone, Jr., New Jersey       Robert J. Wittman, Virginia
Patrick J. Kennedy, Rhode Island     Don Young, Alaska, ex officio
Ron Kind, Wisconsin
Lois Capps, California
Nick J. Rahall, II, West Virginia, 
    ex officio


                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, September 24, 2008....................     1

Statement of Members:
    Bordallo, Hon. Madeleine Z., a Delegate in Congress from Guam     1
        Prepared statement of....................................     3
    Brown, Hon. Henry E., Jr., a Representative in Congress from 
      the State of South Carolina, Prepared statement of.........    56
    Kind, Hon. Ron, a Representative in Congress from the State 
      of Wisconsin...............................................    24

Statement of Witnesses:
    Callihan, David, Director, Management Systems International..    14
        Prepared statement of....................................    16
    Horn, William P., Counsel, U.S. Sportsmen's Alliance.........    40
        Prepared statement of....................................    41
    Kurth, James, Acting Assistant Director of the National 
      Wildlife Refuge System, Fish and Wildlife Service, U.S. 
      Department of the Interior.................................    25
        Prepared statement of....................................    26
    Matson, Noah, Vice President for Land Conservation, Defenders 
      of Wildlife................................................    31
        Prepared statement of....................................    33
    Nazzaro, Robin M., Director, Natural Resources and 
      Environment, U.S. Government Accountability Office.........     3
        Prepared statement of....................................     5


 OVERSIGHT HEARING ON RECENT TRENDS CONCERNING ANNUAL BUDGETS FOR THE 
    NATIONAL WILDLIFE REFUGE SYSTEM AND IMPLICATIONS FOR MANAGEMENT 
                              ACTIVITIES.

                              ----------                              


                     Wednesday, September 24, 2008

                     U.S. House of Representatives

             Subcommittee on Fisheries, Wildlife and Oceans

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:05 a.m. in 
Room 1324, Longworth House Office Building, Hon. Madeleine Z. 
Bordallo [Chairman of the Subcommittee] presiding.
    Present: Representatives Bordallo, Kildee, Kind, and 
Wittman.

STATEMENT OF THE HONORABLE MADELEINE Z. BORDALLO, A DELEGATE IN 
                       CONGRESS FROM GUAM

    Ms. Bordallo. Good morning, everyone. The oversight hearing 
by the Subcommittee on Fisheries, Wildlife and Oceans will now 
come to order.
    The Subcommittee is meeting today concerning two reports 
regarding budget trends and the effects of recent levels on the 
performance of the National Wildlife Refuge System. This 
morning's hearing is a follow-up to the hearing the 
Subcommittee held last October concerning the efforts of the 
United States Fish and Wildlife Service to implement the 
National Wildlife Refuge System Improvement Act.
    We will hear testimony this morning regarding a report 
being released today by the U.S. Government Accountability 
Office investigating recent budget trends affecting the Refuge 
System and a second report released in June by Management 
Systems International that evaluated the performance of the 
Refuge System in meeting its own strategic goals.
    As we learned last year, all is not well with the Refuge 
System. Testimony provided by former Secretary of the Interior, 
Bruce Babbitt, former EPA Administrator, Carol Browner, and 
other witnesses painted the picture of a Refuge System 
stretched thin by insufficient funding, staff cuts and numerous 
major new challenges such as climate change, invasive species 
and water shortages.
    Regrettably, the two reports before us today, while not 
entirely negative, corroborate many of the criticisms made 
during last year's hearing. Most importantly, it appears that 
the effects of insufficient funding have had a ripple effect 
across the Refuge System, forcing the Fish and Wildlife Service 
to further scale back operations at many refuges, or even close 
refuges to public use altogether.
    Permanent staffing levels have fallen by 7.5 percent from 
peak staffing levels in 2003. Not surprisingly, habitat quality 
in many refuges has fallen between seven and 20 percent. 
Additionally, many visitor services programs, especially 
environmental education and interpretation, have noticeably 
declined in availability and quality.
    Perhaps what will be most disturbing to many Members is 
that both reports emphasize that funding for law enforcement 
remains severely insufficient. Consequently, law enforcement 
operations are woefully inadequate to cover a system of public 
lands that includes some of the most rugged and isolated 
terrain in the United States--and compromise public safety 
throughout the entire 98 million acre Refuge System.
    In closing, the sum of these two reports is clear: The 
Refuge System has reached a tipping point where it faces an 
uncertain future, yet before we can act intelligently to 
rectify this decline, we need to understand the facts. To the 
extent that this hearing helps draw attention to the current 
plight facing our National Wildlife Refuges, it will have been 
a constructive first step in our important work to rebuild the 
Refuge System and to bequeath to our children a wildlife legacy 
that is both abundant and diverse.
    As Chairwoman, I would like to mention the fact that our 
Ranking Member is at a very important meeting at this time. I 
am sure he has an opening statement, so when he does arrive he 
will address us.
    So, at this time, I would like to recognize our panel of 
witnesses this morning. The first is Ms. Robin Nazzaro, 
Director, Natural Resources and Environment, the U.S. 
Government Accountability Office; Mr. David Callihan, Director, 
Management Systems International; Mr. James Kurth, Acting 
Assistant Director for Refuges, U.S. Fish and Wildlife Service; 
Mr. Noah Matson, Vice President for Land Conservation, 
Defenders of Wildlife; and The Honorable William P. Horn, 
General Counsel, U.S. Sportsmen's Alliance, former chairman of 
the National Wildlife Refuge Centennial Commission and former 
Interior Assistant Secretary for Fish and Wildlife and Parks.
    Before recognizing Ms. Nazzaro to testify, I would note for 
all witnesses that the red timing light on the table will 
indicate when your time has concluded, and we would appreciate 
your cooperation in complying with these limits. Please be 
assured that your full written statement will be submitted for 
the hearing record.
    And now I recognize Ms. Nazzaro to please begin.
    [The prepared statement of Ms. Bordallo follows:]

     Statement of The Honorable Madeleine Z. Bordallo, Chairwoman, 
             Subcommittee on Fisheries, Wildlife and Oceans

    This morning's hearing is a follow-up to the hearing the 
Subcommittee held last October concerning the efforts of the U.S. Fish 
and Wildlife Service to implement the National Wildlife Refuge System 
Improvement Act.
    We will hear testimony regarding a report being released today by 
the U.S. Government Accountability Office investigating recent budget 
trends affecting the Refuge System, and a second report released in 
June by Management Systems International that evaluated the performance 
of the Refuge System in meeting its own strategic goals.
    As we learned last year, all is not well with the Refuge System. 
Testimony provided by former Secretary of the Interior, Bruce Babbitt, 
former EPA Administrator, Carol Browner, and other witnesses painted 
the picture of a Refuge System stretched thin by insufficient funding, 
staff cuts and numerous major new challenges such as climate change, 
invasive species, and water shortages.
    Regrettably, the two reports before us today, while not entirely 
negative, corroborate many of the criticisms made during last year's 
hearing. Most importantly, it appears that the effects of insufficient 
funding have had a ripple effect across the Refuge System, forcing the 
Fish and Wildlife Service to further scale back operations at many 
refuges, or even close refuges to public use altogether.
    Permanent staffing levels have fallen by 7.5 percent from peak 
staffing levels in 2003. Not surprisingly, habitat quality in many 
refuges has fallen between seven and twenty percent. Additionally, many 
visitor services programs, especially environmental education and 
interpretation, have noticeably declined in availability and quality.
    Perhaps what will be most disturbing to many members is that both 
reports emphasize that funding for law enforcement remains severely 
insufficient. Consequently, law enforcement operations are woefully 
inadequate to cover a system of public lands that includes some of the 
most rugged and isolated terrain in the United States, and compromise 
public safety throughout the entire 98 million acre Refuge System.
    In closing, the sum of these two reports is clear: the Refuge 
System has reached a tipping point where it faces an uncertain future. 
Yet before we can act intelligently to rectify this decline, we need to 
understand the facts. To the extent that this hearing helps draw 
attention to the current plight facing our National Wildlife Refuges, 
it will have been a constructive first step in our important work to 
rebuild the Refuge System, and to bequeath to our children a wildlife 
legacy that is both abundant and diverse.
                                 ______
                                 

STATEMENT OF ROBIN M. NAZZARO, DIRECTOR, NATURAL RESOURCES AND 
       ENVIRONMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Nazzaro. Thank you, Madam Chair. I am pleased to be 
here today to discuss our nation's wildlife refuges.
    The National Wildlife Refuge System, administered by the 
Department of the Interior's U.S. Fish and Wildlife Service, 
comprises about 585 refuges and wetland management districts on 
more than 96 million acres of land and water that provide 
habitat for millions of waterfowl, other migratory birds, 
endangered species and other plants and wildlife.
    In addition, refuges host about 40 million visitors each 
year who take part in one or more of the Refuge System's six 
wildlife-dependent visitor activities--hunting, fishing, 
wildlife observation, wildlife photography, environmental 
education and environmental interpretation--and other 
recreation activities.
    My testimony today is based on the GAO report that is being 
released today which describes changing factors that the Refuge 
System experienced from Fiscal Years 2002 through 2007 and how 
habitat management and visitor services changed during this 
period.
    In summary, we found that funding for the Refuge System 
fluctuated. Refuge System obligations for core activities, 
which include refuge operations, maintenance and fire 
management, peaked in Fiscal Year 2003, then declined until 
Fiscal Year 2005, before increasing again in Fiscal Year 2007 
when funding adjusted for inflation was 2.3 percent below peak 
levels and 4.3 percent above 2002 levels.
    At the refuge level, funding varied considerably with about 
as many refuges losing funding as gaining and 39 refuges 
decreasing by more than 25 percent during this period.
    Staffing levels between Fiscal Years 2002 through 2007 for 
core refuge activities also fluctuated, peaking in Fiscal Year 
2004 and then declining through Fiscal Year 2007, although 
ending the period 5.5 percent above 2002 levels.
    The number of employees on board also declined after 
peaking in Fiscal Year 2004. Though 38 complex and stand-alone 
refuges increased their permanent staff by more than five 
percent since 2004, more than three times as many lost at least 
five percent.
    During this period, Refuge System officials initiated 
several new policies that categorized refuges into tiers for 
the purpose of prioritizing funding and staffing allocations, 
required refuge staff to focus on completing refuge 
conservation plans by 2012, placed a greater emphasis on 
constructing smaller visitor facility structures to help 
visitor services funds across more refuges, increased the 
number of full-time law enforcement officers to improve safety 
and resulted in increased administrative requirements for 
nonadministrative staff.
    Also, the influence of external factors, including extreme 
weather and development on adjacent lands, increased over this 
period.
    During this time, several changes also occurred in habitat 
management and visitor services. Refuge managers reported that 
habitats for key species improved about two times as often as 
they worsened, but between seven percent and 20 percent of 
habitats were of poor quality in 2007.
    Also, certain habitat management problems increased at more 
than half of the refuges, and managers reported that they 
increased the time spent on activities such as invasive plant 
species and habitat fragmentation.
    According to most refuge managers, the quality of all six 
wildlife-dependent visitor services programs was stable or 
improving between Fiscal Years 2002 and 2007. Four of these 
programs were of moderate or better quality at more than three-
quarters of the refuges in 2007, and even though environmental 
education and interpretation programs showed the most 
improvement since 2002, these programs were still reported to 
be of low quality at about one-third of the refuges.
    Refuge managers expressed concerns about their abilities to 
sustain or improve current habitat conditions for wildlife and 
to provide quality visitor services into the future.
    In conclusion, maintaining the Refuge System as envisioned 
by law where the biological integrity, diversity and 
environmental health of the system are maintained, priority 
visitor services are provided and the strategic growth of the 
system is continued may be difficult in light of continuing 
Federal fiscal constraints and an ever-expanding list of 
challenges facing refuges.
    If threats and problems afflicting refuges continue to grow 
as expected, it will be important for the Refuge System to 
monitor how shifts in funding and staffing levels are affecting 
refuge conditions.
    Madam Chair, this concludes my prepared statement. I would 
be pleased to respond to any questions that you may have at 
this time.
    [The prepared statement of Ms. Nazzaro follows:]

    Statement of Robin M. Nazzaro, Director, Natural Resources and 
           Environment, U.S. Government Accountability Office

                             GAO HIGHLIGHTS

Why GAO Did This Study
    The National Wildlife Refuge System, which is administered by the 
Fish and Wildlife Service in the Department of the Interior, comprises 
585 refuges on more than 96 million acres of land and water that 
preserve habitat for waterfowl and other migratory birds, threatened 
and endangered species, and other wildlife. Refuges also provide 
wildlife-related activities such as hunting and fishing to nearly 40 
million visitors every year.
    GAO was asked to testify on a report that is being released today, 
Wildlife Refuges: Changes in Funding, Staffing, and Other Factors 
Create Concerns about Future Sustainability (GAO-08-797), which (1) 
describes changing factors that the refuge system experienced from 
Fiscal Years 2002 through 2007, including funding and staffing changes, 
and (2) examines how habitat management and visitor services changed 
during this period. For this report, GAO surveyed all refuges, visited 
19 refuges in four regions, and interviewed refuge, regional, and 
national officials.

September 24. 2008

                            WILDLIFE REFUGES

 Trends in Funding, Staffing, Habitat Management, and Visitor Services 
                   for Fiscal Years 2002 through 2007

What GAO Found
    In its September 2008 report, GAO reports that for Fiscal Years 
2002 through 2007, the refuge system experienced funding and staffing 
fluctuations, the introduction of several new policy initiatives, and 
the increased influence of external factors such as extreme weather 
that threaten wildlife habitat and visitor infrastructure. Although 
core funding--measured as obligations for refuge operations, 
maintenance, and fire management--increased each year, inflation-
adjusted core funding peaked in Fiscal Year 2003 at about $391 
million--6.8 percent above Fiscal Year 2002 funding. Inflation-adjusted 
core funding ended the period 2.3 percent below peak levels, but 4.3 
percent above Fiscal Year 2002 levels by Fiscal Year 2007. Core refuge 
staffing levels peaked in Fiscal Year 2004 at 3,610 full-time 
equivalents--10.0 percent above the Fiscal Year 2002 level--and then 
declined more slowly than funding levels. By Fiscal Year 2007, staffing 
levels fell to 4.0 percent below peak levels, but 5.5 percent above 
Fiscal Year 2002 levels. Through Fiscal Year 2007, the number of 
permanent employees utilized by the refuge system declined to 7.5 
percent below peak levels. During this period, refuge system officials 
initiated new policies that: (1) reduced staff positions and 
reconsidered how they allocate funds and staff among refuges to better 
align staff levels with funding; (2) required refuge staff to focus on 
a legislative mandate to complete refuge conservation plans by 2012; 
(3) shifted to constructing a larger number of smaller visitor 
structures, such as informational kiosks, and fewer large visitor 
centers to spread visitor service funds across more refuges; (4) 
increased the number of full-time law enforcement officers and their 
associated training requirements; and (5) resulted in additional 
administrative work. During this period, external factors, such as 
severe storms, that complicate refuge staffs' ability to protect and 
restore habitat quality also increased.
    GAO's survey of refuge managers showed that changes in the quality 
of habitat management and visitor service programs varied across 
refuges during the study period. Habitat conditions for key types of 
species improved about two times more often than they worsened, but 
between 7 percent and 20 percent of habitats were of poor quality in 
2007. Certain habitat problems increased at more than half of refuges 
during this period, and managers reported that they increased the time 
spent on certain habitat management activities, such as addressing 
invasive plants, despite declining staffing levels. However, several 
managers GAO interviewed said that staff were working longer hours 
without extra pay to get work done, and managers expressed concern 
about their ability to sustain habitat conditions. While the quality of 
all six visitor service programs was reported to be stable or improving 
between Fiscal Years 2002 and 2007 at most refuges, two programs--
environmental education and interpretation--were considered poor 
quality at one-third of refuges in 2007. Changes in the time spent on 
visitor services varied considerably across refuges, and managers noted 
that visitor services generally are cut before habitat management 
activities when resources are limited. Managers are concerned about 
their ability to provide high-quality visitor services in the future 
given staffing and funding constraints.
                                 ______
                                 
    Madam Chair and Members of the Subcommittee:
    Thank you for the opportunity to discuss our work on our nation's 
wildlife refuges. The National Wildlife Refuge System, administered by 
the Department of the Interior's U.S. Fish and Wildlife Service (FWS), 
comprises about 585 refuges and wetland management districts on more 
than 96 million acres of land and water that provide habitat for 
millions of waterfowl, other migratory birds, endangered species, and 
other plants and wildlife. In addition, refuges host about 40 million 
visitors each year who take part in one or more of the refuge system's 
six wildlife-dependent visitor activities--hunting, fishing, wildlife 
observation, wildlife photography, environmental education, and 
environmental interpretation--and other recreational activities. The 
refuge system employs more than 4,000 staff dispersed in its offices 
across the country and spans all 50 states and several U.S. 
territories. FWS manages its refuges through its headquarters office in 
Washington D.C., eight regional offices, and hundreds of field offices 
located on or near refuge lands. Individual refuge offices may report 
directly to a regional office (we refer to these as ``stand-alone'' 
refuges), or may be grouped with other offices into a ``complex.''
    My testimony is based on a report that is being released today, 
Wildlife Refuges: Changes in Funding, Staffing, and Other Factors 
Create Concerns about Future Sustainability (GAO-08-797), which 
describes changing factors that the refuge system experienced from 
Fiscal Years 2002 through 2007 and how habitat management and visitor 
services changed during this period. For that report, we obtained and 
analyzed funding and staffing data; surveyed stand-alone refuges and 
refuges within complexes and received an 81 percent response rate; 
visited headquarters, 4 regional offices, and 19 refuges; and conducted 
phone interviews with officials at the other 4 regional offices and 
about 50 additional refuges. We conducted this performance audit from 
July 2007 to September 2008 in accordance with generally accepted 
government auditing standards. Those standards require that we plan and 
perform the audit to obtain sufficient, appropriate evidence to provide 
a reasonable basis for our findings and conclusions based on our audit 
objectives. We believe that the evidence obtained provides a reasonable 
basis for our findings and conclusions based on our audit objectives.
    In summary, we found the following:
    <bullet>  For Fiscal Years 2002 through 2007, funding and staffing 
levels for the refuge system fluctuated, several new refuge system 
policy initiatives were introduced, and the influence of external 
factors such as extreme weather and human development that affect 
refuge operations increased.
    <bullet>  Survey responses and interviews with refuge managers 
indicated that the change in the quality of habitat and visitor service 
programs, as well as changes in the amount of time devoted to these 
activities, varied across refuges during our study period. Given recent 
funding and staffing changes, and other factors affecting refuges, 
managers expressed concerns about their ability to provide quality 
habitat and visitor service programs into the future.
Numerous Changes Affected Refuge Management
    From Fiscal Years 2002 through 2007, several changes occurred that 
affected refuge management including changes in funding and staffing 
levels, refuge system policy initiatives, and the influence of external 
factors, such as extreme weather and human development.
    Fluctuations in refuge funding. Inflation-adjusted funding (in 2002 
dollars) for core refuge system activities--measured as obligations for 
refuge operations, maintenance, and fire management--peaked in Fiscal 
Year 2003, for the celebration of the refuge system's centennial, at 
about $391 million--6.8 percent above Fiscal Year 2002 levels--and then 
declined quickly to 4.7 percent below peak levels by Fiscal Year 2005, 
before increasing again to 2.3 percent below peak levels in Fiscal Year 
2007; it ended 4.3 percent above Fiscal Year 2002 levels. <SUP>1</SUP> 
In nominal dollars, core funding increased each year over the time 
period from about $366 million in Fiscal Year 2002 to about $468 
million in Fiscal Year 2007.
---------------------------------------------------------------------------
    \1\ We adjusted nominal dollars using the Gross Domestic Product 
(GDP) Price Index for Government Consumption Expenditures and Gross 
Investment (federal nondefense sector), with 2002 as the base year, 
which assigns greater weight to changes in federal workers' 
compensation than do other indices.
---------------------------------------------------------------------------
    At the refuge level, inflation-adjusted core funding at refuges 
varied considerably during the time period, with about as many losing 
funding as gaining funding since Fiscal Year 2002. Specifically, from 
Fiscal Year 2002 through Fiscal Year 2007, core inflation-adjusted 
funding decreased for 96 of 222 complexes and stand-alone refuges and 
increased for 92, with funding remaining about the same for 34. 
<SUP>2</SUP> The magnitude of the changes in core funding at the refuge 
level were also more pronounced than for the trend overall. 
Specifically, core funding for 39 complexes and stand-alone refuges 
decreased by more than 25 percent during this time period.
---------------------------------------------------------------------------
    \2\ We defined funding increasing or decreasing by 5 percent or 
less over the time period as staying about the same. Four refuges 
incurred no obligations during the Fiscal Year 2002 to 2007 time 
period.
---------------------------------------------------------------------------
    Fluctuations in staffing levels. Staffing levels for core refuge 
activities (core staffing), as measured by full-time equivalents (FTE) 
the refuge system actually used, peaked one year later than core 
inflation-adjusted funding and then declined more slowly. <SUP>3</SUP> 
Specifically, core staffing, which includes operations, maintenance, 
and fire management, peaked in Fiscal Year 2004 at a level 10.0 percent 
higher than in Fiscal Year 2002, but declined after that to 4.0 percent 
below peak staffing levels in Fiscal Year 2007. This level, however, 
was still 5.5 percent higher than the staffing level in Fiscal Year 
2002. While operations and maintenance FTEs increased 3.6 percent 
overall during our study period, they ended the period down 6.9 percent 
from their 2004 peak. Fire management FTEs, on the other hand, 
increased 14.3 percent over Fiscal Year 2002 levels. <SUP>4</SUP>
---------------------------------------------------------------------------
    \3\ Actual FTEs, representing staff time charged to specific 
activities at complexes and stand-alone refuges, are reported in the 
Federal Financial System. They differ from budgeted FTEs, which 
generally represent the operations and maintenance staffing ceiling for 
the refuge system in a given fiscal year and are reported in the annual 
Fish and Wildlife Service budget justifications.
    \4\ About 38 percent of the increase in fire management activities 
over the study period was due to an increase in emergency wildfire 
suppression, prevention of further degradation, and rehabilitation of 
burned areas.
---------------------------------------------------------------------------
    Similar to FTEs, the number of employees on board in refuge system 
positions also declined after peaking in Fiscal Year 2004. Through 
Fiscal Year 2007, nearly 375 employees were lost from the refuge 
system's peak staffing levels, a reduction of 8.4 percent over this 
period. About three-quarters of this loss came through a reduction in 
permanent employees (a 7.5 percent reduction), which refuge managers 
and regional and headquarters officials told us are a key measure of 
the effective strength of the workforce available to conduct core 
refuge activities because they represent employees on board 
indefinitely. Though 38 complexes and stand-alone refuges increased 
their permanent staff by more than 5 percent since 2004, more than 
three times as many lost at least 5 percent. Figure 1 compares the 
trends in the refuge system's core funding, staffing, and permanent 
employee levels during our study period.
[GRAPHIC] [TIFF OMITTED] T4614.001

    New policy initiatives. Several new refuge system policy 
initiatives were implemented during this period:
    <bullet>  Recognizing that funding declines after 2003 were 
exacerbating an already high proportion of staff costs in refuge 
budgets, regional offices began to (1) reduce staff positions through 
attrition and by further consolidating some stand-alone refuges into 
complexes, and (2) categorize refuges into three tiers for the purpose 
of prioritizing funding and staffing allocations among refuges. These 
measures are primarily responsible for the decline in FTEs and 
permanent employees from Fiscal Year 2004 peak levels and the shifts in 
staffing among complexes and stand-alone refuges.
    <bullet>  Recognizing that the refuge system was not on pace to 
meet a mandate in the National Wildlife Refuge System Improvement Act 
of 1997 to complete conservation plans for each refuge by 2012, refuge 
system officials created a completion schedule and, beginning in 2004, 
began requiring staff at refuges to turn their attention to completing 
the plans. While refuge officials believe that they can meet the 
deadline, current information shows that some plans are behind 
schedule.
    <bullet>  To help spread visitor service funds across as many 
refuges as possible, refuge officials began placing a greater emphasis 
on constructing smaller visitor facility structures, such as 
informational kiosks and restrooms, at a larger number of refuges 
rather than constructing a smaller number of traditional visitor 
centers.
    <bullet>  To improve safety and address other concerns, refuge 
system management began an initiative to increase the number of full-
time law enforcement officers and their associated training and 
experience requirements. However, refuge officials told us that they 
need to hire about 200 additional officers in order to reach the 
minimum number needed to provide adequate protection to refuge 
resources and visitors.
    <bullet>  Various refuge system, FWS, and Interior policies 
increased requirements on nonadministrative staff to enter additional 
data into certain systems and respond to numerous data calls. Refuge 
system officials are beginning to implement changes to reduce some of 
these administrative burdens.
    Increasing external factors. The influence of external factors----
those outside the control of the refuge system that complicate refuges' 
abilities to protect and restore habitat quality, including extreme 
weather and development on adjacent lands--increased over this period. 
For example, refuge managers reported that between Fiscal Years 2002 
and 2007, the influence of development--such as the expansion of urban 
areas and the conversion of off-refuge land near refuges to agriculture 
or industrial use--increased around refuges and contributed to refuge 
habitat problems for almost one half of the refuges. Such development 
can pollute refuge lands and waters and make it more difficult to 
maintain viable, interconnected habitat in and around a refuge's 
borders.
Changes in Habitat Management and Visitor Services
    From Fiscal Years 2002 through 2007, several changes occurred in 
refuges' habitat management and visitor services, creating concerns 
about the refuges' abilities to maintain high quality habitat and 
visitor services in the future.
    Habitat management. Habitats on refuges for five types of key 
species--waterfowl, other migratory birds, threatened and endangered 
species, candidate threatened and endangered species, and state species 
of concern--improved between Fiscal Years 2002 and 2007--about two 
times as often as they worsened (see table 1).
[GRAPHIC] [TIFF OMITTED] T4614.002

    Refuge managers reported two to nearly seven times as often 
that habitats for several types of key species were of high quality 
than low quality in 2007 (see table 2). Habitat quality is determined 
by the availability of several key components, including fresh water, 
food sources, and nesting cover, among other things, and the absence of 
habitat problems, such as invasive species. High quality habitat 
generally provides adequate amounts of each of these main habitat 
components and is not significantly affected by habitat problems, while 
low quality habitat generally lacks these components and may have 
significant problems; moderate quality habitat has a mixture of these 
attributes.
[GRAPHIC] [TIFF OMITTED] T4614.003

    Complicating habitat management is growing pressure from 
increasing habitat problems occurring on refuges and the influence of 
external factors. Our survey found that invasive plant species and 
habitat fragmentation--the disruption of natural habitat corridors, 
often caused by human development activities--were the leading 
problems, affecting 55 percent and 44 percent of refuges, respectively, 
and both were increasing on more than half of refuges. Managers at 
refuges close to urban centers showed us busy roads adjacent to their 
refuge that have cut off natural habitat corridors, leading to animals 
trying to cross them or cutting them off from other members of their 
species, leading to genetic homogeneity and inbreeding. Managers of 
more rural refuges talked about increasing pressures to convert lands 
to agricultural uses, citing factors such as the increasing price of 
corn, or to industrial uses, such as oil and gas development.
    At the same time, refuge managers reported increasing the time 
spent on a number of key habitat management activities on many refuges 
between Fiscal Years 2002 and 2007 (see table 3). Importantly, time 
spent on developing comprehensive conservation plans, which are 
required by the Improvement Act, increased for 59 percent of refuges 
during our study period. In addition, refuges that increased the time 
spent on habitat management activities were about three times more 
likely to report that habitat quality for waterfowl and other migratory 
birds improved rather than worsened.
[GRAPHIC] [TIFF OMITTED] T4614.004

    In light of increasing problems and threats affecting refuge 
conditions, as well as recent funding and staffing constraints, refuge 
managers and regional and headquarters officials expressed concern 
about refuges' abilities to sustain or improve current habitat 
conditions for wildlife into the future. Even though our survey showed 
that a large number of refuges increased staff time on habitat 
management activities, some refuge managers we interviewed explained 
that staff were simply working longer hours to get the work done. 
Several refuge managers repeatedly indicated that despite growing 
habitat problems, an increasing administrative workload, and reduced 
staffing, they are still trying to do everything possible to maintain 
adequate habitat, especially habitats for key species, such as 
waterfowl, other migratory birds, and threatened and endangered 
species. Several managers said that attention to key habitats is the 
last thing that will stop receiving management attention in the event 
of declining funding. Several managers even said that they have to 
limit the amount of time staff spend at the refuge, as these employees 
are working overtime without extra pay.
    Visitor services. Our survey found that the quality of all six 
wildlife-dependent visitor services was stable or improving between 
Fiscal Years 2002 and 2007, according to the vast majority of refuge 
managers responding to our survey. Most notably, environmental 
education and interpretation programs showed the largest percentage of 
refuges reporting improvement, although these programs also showed the 
largest percentage reporting declines as well, as compared to other 
visitor services (see table 4).
[GRAPHIC] [TIFF OMITTED] T4614.005

    Our survey found that four of the six key visitor services 
provided to the public were of moderate or better quality at most 
refuges in 2007, but environmental education and interpretation were 
reported to be low quality at about one-third of refuges (see table 5). 
Managers told us that education and interpretation are among the most 
resource intensive visitor service programs and, for these reasons, the 
programs are often among the first areas to be cut when a refuge faces 
competing demands.
[GRAPHIC] [TIFF OMITTED] T4614.006

    A major factor influencing the quality of visitor services--
beyond the abundance of fish and wildlife populations--is the amount 
and quality of refuge infrastructure and the availability of supplies. 
For example, the availability of trails and tour routes is essential to 
providing the public with access to what refuges have to offer and is 
generally important for supporting any type of visitor service 
activity. Hunting and fishing infrastructure depend largely on physical 
structures such as duck blinds, boat launches, and fishing platforms. 
Providing wildlife observation and photography opportunities simply 
require adequate access to the refuge, but can be enhanced through 
observation platforms and photography blinds. Environmental education 
depends on physical infrastructure, such as classrooms, and supplies, 
such as workbooks, handouts, and microscopes. Environmental 
interpretation also depends on physical infrastructure such as 
informational kiosks and interpretive signs along trails.
    Some refuges reported that they expanded their visitor services 
infrastructure between Fiscal Years 2002 and 2007, for example, by 
adding informational kiosks and trails and tour routes, yet more than 
one-half of refuges reported no change (see table 6). Most refuges also 
reported that the quality of their visitor services infrastructure 
stayed about the same or increased since 2002.
[GRAPHIC] [TIFF OMITTED] T4614.007

    Time spent by refuges on visitor services varied considerably 
throughout the system. Overall, at least one in five refuges reported a 
decrease in staff time for each visitor service area (see table 7).
[GRAPHIC] [TIFF OMITTED] T4614.008

    Refuge managers indicated that staffing changes and a lack of 
resources for increasing and maintaining infrastructure, raise concerns 
about their ability to provide quality visitor services into the 
future. Our survey results showed that the time spent by permanent 
staff on visitor services had been reduced at more than one-third of 
refuges and more than half of refuge managers reported increasing their 
reliance on volunteers to help manage visitor centers and deliver 
education programs, for example. Refuge managers are also concerned 
about the impact that the increasing administrative workload incurred 
by non-administrative refuge staff is having on the refuges' ability to 
deliver visitor services. Refuge managers and regional and headquarters 
officials expressed concern about the long-term implications of 
declining and low quality visitor services. Many refuge managers cited 
the importance of ensuring that the public has positive outdoor 
experiences on refuges and providing them with meaningful educational 
and interpretative services. Managers said that the availability of 
visitor services is a way to get young people interested in future 
careers with the refuge system and instill in children an appreciation 
for wildlife and the outdoors as well as an interest in maintaining 
these resources. In addition, visitor services are important for 
developing and maintaining community relationships, as the refuge 
system is increasingly turning toward partnerships with private 
landowners and other agencies and organizations to maintain and improve 
ecosystems both on and around wildlife refuges.
    In conclusion, maintaining the refuge system as envisioned in law--
where the biological integrity, diversity and environmental health of 
the refuge system are maintained; priority visitor services are 
provided; and the strategic growth of the system is continued--may be 
difficult in light of continuing federal fiscal constraints and an 
ever-expanding list of challenges facing refuges. While some refuges 
have high quality habitat and visitor service programs and others have 
seen improvements since 2002, refuge managers are concerned about their 
ability to sustain high quality refuge conditions and continue to 
improve conditions where needed because of expected continuing 
increases in external threats and habitat problems affecting refuges. 
Already, FWS has had to make trade-offs among refuges with regard to 
which habitats will be monitored and maintained, which visitor services 
will be offered, and which refuges will receive adequate law 
enforcement coverage. FWS's efforts to prioritize its use of funding 
and staff through workforce planning have restored some balance between 
refuge budgets and their associated staff costs. However, if threats 
and problems afflicting refuges continue to grow as expected, it will 
be important for the refuge system to monitor how these shifts in 
resources are affecting refuge conditions.
    Madam Chair, this concludes my prepared statement. I would be 
pleased to answer any questions that you or other Members of the 
Subcommittee may have at this time.
GAO Contacts and Staff Acknowledgments
    For further information about this testimony, please contact me at 
(202) 512-3841 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="553b342f2f34273a271532343a7b323a237b">[email&#160;protected]</a> Contact points for our offices of 
Congressional Relations and Public Affairs may be found on the last 
page of this statement. Trish McClure, Assistant Director; Mark Braza; 
David Brown; Stephen Cleary; Timothy J. Guinane; Carol Henn; Richard 
Johnson; Michael Krafve; Alison O'Neill; George Quinn, Jr.; and 
Stephanie Toby made key contributions to this statement.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Ms. Nazzaro. We 
appreciate your comprehensive assessment of the Refuge System 
and the GAO's efforts to shine a bright light on the 
substantial challenges brought about by the inadequate funding 
of the system.
    I now recognize Mr. Callihan to testify for five minutes 
concerning his work heading up the MSI evaluation. Please 
proceed.

            STATEMENT OF DAVID CALLIHAN, DIRECTOR, 
                MANAGEMENT SYSTEMS INTERNATIONAL

    Mr. Callihan. Yes. Good morning, Madam Chairwoman. I just 
want to go over a little bit some of the highlights and the 
process of the evaluation that we undertook.
    We were contracted in late 2006 to conduct an independent 
evaluation of the effectiveness of the National Wildlife Refuge 
System. Can you hear OK? It is coming through? Our evaluation 
was looking at the effectiveness of the Refuge System in 
accomplishing its mission and meeting and achieving each of the 
12 strategic outcome goals contained in the 2007 Refuge System 
strategic plan.
    The evaluation that we undertook was a fairly comprehensive 
evaluation. We conducted interviews with several hundred 
people, including all the managers of the key Refuge System 
programs, as well as most of the nongovernmental partners that 
are most closely involved with the Refuge System.
    We produced a report that is structured according to 
findings, conclusions and recommendations. We tried to be as 
objective as possible, and we provided findings, conclusions 
and recommendations for each of the 12 strategic objective 
outcomes, and we provided an overall effectiveness rating for 
each of those outcomes.
    In terms of the effectiveness ratings, they go from 
ineffective to highly effective. There was one goal that was 
rated highly effective that had to do with partnerships and 
cooperative projects.
    There were four strategic outcome goals rated as effective. 
Those were the ones related to wildlife dependent recreation; 
providing infrastructure and equipment adequate to address and 
support the mission of the Refuge System; completing quality 
and useful comprehensive conservation plans; and reducing 
wildfire risks and improve habitats.
    The strategic objective goals rated as partially effective 
were----
    Ms. Bordallo. Sir, would you move a little closer to the 
microphone so we can----
    Mr. Callihan. The strategic objective goals we rated as 
partially effective were conserve management where appropriate; 
restore fish, wildlife and plant resources; ensure the unique 
values of wilderness and other special designation areas are 
protected; welcome and orient visitors; promote and enhance 
organizational excellence.
    The two strategic objective goals that we rated as 
ineffective were protect resources and visitors through law 
enforcement and strategically grow the Refuge System.
    A few of the highlights in terms of the accomplishments 
that we came across that I would just like to note is in terms 
of the CCP process. The Refuge System is supposed to have all 
CCPs completed for refuges by 2012. While the rate of progress 
was initially slow, it has picked up considerably in the last 
few years, and it appears to us that the Refuge System is 
pretty much on track to meet that objective.
    In addition, it is mandated that the Refuge System work 
with state fish and game agencies on the development of CCPs. 
When we undertook a survey of state fish and game agencies, 94 
percent had said they had been provided meaningful 
opportunities to participate in that process, and 95 percent of 
the respondents said that being involved in the CCP process had 
improved communications and coordination between the state 
agencies and the Refuge System.
    Also during the period of the study between 1996 and 2000 
there was a substantial increase in refuges that were providing 
hunting and fishing opportunities. In fact, the number of 
refuges providing hunting opportunities during this period 
increased by 24 percent up to 366.
    In addition, the one area that we rated as highly effective 
was the Refuge System's strategic objective to facilitate 
partnerships. We found that there has just been a tremendous 
level of support from Refuge System partners. It hasn't been 
accidental. The Refuge System has undertaken programs to 
nurture this program.
    In the latest year that information was available when we 
were undertaking this study, there was $50 million brought into 
the system in 2006 and $30 million of that was in direct cash 
contributions, so that is a tremendous achievement in terms of 
partner contributions.
    A few areas that we felt were most affected by insufficient 
financial support was the law enforcement program, which simply 
has too few officers and it is unable to provide adequate 
coverage within the Refuge System. We also noted that the pace 
of realty acquisition has slowed dramatically in recent years 
due to budget declines.
    And I think the third area where we felt was most affected 
by insufficient funding was the biological inventory and 
monitoring work that was being conducted. We felt, and the 
refuge managers agreed in the survey, and this was confirmed 
through our field visits, that there was just an insufficient 
level of inventory and monitoring being done.
    Just in conclusion, I would just like to thank the Refuge 
System for their open embrace of the process that we undertook. 
We were given complete access to all staff and all information.
    I think that it is not easy for an organization to undergo 
an open and independent evaluation like this, but all of the 
top managers in the Refuge System were very cooperative and 
they were very sincere in their interest in using this to make 
improvements where those improvements are possible.
    Thank you.
    [The prepared statement of Mr. Callihan follows:]

                Statement of David Callihan, Director, 
                    Management Systems International

    The National Wildlife Refuge System contracted with Management 
Systems International in September 2006 to conduct an independent 
evaluation of the overall effectiveness of its program. The 
evaluation's purpose was to identify program strengths and weaknesses, 
and to determine whether and to what degree the Refuge System is 
achieving its conservation mission.
    This testimony document is principally drawn from the Executive 
Summary of the MSI report entitled An Independent Evaluation of the 
Effectiveness of the U.S. Fish and Wildlife Service's National Wildlife 
Refuge System, which was finalized in June 2008. In addition, some 
material has also been included from the full report in order to cover 
areas that are most pertinent to this hearing. The research for the 
evaluation was conducted between October 2006 and September 2007 and 
thus represents a snapshot in time; some of the report's findings and 
budgetary figures are now out of date.
    This report produced by MSI is an evaluation of the effectiveness 
of the performance of the National Wildlife Refuge System and contains 
analysis on the Refuge System's ability to effectively achieve the 
twelve Strategic Outcome Goals contain in its 2007 Strategic Plan. The 
summary of the complete evaluation includes an overall performance 
rating, conclusions and recommendations for each of the Refuge System's 
twelve strategic outcome goals. A complete set of evaluation findings 
can be found in the full report--An Independent Evaluation of the 
Effectiveness of the U.S. Fish and Wildlife Service's National Wildlife 
Refuge System (MSI, June 2008). In addition to findings, the complete 
evaluation report contains response data from three surveys (refuge 
managers, state fish and game agencies, and Friends Groups/partners), a 
list of all persons interviewed approximately 250), references, and a 
bibliography.
Budgetary Impacts on Program Performance
    Over the period of performance that was examined by MSI (roughly 
between the passage of the 1997 Refuge Impact Act and 2007) there was 
an overall decline in the Refuge System's budget; purchasing power 
declined by approximately 11% between the FY 2003 peak and the 
requested FY 2008 budget. (Note: The FY08 enacted budget restored most, 
but not all, of the decline in purchasing power.)
    We believe that the following areas of operation were most severely 
impacted by declining budget allocations:
    <bullet>  The law enforcement program has too few officers and does 
not have adequate resources to hire enough officers. As a result, there 
is insufficient law enforcement coverage.
    <bullet>  The pace of realty acquisition has slowed in recent years 
as a result of budget declines.
    <bullet>  Anecdotal and survey evidence suggests that biological 
survey and monitoring work has declined.
    <bullet>  Over the past five years or so, as real budgets have been 
in decline, refuges in several administrative regions have found that 
they had been expending upwards of 90% of their operations and 
maintenance funds on personnel costs, which left insufficient funds for 
operational tasks and projects, such as habitat restoration. The result 
of this re-balancing exercise has been to revisit and reduce staff in 
several regions, which also has meant reducing programs and operations. 
Some illustrative impacts of the workforce planning exercise are 
expected to include:
      <all>  In Region 4, up to 20% of the workforce is expected to be 
eliminated (from its peak in FY2003), which will result in a 
significant cutback in some services. For example, these cutbacks will 
include: reducing the number of days per week that some refuge visitor 
centers are open; reducing trail maintenance; reducing biological 
inventory and survey work; cutting back or eliminating visitor service 
programs, such as environmental education; and operating some refuges 
without any staff (de-staffing).
      <all>  In Region 5, a number of refuges are being de-staffed as a 
means to move forward with staff cuts, while full biological and public 
use programs will be maintained only at select ``stay strong'' refuges. 
In addition, recognizing the need to ``do less with less,'' the 
Regional Office is asking all refuges to focus their visitor service 
programs on two public uses, rather than on each of the ``Big 6'' 
activities.
      <all>  A number of refuges are being de-staffed; for example, in 
Region 5, 7 of 71 refuges were expected to be de-staffed within the a 
year of the workforce plan's completion plan.
    In other regions the staff cutbacks under workforce planning have 
not been as severe. For example, the CNO and Alaska regions were not 
expected to have to make any significant cut-backs in staffing.
    <bullet>  In several regions, key services such as visitor 
programs, environmental education, and biological monitoring are being 
curtailed or eliminated.
    <bullet>  As a counterbalance to the above, over the past ten years 
the Refuge System has been able to significantly expand participation 
by volunteers and Friends Groups. Partnerships with thousands of local 
and national organizations make a significant contribution to the 
accomplishment of the Refuge System's key objectives, particularly in 
the areas of habitat restoration and visitor services; and partnerships 
bring a tremendous amount of funding into the system--in 2005 alone the 
total value of partnership contributions to the Refuge System exceeded 
$50 million, with over $30 million of the total being in direct cash 
contributions. The level of volunteer support increased dramatically 
over the past ten years--from 383,983 hours in 1987 to 1,478,797 in 
2005.
Background
    The U.S. National Wildlife Refuge System was created by Executive 
Order On March 14, 1903, when President Theodore Roosevelt established 
the country's first wildlife refuge on Florida's central Atlantic 
coast--the Pelican Island National Wildlife Refuge (NWR). From its 
modest beginning on Pelican Island the Refuge System has expanded into 
a network of over 550 distinct units that encompasses over 95 million 
acres. Alaska contains approximately 76.8 million acres of refuge 
lands, or about 80% of the land in the total system.
    To accomplish its mission the Refuge System finalized a strategic 
plan in early 2007 that contains twelve strategic outcome goals (SOGs). 
These goals cover the areas of habitat and wildlife conservation, 
wildlife-dependent recreation, law enforcement, fire management, 
welcoming and orienting visitors, wilderness management, conservation 
planning, infrastructure and equipment maintenance, strategic growth 
and organizational excellence. The Refuge System is part of the United 
States Fish and Wildlife Service, which is managed by the Department of 
Interior. The National Wildlife Refuge System collaborates closely with 
other Fish and Wildlife Service programs, including the migratory 
birds, endangered species and fisheries programs.
    The MSI evaluation report reviews the Refuge System's twelve 
strategic outcome goals and provides an assessment as to how well the 
system is doing in accomplishing each goal. In addition, a section on 
the Refuge System's operating context, which analyzes budget and 
administrative trends over the past several years, has also been 
included.
Evaluation Methodology
    The evaluation was conducted between October 2006 and September 
2007 and used a multi-method and multi-source data collection 
methodology. <SUP>1</SUP> MSI used a multi-source methodology to 
overcome the limitation of having to base analysis on a single source 
of information as single-source data may have weaknesses or unduly bias 
conclusions. In addition, a multi-method approach allows for a greater 
depth of understanding of particular issues.
---------------------------------------------------------------------------
    \1\ Expect for two surveys (partner survey and state fish and game 
agency survey), evaluation activity was completed by September 2007; 
the surveys were completed in April and May 2008.
---------------------------------------------------------------------------
    The principal data collection processes used in this evaluation 
included:
    Fish and Wildlife Service (FWS) and Partner Interviews: More than 
250 interviews were conducted as part of this evaluation. Those 
interviewed included: Refuge System managers in Washington; a wide 
range of FWS field staff, from both regional offices and field 
stations; Refuge System stakeholders in Congress, the Department of the 
Interior and the Office of Management and Budget (OMB); national and 
local NGO partners; and staff from state fish and wildlife agencies.
    Site Visits: The evaluation team visited all eight Refuge System 
regional offices and at least two refuges in each region. Refuge and 
regional office visits included meetings with refuge and regional 
office staff, state fish and game officials and non-governmental 
partners, such as representative from the Audubon Association, Ducks 
Unlimited, the Nature Conservancy, Friends Groups and other local 
partners.
    Refuge Managers Survey: An on-line Refuge Manager's Survey was 
conducted between March 21st and April 19, 2007. The survey was a 
combination of close-ended and open-ended questions structured to 
collect information on the implementation and effectiveness of the 
Refuge System's twelve strategic outcome goals. A total of 312 refuge 
managers completed the survey, which represents a survey completion 
rate of over 90% of current refuge managers.
    Partners and State Fish and Game Surveys: Two additional surveys 
were conducted to solicit the views of Refuge System partners on the 
quality of their partnerships with the Refuge System and on their views 
of the Refuge System's effectiveness. These surveys were:
    <bullet>  A survey of local Partners and Friends Groups was 
undertaken from March 17-25, 2008. A total of 83 responses were 
received from 98 potential respondents. The response rate was 85%.
    <bullet>  A survey of officials from state fish and game agencies 
was conducted from April 29-May 16, 2008. Responses were limited to one 
response per state agency. A total of 32 states responded to the 
survey, which constitutes a response rate of 64%.
    Review of Existing Data: This included documents and databases, 
both from the Refuge System and from other land management agencies--
the latter which provided context and benchmarking. Analysis included a 
careful review of the Refuge System's annual performance monitoring 
database--the Refuge Annual Performance Plan (RAPP).
Principal Findings and Conclusions
    An overview of the performance of each Strategic Outcome Goal is 
provided in the table below and a brief discussion of each SOG follows.
[GRAPHIC] [TIFF OMITTED] T4614.009

Operating Context:
    Budget Trends: NWRS budgets have declined over the past several 
years, with actual purchasing power having declined about 11% between 
the FY 2003 peak and the requested FY 2008 budget. (Note: The FY08 
enacted budget restored most, but not all, of the decline in purchasing 
power.) During this period of budget decline some Refuge System costs 
have increased due to inflation and annual adjustments, e.g. salaries. 
As a result, the Refuge System has not been able to maintain its level 
of operational activity from one year to the next--services and 
personnel have had to be cut back. Maintenance funding, however, has 
significantly increased--with a jump of 436% over eight years (FY 
1996--FY 2004).
    Recent budget declines appear to have severely affected refuge 
operations. This is evident based on a number of findings, including:
    <bullet>  94% of refuge managers' survey comments indicated an 
inability on the part of the NWRS to accomplish its mission due to 
inadequate budgets and staffing;
    <bullet>  Workforce planning exercises are leading to significant 
cutbacks in personnel and services; for example, the Region 4 plan 
calls for a 20% reduction in staff;
    <bullet>  In several regions, key services such as visitor 
programs, environmental education, and biological monitoring are being 
curtailed or eliminated; and
    <bullet>  A number of refuges are being de-staffed; for example, in 
Region 5, 7 of 71 refuges will be de-staffed within the next year.
    Administration/Workload: Refuge System administrative reporting has 
reached an unbalanced and critical level and is diverting time and 
resources away from mission-critical activities. There has been a clear 
trend, particularly over the past five years, of increased workload 
requirements and increased administrative reporting. While some of the 
workload requirements, such as the need to produce CCPs, directly 
support the core mission of the Refuge System, much of the work relates 
to administrative requirements, such as the implementation of multiple 
and apparently redundant timekeeping and accountability processes. Much 
of the effort to address accountability concerns is disproportionate to 
the resources involved; for example, small refuges must use the same 
complex systems as large refuges even though their discretionary annual 
operations budgets may be as a small as $20,000-$30,000 per year. The 
Refuge System places an emphasis on accountability that often times 
appears to be disproportionate to the level of resources being 
monitored, which is not cost effective and is a distraction to a focus 
on the organization's core conservation mission.
    Overall Operating Context: The confluence of declining budgets, 
declining staff, and a significant increase in administrative workload 
has impaired the Refuge System's ability to focus on and accomplish its 
core mission--that of conserving habitat and resources.
    Concurrent with declining budgets, the Refuge System has also 
experienced an increase in administrative requirements. Together, these 
factors have had a negative effect on the Refuge System's ability to 
achieve its core goals--refuge managers have less time, and less money, 
to focus on the accomplishment of their mission than was the case five 
years ago. The areas most impacted have included: the Refuge System's 
ability to conduct adequate monitoring and inventory work; the law 
enforcement program, which simply has too few officers to enable the 
Refuge System to provide adequate law enforcement coverage; and the 
rate of growth of the Refuge System, which has declined markedly over 
the past five years.
SOG 1: Conserve Manage, and Where Appropriate, Restore Fish, Wildlife 
        and Plant Resources and Their Habitats.
    Partially Effective: This objective is rated ``Partially 
Effective'' because of the significant amount of refuge land that is 
need of additional management attention and the inconsistent 
application of science-based management across the Refuge System. As 
per the Refuge System's RAPP performance reporting system, 89% of 
refuge lands--76.5 million acres--are in Class I condition, which means 
the land is receiving needed management action or does not require 
additional management action at this time. Alaska's sixteen refuges 
report that 98% of their habitats were in Class 1 condition in 2006 (as 
per RAPP data reporting). However, for NWRS lands outside of Alaska, 59 
% of the 18.9 million acres were reported as being in Class 1 condition 
in 2006--meaning that 41% are in need of management attention.
    A significant portion of refuges have not developed Habitat 
Management Plans and there is an insufficient level of biological 
inventory and monitoring work being done--only 11% of refuge managers 
surveyed described the current level of inventory and monitoring work 
as being mostly or fully sufficient.
SOG 2: Provide Quality Environments with Adequate Water.
    Unable to Evaluate: This objective is rated ``Unable to Evaluate'' 
as a result of the limited information available against which to 
undertake an assessment of this strategic goal. The Refuge System does 
not currently operate a well defined and structured water resources 
program. There is currently no individual or office designated to 
coordinate the Refuge System's water rights and water quality 
activities.
SOG 3: Ensure that Unique Values of Wilderness, other Special 
        Designation Areas, and Cultural Resources are protected.
    Partially Effective: The NWRS contains about 20.7 million acres of 
wilderness, of which approximately 90%, or 18.6 million acres, is in 
Alaska. In addition, about 1.9 million of proposed acres of wilderness 
exist in the NWRS. The NWRS currently operates under the 1986 
Wilderness Stewardship Policy. This policy is outdated and does not 
provide Refuge Managers adequate guidance regarding permissible 
management actions. A new draft policy has been developed and was 
released for public comment in 2001 but has never been finalized. The 
NWRS has supported the development of wilderness training courses and 
refuge managers overwhelmingly feel these courses have been effective 
in enabling them to acquire the skills necessary to manage wilderness 
areas; 64% of refuge managers who manage wilderness areas have 
completed the required wilderness training.
SOG 4: Welcome and Orient Visitors.
    Partially Effective: The NWRS is reasonably effective in terms of 
informing and engaging refuge visitors but could easily improve its 
performance in this area. Brochures are generally informative and 
available at refuges, and refuge employees and volunteers are able to 
provide helpful and informative answers to visitor questions. However, 
videos and CDs--very engaging and effective means of providing 
information to refuge visitors--are substantially underutilized. The 
information provided on refuge websites is very inconsistent from 
refuge to refuge and frequently provides only the most basic 
information. The NWRS could do a substantially better job at orienting 
visitors by improving its websites and making sure website content is 
updated and consistent.
SOG 5: Provide Quality Wildlife-Dependent Recreation and Education 
        Opportunities.
    Effective: The Refuge System has done a good job at expanding the 
number of refuges that offer wildlife-dependent recreation 
opportunities and, overall, the visitor satisfaction rate at refuges 
appears to be very high ``above 90% in the 2002 and 2004 surveys (note: 
the surveys were conducted only at fifty high visitation refuges). In 
terms of the individual Big 6 recreational activities, the operation of 
hunting, fishing, wildlife viewing, and photography programs are 
generally operating at a satisfactory level in terms of the Refuge 
System's ability to provide an adequate level of service and in terms 
of the support provided to those programs by the Refuge System. The 
environmental education and interpretive programs, on the other hand, 
are not able to meet public demand and are not adequately supported by 
the Refuge System. This latter conclusion is based solely on the view 
of refuge managers: 55% of refuge managers surveyed indicated they are 
not able to adequately meet the demand for environmental education 
services and 48% indicated they are not able to meet the demand for 
interpretive services.
SOG 6: Facilitate Partnerships and Cooperative Projects to Engage Other 
        Conservation Agencies, Volunteers, Friends, and Partners in the 
        NWRS Mission.
    Highly Effective: This objective was rated highly effective for 
several reasons: over the past ten years the Refuge System has been 
able to significantly expand participation by volunteers and Friends 
Groups; partnerships with thousands of local and national organizations 
make a significant contribution to the accomplishment of the Refuge 
System's key objectives, particularly in the areas of habitat 
restoration and visitor services; and partnerships bring a tremendous 
amount of funding into the system--in 2005 alone the total value of 
partnership contributions to the Refuge System exceeded $50 million, 
with over $30 million of the total being in direct cash contributions.
    State Fish and Game Agencies: 88% of state agencies rated the 
quality of their relationship with individual refuges as between good 
and excellent; 47% rated the quality of the relationship as excellent 
or very good.
    Partner Agencies: 93% of partners rated the quality of their 
relationship with individual refuges as between good and excellent; 56% 
rated the quality of the relationship as excellent.
SOG 7: Protect Resources and Visitors through Law Enforcement.
    Ineffective: Low staffing levels are leading to a substantial and 
critical lack of law enforcement coverage and capability at many 
refuges across the system. At many refuges, law enforcement coverage is 
insufficient to ensure the protection of resources and the safety of 
visitors and refuge staff. A substantial majority of refuge managers 
(over 70%) feel visitor safety and law enforcement performance has 
declined in recent years. The issue of public safety is of particular 
concern given that only seven of the refuge managers from 50 high 
visitation refuges (with annual visitation in excess of 250,000) who 
responded to the MSI survey indicated that law enforcement coverage is 
sufficient on their refuge. It is highly unlikely that any meaningful 
progress towards improving the Refuge System's law enforcement 
capability can be achieved under current and expected budget allocation 
levels.
SOG 8: Provide Infrastructure and Equipment Adequate to Support Mission 
        and Maintained in Good Condition.
    Effective: The most important refuge assets--those most necessary 
to the achievement of refuge conservation and public use objectives--
are generally well maintained. Seventy-five percent of refuge managers 
surveyed feel that the assets most critical to their refuge's mission 
and purpose, such as water management systems, are maintained in a 
condition adequate to support and achieve those goals. An important 
caveat to this conclusion is the fact that a substantial minority of 
refuge managers (40%) believe their refuges require new facilities if 
they are to meet their purpose and objectives. In the mid-1990s, the 
maintenance of the Refuge System's infrastructure and equipment was a 
critical concern and the maintenance budget subsequently increased 
dramatically--from $21 in 1996 million to $91.5 million in 2004 (a 336% 
increase over eight years in actual funding dollars). The availability 
of increased funds over the past seven or eight years has allowed the 
Refuge System to effectively address preventive maintenance 
requirements. Subsequent to 2004, however, maintenance funding dipped 
substantially--a decline of 30% from 2004 to 2007. It is important to 
note that if the recent backsliding in maintenance funding is not 
reversed infrastructure maintenance will soon once again become a 
critical problem.
SOG 9: Complete Quality and Useful Comprehensive Conservation Plans 
        (CCPs) on Schedule and with Full Engagement of Partners.
    Effective: The NWRS is required to complete CCPs for 554 refuges by 
2012. To date, two hundred and five refuges have completed CCPs--or 
about 37% of required units (analysis as per mid-2207). Although the 
pace of CCP completion has accelerated significantly over the past few 
years, the Refuge System is slightly behind schedule in terms of 
meeting its CCP completion target. In April 2007, the Refuge System 
began implementing the 2012 Plan, an Action Plan to Meet Our 
Legislative Mandate, which lays out a series of actions intended to 
ensure that all required CCPs are completed by 2012. Overall, refuge 
managers have found CCPs to be a useful tool for clarifying objectives, 
guiding habitat management decisions, and clarifying public use 
decisions.
    As per the MSI State Fish and Game Agency Survey: 94% of state 
agencies agreed or strongly agreed that they had been provided an 
opportunity to meaningfully participate in the CCP process; 95% of 
state agencies agreed or strongly agreed that their participation in 
the CCP process had improved their communication and coordination with 
the Refuge System.
SOG 10: Strategically Grow the System.
    Ineffective: This objective was rated ineffective for a number of 
reasons, including: the rate at which land has been added to the NWRS 
has declined significantly over the past five years; land purchased by 
the Refuge System often does not match the priorities identified by the 
NWRS' Land Acquisition Priority System, especially over the past few 
years; and the current DOI-managed land appraisal process that the NWRS 
uses is ineffective and cannot be relied upon to produce timely or 
accurate appraisals, resulting in available land deals being lost.
SOG 11: Reduce Wildfire Risks and Improve Habitats.
    Effective: This objective is rated ``Effective'' as a result of the 
systematic planning and execution by which the NWRS utilizes prescribed 
fire to improve wildlife habitat and reduce fuels loads and also for 
the Refuge System's ability to fight and suppress wildfires. Where 
refuges have the qualified staff and budget, the high level of 
planning, training, and coordination results in application of 
prescription fire to improve and maintain habitats, reduce fuel loads, 
and suppress unwanted wildfire. Based on MSI surveys and interviews, it 
appears that approximately one-half of the NWRS has the resources it 
needs--both budget and personnel--to use fire as a habitat management 
tool. For other units, issues of staffing, available budget, the 
growing percentage of Wildland Urban Interface lands, and the location 
of refuges relative to other fire resources impair the system's ability 
to promote prescription fire while proactively addressing fuels 
availability and effective wildfire suppression.
SOG 12: Promote and Enhance Organizational Excellence.
    Partially Effective: The Refuge System has introduced a number of 
new management and planning systems over the past several years, 
including a medium-term strategic plan, activity-based costing, RAPP 
work planning and reporting systems, and refuge-level comprehensive 
conservation planning. The Refuge System is also currently undertaking 
a Workforce Planning exercise to help better balance personnel and 
operational expenditures and to prioritize staffing and programs in 
consideration of declining budgets. The RAPP system has enabled the 
NWRS to better track and report on national-level accomplishments and 
the budget rebalancing exercise will, over time, provide managers 
greater flexibility to address local priorities. The RAPP system, 
however, has not proved useful to analyzing program effectiveness nor 
is it used for program decision-making. In addition, there is 
significant inconsistency within the Refuge System in how policies and 
programs are implemented across regions. In particular, there is a 
great deal of variance in basic business management practices, such as 
budgeting, annual work planning and the use of station reviews/
evaluations.
Principal Recommendations
    This report contains specific recommendations for improving the 
effectiveness of the Refuge System in each of the individual strategic 
outcome goal sections. A brief summary of some of the recommendations 
most likely to improve performance are presented below.
    The Law Enforcement program needs increased funding: There is a 
severe shortage of full-time law enforcement officers that can only be 
addressed by hiring additional full-time law enforcement officers--
moving from current levels of around 200 full-time officers to at least 
400 full-time officers. Implementation of this recommendation will 
require substantial resources, but an acceptable improvement in law 
enforcement coverage is of fundamental importance to the on-going 
effectiveness of the Refuge System.
    The Refuge System should find a way to increase policy and program 
consistency across regions and between refuges: Part of this process 
could include standardizing budget development, work planning, 
reporting and evaluation requirements. Another aspect of this 
recommendation is the need to develop a clear point of authority and 
process for ensuring greater policy consistency.
    Reduce administrative and reporting requirements: The Refuge System 
should strive to reduce administrative and reporting requirements--
particularly for smaller refuges (seven or fewer staff).
    Review the Need to Hire Additional Biologists: As noted in the 
conclusion section, in part, the Refuge System is unable to fulfill its 
commitment to manage refuges using an adaptive management process 
because of a shortage of biologists (approximately 20% of the Refuge 
System's workforce are biologists). It is recommended that the Refuge 
System review the adequacy of its biology workforce as compared to 
system needs. The White Paper produced for the Conservation in Action 
Summit recommended that biological teams be added to the top 50 
refuges. An assessment should be undertaken to determine the degree to 
which this has happened.
    Biological monitoring and inventory work needs to be increased and 
a more consistent approach should be developed and implemented: The 
effort of developing a system-wide geographic monitoring capability 
should be continued and provided increased emphasis. For example, 
efforts should be made to build upon the Refuge Lands Geographic 
Information system (RLGIS) and accelerate and adequately resource the 
implementation of the Strategic Habitat Conservation Initiative. The 
Refuge System's challenge is to better define high-priority system-wide 
needs, identify best practices that meet these needs, and replicate 
these systems in an increased number of locations.
    Develop a water strategy: The Refuge System should develop an 
overall strategy and management structure to more effectively assess 
and address water management issues. Steps to develop such a program 
would include appointing a Water Resources Coordinator and developing a 
policy, or at least a defined process, for how refuges should assess 
and manage water rights. As the Refuge System reviews the need to 
bolster its approach to water management it could also take the 
opportunity to review other program and issue areas that may benefit 
from increased attention, such as the impacts of climate change and its 
influence on how the Refuge System should be managed.
    Develop consistent and improved refuge websites: Develop a single 
website format/architecture for each of the refuge unit's websites. 
There are several options available in terms of the approach used to 
manage refuge websites; however, the most efficient option would likely 
be to centralize the function in a single office or under a single 
contract.
    Prioritize visitor services: In light of high public demand for 
wildlife-dependent recreation and the Refuge System's limited and 
stretched budgets, the Refuge System should prioritize the public use 
services it will offer and provide some guidance to refuges and regions 
as to how limited resources should be allocated among the various 
wildlife-dependent recreational activities. Particular attention should 
be given to better defining and supporting environmental education and 
interpretation programs, where such programs are appropriate and of 
high utility.
    Strengthen the Refuge System's strategic growth program: The Refuge 
System should develop a Land Acquisition Policy and a corresponding 
strategy to guide expansion of the system. It is recommended that the 
land acquisition policy/system be developed to be consistent with the 
Fish and Wildlife Service's Strategic Conservation Habitat Initiative, 
a geospatial system being adopted by the Service to identify and 
monitor conservation priorities. In addition, the Refuge System should 
engage in a discussion with the Department of Interior to enable it to 
improve the process it uses to appraise potential real estate 
transactions as the current Department of Interior mandated Appraisal 
Services Directorate (ASD) system is ineffective.
    Redesign the RAPP reporting system: This system should be 
redesigned based on a clarification of its purpose. If the system is to 
remain primarily an external reporting tool--for reporting to FWS, DOI, 
OMB, and Congress--then the system should be substantially simplified 
to focus on areas of key interest and the number of indicators tracked 
should be significantly reduced (by at least 50-60%). However, the RAPP 
system would be most useful to the Refuge System if it were redesigned 
to provide information that could help inform strategy and management 
decisions, which is not currently the case. This will require revising 
the system and also instituting practices to review and analyze the 
data for management decisions, e.g. an annual strategy and performance 
review workshop.
    It is also recommended that the Refuge System disaggregate 
reporting data between the Alaska region and the rest of the system. 
Because approximately 80% of all refuge land is in Alaska, and more 
than 90% of this land is classified as wilderness, aggregating Alaska 
performance data with that from the rest of the Refuge System provides 
a distorted picture of the overall system's condition, needs and 
performance accomplishments
    Develop a knowledge management program: The NWRS should implement a 
Knowledge Management System to foster information sharing, promote 
learning and to ensure that best practices are more widely disseminated 
and adopted. Consideration should be given to creating a dedicated 
Knowledge Management Unit, which would be responsible for program 
reporting (RAPP), archiving documents, managing evaluations, 
disseminating lessons and best practices, and responding to external 
information requests (together with public relations staff). The Unit's 
purpose would be to improve performance analysis and reporting and to 
raise the quality level of implementation practices across the Refuge 
System.
                                 ______
                                 
    Ms. Bordallo. I thank you very much, Mr. Callihan, and I 
thank you for your very thorough evaluation of the Refuge 
System.
    At this time I would like to introduce a Member of the 
Subcommittee, the gentleman from Wisconsin, Mr. Kind, who is 
the Co-Chair of the House National Wildlife Refuge Caucus and a 
co-requester of the GAO investigation, along with Chairman 
Rahall and myself.
    At this time I would like to have Mr. Kind make a few 
opening remarks.

   STATEMENT OF THE HONORABLE RON KIND, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF WISCONSIN

    Mr. Kind. Thank you, Madam Chair. I won't be long, but I do 
want to thank the panel for your testimony here today. I think 
this is an important and timely hearing.
    I want to express my appreciation for the work that GAO 
did, but also the cooperation that Fish and Wildlife and the 
Refuge System gave to GAO in the production of this report.
    Many of us are aware that the Fish and Wildlife Service 
conducted an independent evaluation to see whether the refuge 
was meeting the objectives, and Director Haskett was kind 
enough to come up on the Hill and brief many of us on an 
individual basis. We appreciated that feedback.
    But we do face some big challenges. It is one of the 
reasons many of us formed this bipartisan Refuge Caucus in 
Congress, given the importance of the issue, and we are looking 
for a plan to move forward. Many of us have been especially 
focused on the funding challenge that we see and whether we 
need to create a new paradigm and a new way of meeting the 
funding needs that we are obviously falling short on.
    Like so many of us around here, we have multiple 
obligations, so I might have to bounce back and forth to a 
couple other hearings that are taking place too, but I have 
read many of your testimony here today and look forward to the 
testimony and hopefully will have a chance later to ask a few 
questions.
    Thank you, Madam Chair.
    Ms. Bordallo. I thank the gentleman from Wisconsin, Mr. 
Kind.
    I would now like to invite Mr. Kurth to testify on behalf 
of the U.S. Fish and Wildlife Service.

   STATEMENT OF JIM KURTH, ACTING ASSISTANT DIRECTOR OF THE 
    NATIONAL WILDLIFE REFUGE SYSTEM, U.S. FISH AND WILDLIFE 
              SERVICE, DEPARTMENT OF THE INTERIOR

    Mr. Kurth. Madam Chairman and Members of the Subcommittee, 
I am Jim Kurth. I am the Acting Assistant Director for the 
National Wildlife Refuge System with U.S. Fish and Wildlife 
Service. I appreciate the opportunity to be here today to 
testify on the management and the performance of the National 
Wildlife Refuge System.
    As the Subcommittee is aware, the Refuge System is the 
world's preeminent system of public lands devoted to the 
protection and conservation of fish, wildlife and their 
habitat. It includes more than 97 million acres and spans half 
the globe, and it receives nearly 37 million visitors each 
year.
    We have heard from the GAO on their report of the changes 
in the Refuge System funding from 2002 to 2007 and how those 
changes affected habitat management and visitor services. You 
have also heard from Management Systems International about 
their independent evaluation of the effectiveness of the 
Service in meeting the 12 goals in the Refuge System strategic 
plan.
    The draft GAO report found that core funding for the Refuge 
System increased each year from 2002 to 2007, but when 
inflation is considered funding for the Refuge System actually 
peaked in Fiscal Year 2004 at about $391 million. It was 2.3 
percent below that peak in 2003. In other words, funding for 
the Refuge System from 2002 to 2007 was not maintaining its 
purchasing power.
    The Refuge System has managed this budget by effectively 
shifting its resources at both the regional and field station 
level so we could continue our mission critical work of 
protecting habitat and delivering services to our visitors at 
our highest priority stations. Unfortunately, the strategic 
decisions came at the tradeoff of not being able to deliver 
these functions as effectively at lower priority stations.
    We generally agree with the findings in the MSI report, and 
we offer these observations: The finding in the MSI report that 
the Refuge System was ineffective in refuge law enforcement is 
of greatest concern. We have made refuge law enforcement a top 
priority for the system. We have fallen short of our goal to 
reduce dependency on our dual function officers by replacing 
them with full-time officers. Refuge law enforcement remains 
one of the keenest challenges the Service faces today.
    We are also concerned that our performance is only 
partially effective in our core mission area of conserving 
fish, wildlife and their habitats. We are not really surprised 
at that finding, though, given the complexity and the diversity 
of the resource challenges we face today. The Service will 
focus heavily on addressing the report's recommendations on how 
to improve our performance in this area.
    We appreciate the fact that MSI's evaluation found our 
volunteer program and community partnerships to be highly 
effective. We have grown our volunteer workforce from 1980 at 
least than 5,000 to more than 32,000 today. They contribute 1.5 
million hours worth more than $25 million. These citizen 
conservationists greatly enhance the wildlife conservation and 
visitor services programs on refuges. Without them we could not 
effectively fulfill the Refuge System mission.
    I would like to acknowledge the work of this committee in 
enacting the Volunteer and Community Partnership Enhancement 
Act of 1998. This law really fueled the rapid growth of our 
friends organization from 75 in 1994 to more than 250 today.
    We have taken other innovative approaches to enhance our 
effectiveness and stretch our dollars. We have established a 
clear program that sets priorities for National Wildlife 
Refuges. If budgets do not keep pace with increasing cost, we 
eliminate positions at lower priority stations and focus our 
resources on the highest priority stations.
    The Service believes it is essential for refuge managers to 
have adequate funding to cover operational costs, provide 
training and fund priority projects. We consider this 
management capability an essential component in individual 
field station budgets. From 2004 to 2007, we eliminated 305 
permanent positions on refuges to assure we maintain this 
management capability on priority refuges. Today, refuge 
managers are better able to plan and implement projects than 
they were a few years ago.
    The MSI report ended in 2007. I would like to note that in 
2008 Congress appropriated a $36 million increase in refuge 
funding. We believe if the reviews had included 2008, they 
would have seen we have improved effectiveness in several areas 
that they considered. For example, we have hired an additional 
20 full-time law enforcement officers and have ensured that 
every refuge has its targeted level of management capacity 
funding.
    In conclusion, we agree with many of the findings of the 
MSI report and plan to implement a number of its 
recommendations. We wish that an independent review would have 
found that we were highly effective in meeting all our goals, 
but sometimes we have to acknowledge that we can't accomplish 
everything that we would like to.
    Director Hall has provided clear leadership, insisting we 
set priorities and make difficult decisions. We are proud to 
have kept the list of things we don't get done much shorter by 
enlisting volunteers in communities and creative partnerships.
    We believe the reports discussed today can be important 
tools that help the Service better deliver the mission of 
America's National Wildlife Refuge System.
    Madam Chairman, that concludes my prepared remarks, and I 
am happy to answer questions.
    [The prepared statement of Mr. Kurth follows:]

Statement of James Kurth, Acting Assistant Director, National Wildlife 
   Refuge System, U.S. Fish and Wildlife Service, Department of the 
                                Interior

    Chairwoman Bordallo and Members of the Subcommittee, I am James 
Kurth, Acting Assistant Director of the National Wildlife Refuge System 
(Refuge System) of the U.S. Fish and Wildlife Service (Service). I 
appreciate the opportunity to be here today to testify on evaluations 
of the National Wildlife Refuge System's performance.
    Your invitation asked that we comment on a recent report developed 
by the General Accounting Office (GAO) at the request of Congress that 
focuses on Refuge System funding from 2002 to 2007. We have had the 
opportunity to review a draft of the final version of this report and 
are currently developing an official response. Therefore, we are unable 
to provide formal comments on that GAO report at this time.
    Recently a report was prepared by Management Systems International 
(MSI) at the request of the Service in response to a need identified by 
the Administration's Program Assessment Rating Tool (PART), to conduct 
independent evaluations of the Refuge System program's effectiveness. 
PART is a management tool used by the Executive Branch to assess the 
performance of federal programs and to drive improvements in program 
performance. The PART evaluation includes questions that ask whether 
federal programs periodically undergo independent reviews of their 
performance. The MSI report was commissioned to address this issue. The 
Service agrees with the majority of the conclusions in the MSI report, 
as detailed below, and plans to follow a number of its recommendations 
for improving the Refuge System.
    The Service takes this report very seriously. We look at the report 
as a healthy exercise in objectively reviewing the Refuge System and as 
a tool to provide us with feedback on both the strengths and weaknesses 
of our operations. Consequently, the Service is already moving forward 
to use the findings and recommendations in the report in constructive 
ways to improve the Refuge System and better fulfill its mission.
National Wildlife Refuge System
    The mission of the National Wildlife Refuge System is to administer 
a national network of lands and waters for the conservation, management 
and where appropriate, restoration of the fish, wildlife and plant 
resources and their habitats within the United States for the benefit 
of present and future generations of Americans. The Refuge System is 
the world's preeminent system of public lands devoted to protection and 
conservation of fish and wildlife and their habitats.
    Today, the Refuge System receives over 36 million visitors every 
year and includes over 96 million acres of land and water spanning more 
than half of the globe. If a line was drawn from Guam National Wildlife 
Refuge in the Western Pacific Ocean to Green Cay National Wildlife 
Refuge in the Virgin Islands, that line would be about 9,500 miles 
long, east to west. A line drawn from Arctic National Wildlife Refuge 
at the top of Alaska to Rose Atoll National Wildlife Refuge in American 
Samoa would be about 5,000 miles, north to south. The Refuge System is 
a geographically diverse land, coastal and ocean conservation network. 
Refuges vary in size from the tiny half-acre Mille Lacs Refuge in 
Minnesota to the massive 19 million acre Arctic National Wildlife 
Refuge in Alaska. In total, the Refuge System contains 548 refuges and 
37 wetland management districts.
    The Refuge System's 2008 operations and maintenance budget of $434 
million funded the work of more than three thousand employees operating 
at more than 300 staffed offices around the world. As expected, our 
workforce contains many biologists and professional wildlife managers, 
but also contains professional educators, law enforcement officers, 
heavy equipment operators, fire fighters, real estate appraisers, 
business managers, and more than a few pilots and boat captains. From a 
budgetary standpoint, the Refuge System must be viewed as a large 
organization that requires many diverse and specialized functions to 
operate effectively.
    To fully understand the purpose of the Refuge System, we must also 
remember why it was created. President Theodore Roosevelt established 
the first refuge in 1903 when he reserved Florida's Pelican Island as a 
place where nesting birds would be protected from overexploitation. 
President Roosevelt was a bold conservationist, and in his 
autobiography he wrote proudly of establishing 51 ``National Bird 
Reservations'' during his Presidency. Nearly all of his reservations 
are now units in the Refuge System. In regard to this work, Roosevelt 
remarked:
        ``The creation of these reservations at once placed the United 
        States in the front rank in the world work of bird protection. 
        Among these reservations are the celebrated Pelican Island 
        rookery in--Florida;--the extensive marshes bordering Klamath 
        and Malheur Lakes in Oregon;--and the great bird colonies on 
        Laysan and sister islets in Hawaii, some of the greatest 
        colonies of sea birds in the world.'' <SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ An Autobiography by Theodore Roosevelt. Published by Macmillan, 
1913.
---------------------------------------------------------------------------
    President Roosevelt foresaw that saving places where wildlife was 
abundant would make the United States a world leader in conservation 
and make our Nation wealthier. Our ability to conserve wildlife is 
still an important part--and an important symbol--of the American 
spirit. The Refuge System thus represents places where habitat and 
wildlife are so rich that it is in the American public's interest to 
ensure those habitats and wildlife are conserved for present and future 
generations.
    The Refuge System is a source of pride in the American 
consciousness. Evidence of this pride can be seen in the number of 
volunteers and Friends organizations formed to help local refuges 
function. People understand the value contained in National Wildlife 
Refuges and as a result every year more than 30,000 citizens volunteer 
their time to help their local refuges. The monetary value of their 
work last year alone was calculated at more than $25 million. The 
Service is indebted to these volunteers for their hard work and support 
for the Refuge System.
The Management Systems International (MSI) Report
    The Service contracted with Management Systems International (MSI) 
to complete an independent evaluation of the Refuge System in response 
to a need identified through the Administration's Program Assessment 
Rating Tool (PART). The PART is a management tool used by the Executive 
branch to assess the performance of federal programs and to drive 
improvements in program performance. The PART helps inform budget and 
management decisions and identify actions to improve program results. 
The purpose of PART assessments is to review overall program 
effectiveness, from how well a program is designed to how well it is 
implemented and what results it achieves. As such, the PART examines 
those factors within the control of the program as well as factors that 
may influence the program. The PART asks programs whether they 
periodically undergo independent reviews of their performance. The MSI 
report was commissioned by the Service to address this issue for the 
Refuge System program.
    In order to make the report as valuable as possible, the Service 
asked MSI to ensure that the report was independent and objective. We 
also facilitated surveys of our staff, provided MSI with information in 
our data systems, and reviewed their recommendations for feasibility, 
but did not provide feedback on whether we agreed with MSI's findings 
or recommendations. The final report, entitled ``An Independent 
Evaluation of the Effectiveness of the U.S. Fish and Wildlife Service's 
National Wildlife Refuge System'' took two years to complete. It 
contains what we believe is a very comprehensive and objective 
evaluation of the Refuge System's strengths, weaknesses, performance 
and information gaps. It concludes with a summary rating of how 
effective the Refuge System is with respect to each of twelve strategic 
goals identified in the National Wildlife Refuge System Strategic Plan. 
The Service does not agree with all the findings and recommendations in 
this report, but we agree with many and are already moving forward to 
address them.
    The twelve strategic goals evaluated in the MSI Report are 
identified in the National Wildlife Refuge System Strategic Plan. They 
primarily align with our functional areas. They include:
    <bullet>  Conserve, manage, and where appropriate, restore fish, 
wildlife and plant resources and their habitats
    <bullet>  Provide quality environments and adequate water
    <bullet>  Ensure that unique values of wilderness, other special 
designation areas, and cultural resources are protected
    <bullet>  Welcome and orient visitors
    <bullet>  Provide quality wildlife-dependent recreation and 
education opportunities
    <bullet>  Facilitate partnerships and cooperative projects to 
engage other conservation agencies, volunteers, Friends groups, and 
partners in the Refuge System mission
    <bullet>  Protect resources and visitors through law enforcement
    <bullet>  Provide infrastructure and equipment adequate to support 
mission and maintain it in good condition
    <bullet>  Complete quality and useful comprehensive conservation 
plans on schedule and with full engagement of partners
    <bullet>  Strategically grow the Refuge System
    <bullet>  Reduce wildfire risks and improve habitats
    <bullet>  Promote and enhance organizational excellence
    In short, the report concludes that the Service is ``highly 
effective'' in one strategic goal, and ``effective'' in four others. 
The report also finds that we are ``partially effective'' in four 
goals, and ``ineffective'' in two. MSI concluded that they were unable 
to evaluate the goal of providing quality environments with adequate 
water because of a lack of information.
    The Refuge System was found highly effective in the goal of 
facilitating partnerships and cooperative projects to engage others in 
our conservation work. The evaluators looked at how Refuge System staff 
work with volunteers, Friends groups, State partners, nongovernmental 
organizations (NGOs) and other agencies and found that we do a very 
good job of developing these relationships and using them to help 
accomplish the Refuge System mission. We are especially proud that the 
results from the survey of the state wildlife agencies--some of our 
most important partners--found that 88 percent of state agencies rated 
their relationship with individual refuges between good and excellent. 
Similarly, 93 percent of all our partners, which includes State 
agencies as well as NGO's and Friends organizations, rated the quality 
of their relationship with individual refuges between good and 
excellent. We feel these are impressive results for an organization the 
size of the Refuge System, especially considering the difficult and 
complex nature of many of our resource management challenges.
    For eight of our twelve strategic goals the Refuge System was rated 
in the mid-range of effective to partially effective. These included 
some of our most important core functions, such as conserving fish, 
wildlife and habitat, and delivering visitor services. The Service will 
focus heavily on addressing these recommendations. These conclusions 
highlight some of the common challenges we face across the Refuge 
System, such as: addressing invasive species issues, securing adequate 
water supplies, and delivering quality educational and interpretive 
programs. The MSI report is the most complete evaluation we have of 
those operations, and it makes many detailed recommendations on how the 
Refuge System might improve our performance in these areas. We have 
already formed teams of staff to review these recommendations and 
develop action items to improve our performance in these key areas.
    Finally, two strategic goals that were found to be ineffective 
included law enforcement and strategic growth. The Department of the 
Interior and the Service have directed numerous reforms in the refuge 
law enforcement program following two reviews by the Departments 
Inspector General in 2001 and 2002. The events of September 11, 2001, 
also added additional focus to our law enforcement program and 
additional responsibilities related to national security. Most of those 
reforms are complete. However, the decision to transition away from 
dual-function officers to a force composed completely of full-time 
officers has been especially challenging to implement. The Refuge 
System committed to making this transition and envisioned a way it 
could be done smoothly without a loss of law enforcement capacity. 
Unfortunately, the phase-out of dual function officers and a 
corresponding phase-in of full time officers has not evolved as 
planned. Nevertheless, we have made refuge law enforcement a top 
priority for the Refuge System and it remains one of the keenest 
challenges the Service faces today. For example, in 2008 we used $3 
million of an increase refuge operations funding to provide for twenty 
new full-time officer positions.
    The MSI report also rates the Service ineffective in the area of 
strategic growth, citing as the primary reason the rate at which land 
is being added to the Refuge System and the fact that this rate has 
declined significantly over the past few years. This is not unplanned 
as we believe that it is appropriate for the Refuge System to slow its 
rate of land acquisition in a period when the Refuge System is 
challenged to maintain the acres it already has under its jurisdiction. 
We believe this is a key to strategically grow the refuge, along with 
working with partners and increasing support and participation from 
conservation partners and the public. The MSI report looked solely at 
the physical growth aspect of the goal. We are cognizant of that fact 
that the cost of land changes, and in those situations where we need to 
acquire additional land to complete a refuge or expand a refuge that is 
located in a biologically rich location, our we must use our various 
authorities to our fullest ability with the tools we have. The Refuge 
System does not have to own every acre that needs protection, and we 
are working with our partners to use innovative approaches to land 
protection. For example, for years the Service has worked with 
conservation partners to look across biological landscapes and make 
collaborative decisions about what organization can most effectively 
protect what area. The Papahanaumokuakea Marine National Monument 
created in the Northwest Hawaiian Islands in 2006 is a recent example. 
The Refuge System is a major partner in management of the National 
Monument, and in tandem with other federal agency and state partners we 
help protect more than 139,000 square miles of marine habitat--a much 
bigger accomplishment than any one organization could ever hope to 
accomplish.
U.S. Fish and Wildlife Service Perspectives
    The MSI examined trends in the annual operating budgets of the 
Refuge System and the impact on Refuge System performance. Not 
surprisingly, some broad patterns emerged regarding the Refuge System. 
These broad patterns are important to consider but also need to be 
carefully evaluated because they provide one view of the trends which 
have been the context for many of our management decisions over the 
past few years.
    The MSI report references statistics that compare funding to FY 
2003 which was the Centennial of the Refuge System. Additional funds 
were provided by Congress to the Refuge System in FY 2003 and FY 2004 
related to the Refuge System Centennial. Specific activities and 
projects were funded and were never meant to establish a new long term 
funding operations budget baseline. A better comparison would have been 
FY 2001 or the beginning of the Administration. When comparing refuge 
funding in FY 2008 to the FY 2001 appropriated level of $300 million, 
adjusted for inflation, the Refuge System budget has outpaced inflation 
by $75 million or 21 percent. This is one of the largest increases in 
the Service for any program.
    For the past two years, the Refuge System has been reexamining its 
workforce and realigning staffing to better meet today's challenges in 
wildlife conservation. The Refuge System has already undertaken a 
number of steps to better deliver its mission in a performance-driven, 
priority-based manner. These steps include:
    <bullet>  Strategic planning at the Department, Service, and Refuge 
System level;
    <bullet>  Targeted increases for the Refuge System's highest 
priorities including invasive species control, borderland security, and 
maintenance at targeted refuges;
    <bullet>  Use of ``service zones'' for refuge law enforcement and 
heavy equipment operations; and
    <bullet>  Complexing of individual refuges where appropriate, such 
as in areas that are in close proximity, rather than dividing staff and 
resources among each refuge.
    The Refuge System analyzed the operational budget for each field 
station and found that the amount spent on salaries varied greatly, 
with some field stations spending more than 90 percent of their budget 
solely on salaries and benefits, leaving limited funding for management 
flexibility. The Refuge System has determined that the desirable ratio 
of salaries to management should be around 80:20 based on the 
particular circumstances at each individual refuge. Within each of the 
Service's regions, the Refuge System developed a workforce plan with 
the goal of achieving this desirable ratio in order to best accomplish 
the mission of the Refuge System. One result of the workforce plans was 
to prioritize refuges. In some cases lower priority refuges are managed 
remotely (i.e. without staff on site) and others are managed as part of 
a larger Refuge Complex. While there have been permanent staff 
reductions through retirement or attrition, overall Refuge System FTEs 
have increased by 296 or roughly 11 percent since 2001 in part because 
of the increased use of temporary staff. Clearly, the input of 
resources into the Refuge System's conservation efforts are related to 
the outcomes we measure. Refuge system budgets have focused on funding 
the highest priorities within among the many needs identified.
    We appreciate the fact that MSI's independent evaluation found our 
volunteer programs and community partnerships to be highly effective. 
We have grown our volunteer workforce from fewer than 5000 in 1980 to 
more than 32,000 today. They contribute 1.5 million hours of work worth 
over $25 million. Since 1994, we have also grown from 75 community 
support or ``Friends'' groups to 250. These citizen conservationists 
greatly enhance the wildlife conservation and visitor services programs 
on refuges. Without them, we could not effectively fulfill the mission 
of the Refuge System.
    We have taken other innovative approaches to enhance our 
effectiveness and stretch our dollars. We have reduced the emphasis on 
building large, expensive visitor centers and focused on small scale, 
low maintenance, construction project we call ``visitor facility 
enhancements'' or VFEs. These projects include observation platforms, 
photo blinds, fishing piers, boardwalk trails, and boat ramps and other 
similar enhancements. These smaller, simpler facilities cost less, make 
our dollars go farther, and increase the outcomes in our visitor 
services programs.
    Managing the Refuge System through these times has also taught us 
some important lessons and forced us to rethink how we do business. We 
have established a clear program that sets priorities for national 
wildlife refuges. If budgets do not keep pace with increasing costs, we 
focus our resources on the highest priority areas. We believe it is 
essential for refuge managers to have adequate funding to cover 
operational costs, provide training, and fund priority projects. We 
consider this ``management capacity'' an essential component in 
individual national wildlife refuge budgets.
    The MSI report ended their analysis in FY 2007. We would like to 
note that in FY 2008 Congress appropriated a $36 million increase in 
refuge funding. We believe that if the review had included FY 2008, the 
MSI report would have found an improved effectiveness in several areas 
that they considered. For example, we have hired an addition 20 new 
full-time law enforcement officers and assured every refuge has its 
targeted ratio of management capacity funds to salary.
    As mentioned above, we believe the MSI report contains some 
excellent ideas on improving effectiveness of our programs, and we are 
in the process of developing an action plan that will carefully 
evaluate how we will move forward with this information. The Service is 
committed to achieving our strategic goals and will set clear 
priorities for addressing the recommendations in the report.
Conclusion
    We have had the opportunity to review a draft of the final version 
of the GAO report and are currently developing an official response. In 
regard to the MSI report, we agree with many of the findings of the MSI 
report and plan to implement a number of its recommendations. We 
believe the report will be an important tool to help the Service better 
deliver the mission of the National Wildlife Refuge System to the 
American public.
    The Service has worked hard at all levels to address the 
circumstances described in the report and has made difficult choices 
and set clear priorities. We have continued to ensure that the Refuge 
System remains the world's preeminent system of public lands devoted to 
protection and conservation by developing a strategy to manage through 
a period when we had to tighten our belt financially. We have developed 
and implemented strategic workforce plans to guide these decisions, and 
refuge managers have acted prudently and prioritized their resources 
and their work. Many times those decisions were not popular, but we 
believe they were needed. We will continue to work with our partners, 
volunteers, Friends groups, and State fish and wildlife colleagues to 
stretch our dollars and deliver effective wildlife and habitat 
conservation and visitor services.
    The Service greatly appreciates the interest and strong support of 
Chairwoman Bordallo and Members of the Subcommittee for the National 
Wildlife Refuge System. Madam Chairwoman, this concludes my prepared 
statement. I would be pleased to respond to any questions you may have. 
Thank you.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Kurth. Let me say 
that notwithstanding the shortcomings outlined in both the GAO 
and the MSI reports, we very much appreciate your efforts and 
the efforts of every Federal employee within the Refuge System 
who labor tirelessly to protect and manage the Refuge System on 
behalf of the American people.
    Mr. Matson, it is a pleasure to welcome you here this 
afternoon to our hearing or this morning. You are now 
recognized to testify for five minutes.

STATEMENT OF NOAH MATSON, VICE PRESIDENT FOR LAND CONSERVATION, 
                     DEFENDERS OF WILDLIFE

    Mr. Matson. Thank you, Madam Chairwoman and Members of the 
Subcommittee. I am Noah Matson, Vice President for Land 
Conservation at Defenders of Wildlife. Thank you for inviting 
me to testify today.
    I have personally visited dozens of refuges across the 
country over the last few years and have followed National 
Wildlife Refuge policy and appropriations for more than a 
decade. It is clear to me that persistent budget shortfalls, 
coupled with lack of progress and important policies, have led 
to a troubling erosion of the Refuge System's ability to 
achieve its conservation mission. I generally concur with the 
findings of the reports and details. Some of that is in my 
written testimony.
    I first want to talk about the funding issue since that is 
essentially the hearing today. Before I get into some stories, 
I just want to mention that Congress is currently working on 
the continuing resolution for the Federal budget, and within 
there, there is some hurricane supplemental funding.
    As you may or may not know, at least three refuges were 
basically wiped out in Hurricane Ike. The Texas Chenier Plain 
Refuges, which includes McFaddin, Anahuac and Texas Point, lost 
everything in that hurricane. It was a direct hit. I encourage 
Members of the Subcommittee and their colleagues to support 
funding to restore those refuges from that hurricane.
    In terms of MSI's overarching finding that the dramatic 
decreases in actual purchasing power in recent years has led to 
the Refuge System not being able to ``maintain its level of 
operational activity from one year to the next, requiring that 
services and personnel be cut back,'' I just want to provide a 
story that nowhere is this more apparent than the Supawna 
Meadows National Wildlife Refuge in New Jersey.
    This refuge protects about 3,000 acres of coastal marshland 
along the Delaware River and is a really important foraging 
habitat for the largest rookery of wading birds north of 
Florida. The refuge enjoys an extremely dedicated and 
passionate refuge friends group. In 2005, that friends group 
had their dreams come true with a brand new visitors center.
    That visitors center never opened because soon after that 
happened the Supawna Meadows was part of this workforce 
restructuring plan, and all the on-site staff were removed from 
that refuge and now it is managed by Cape May National Wildlife 
Refuge, some 60 miles away.
    Without on-site staff there is nobody to lead or coordinate 
the dedicated volunteers, and that brand new visitors center is 
collecting dust and volunteers are largely sitting idle. This 
is the face of the budget crisis facing the Refuge System.
    A year ago one of my staff visited Crystal River National 
Wildlife Refuge in Florida. Well, he tried to visit. Instead, 
he was welcomed with a sign that read: Due to staff and budget 
reductions, coupled with increasing workload per staff member, 
we may not always be open for visitation. This was a sign on 
the refuge door.
    The refuge shares one law enforcement officer spread over 
100 miles of coastline, managing a whole complex of refuges, 
including a large waterfowl hunting program, the endangered 
whooping crane program, beachgoers and islands in Tampa Bay, 
leaving little time to patrol the waters of Crystal River. 
Without this law enforcement presence, boaters and swimmers 
regularly harass endangered manatees, a problem so bad you can 
actually see videos of it on YouTube.
    I think all the Members of the committee understand the 
funding issues of the Refuge System are real and are seriously 
compromising its mission. I look forward to working with the 
committee on solutions to this crisis.
    I next want to talk about climate change. Now, I know this 
wasn't a focus of this hearing, but I found it kind of a 
glaring omission from some of these reports that came out 
today.
    Now, I do not fault MSI for not doing this because they 
were following the strategic goals of the Refuge System, and 
that is where the problem lies. This Administration has placed 
no emphasis on addressing the profound impacts of climate 
change to the point where there is not even a national goal in 
the Refuge System to address these needs.
    The Refuge System is particularly vulnerable to climate 
change. Over 160 coastal refuges are vulnerable to sea level 
rise. The bulk of the Refuge System's acreage is in Alaska. We 
have already seen glaciers melt or the wetlands dry up, tree 
lines rise.
    In addition, the Prairie Pothole region of the country, 
America's duck factory and home to many, many refuges, is 
expected to lose half of its wetlands and ponds over the coming 
century. This is a very real danger to the Refuge System which 
requires proactive planning to prevent the worst damage from 
happening and ensure that the conservation investments we make 
today are climate smart.
    I fear refuges like Supawna Meadows and Crystal River, 
already unable to address today's conservation challenges, will 
fall further from achieving their conservation purposes in the 
future. I encourage Congress and the Administration to work on 
solutions to this problem.
    The National Wildlife Refuge System is critical to the 
future of wildlife and wildlife focused recreation in America. 
As recommended by the MSI report, refuges should become 
fulcrums for influencing conservation actions and larger 
landscapes.
    With an appropriate investment of resources and sound 
policy direction, I believe the Refuge System can be a fulcrum 
for conservation across the landscape to meet the conservation 
needs of today and the serious challenges of climate and other 
environmental changes ahead.
    On behalf of Defenders of Wildlife, I thank you for the 
opportunity to comment today and look forward to the questions.
    [The prepared statement of Mr. Matson follows:]

    Statement of Noah Matson, Vice President for Land Conservation, 
                         Defenders of Wildlife

    Madam Chairwoman and members of the subcommittee, I am Noah Matson, 
Vice President for Land Conservation at Defenders of Wildlife 
(``Defenders''). Founded in 1947, Defenders of Wildlife is a non-
profit, public interest organization with over 1.1 million members and 
supporters across the nation and is dedicated to the conservation and 
restoration of wild animals and plants in their natural communities.
    I greatly appreciate this opportunity to discuss the recent budget 
trends of the National Wildlife Refuge System. As the only federal land 
system in the U.S. dedicated primarily to the conservation of wildlife 
and habitat, the Refuge System is of paramount importance to Defenders 
and all Americans, especially the nearly 40 million people who visit 
and enjoy national wildlife refuges from Guam to Maine, from Puerto 
Rico to Alaska, each year. These visitors generate more than $1.7 
billion in annual sales to local economies, resulting in employment for 
more than 27,000 U.S. workers.
    Defenders has been substantively involved in National Wildlife 
Refuge System law and policy for decades, and actively worked for 
passage of the landmark National Wildlife Refuge System Improvement Act 
of 1997 (``Refuge Improvement Act''). Defenders has also been actively 
involved in the formulation of national policy guidance issued since 
passage of the Refuge Improvement Act, including policies addressing 
planning, compatibility and appropriateness of secondary uses, 
biological integrity, diversity and environmental health, wilderness, 
and recreational use. In addition, Defenders has long been a leader in 
the Cooperative Alliance for Refuge Enhancement (CARE), a diverse 
coalition of scientific, conservation, and sporting organizations 
representing more than 14 million Americans. CARE works with Congress 
and at local, regional, and national levels to raise awareness of the 
critical budget crisis now facing the Refuge System.
    After following Refuge System appropriations for nearly a decade, 
coupled with extensive research and visits to dozens of refuges, it is 
clear to me that persistent budget shortfalls coupled with lack of 
progress on important policies have led to a troubling erosion of the 
Refuge System's ability to achieve its wildlife conservation mission 
and public outreach objectives. Recent assessments from the Government 
Accountability Office (GAO) and Management Systems International (MSI) 
strongly validate these observations. These reports have shed much-
needed light on challenges that have been well known by refuge 
supporters for years. It is my sincere hope that discussion of their 
conclusions and recommendations will inform and guide meaningful 
changes necessary to reinvigorate our legacy to wildlife, the National 
Wildlife Refuge System.
    Eleven years ago, Congress passed the sweeping National Wildlife 
Refuge System Improvement Act to reform a system of lands starving for 
a mission, critical management standards, and funding. Congress had the 
foresight to write a timeless piece of legislation that provides 
direction even in a changing world. Congress wanted the Refuge System 
to be managed using modern scientific programs. Congress wanted the 
status and trends of fish, wildlife, and plants to be monitored to 
detect changes, measure progress and to adapt management. Congress 
understood the importance of adequate water quality and quantity to the 
Refuge System. Congress understood the importance of strategically 
growing the Refuge System to meet its mission and ``to contribute to 
the conservation of the ecosystems of the United States.'' Finally, 
Congress required each refuge to have a comprehensive conservation 
plan, developed with the input of the American public, to ensure that 
each refuge was managed in a way to best contribute to the mission of 
the whole system and to achieve its purpose.
    Lack of funding and lack of leadership over the last several years 
has prevented the Refuge System from fulfilling this promise. According 
to MSI, the Refuge System is underperforming in most of these areas, 
inhibiting the Refuge System from addressing the threats of today, and 
leaving the Refuge System unprepared to meet the tremendous challenges 
of climate change.
    I will focus my remarks on overall funding for the Refuge System 
and the ability of the FWS to address climate change, develop quality 
comprehensive conservation plans, strategically protect additional 
habitat, conduct inventory and monitoring programs, and maintain 
adequate water supplies for the Refuge System.
    The MSI report included a comprehensive evaluation of many other 
aspects of refuge management. A comprehensive analysis of the MSI 
report is included as an attachment to my testimony.
Funding
    In June 2008, a report was released by MSI entitled ``An 
Independent Evaluation of the Effectiveness of the U.S. Fish and 
Wildlife Service's National Wildlife Refuge System.'' This assessment 
was requested by the Fish and Wildlife Service (``FWS''), the agency 
that administers all national wildlife refuges. MSI's goal was to 
assess and make recommendations for each of the Refuge System's twelve 
strategic outcome goals, which were finalized in early 2007. The goals 
are broad but relate to the Refuge System's most essential elements of 
habitat and wildlife conservation, wildlife-dependent recreation, law 
enforcement, fire management, welcoming and orienting visitors, 
wilderness management, conservation planning, facilities maintenance, 
strategic growth, and maintaining organizational excellence.
    In September 2008, a report was released by the Government 
Accountability Office (GAO) entitled ``Wildlife Refuges: Changes in 
Funding, Staffing, and Other Factors Create Concerns about Future 
Sustainability.'' The report details the funding situation for the 
Refuge System from FY 2002-2007 and elucidates trends at the System 
level, while emphasizing that particular individual refuges have been 
more heavily impacted than the national trends might suggest.
    In general, I agree with the principal findings of these reports, 
though there is substantially more story to tell for several of the 
examined issues. I strongly agree with the MSI Report's overarching 
finding that the dramatic decrease in actual purchasing power in recent 
years has led to the Refuge System's not being able to ``maintain its 
level of operational activity from one year to the next'', requiring 
that ``services and personnel...be cut back.''
    Many of these cutbacks have been truly devastating to our nation's 
wildlife refuges. Some of the impacts now being felt across the country 
include a planned 20 percent reduction in refuge managers, biologists, 
environmental educators, and maintenance staff, with 350 jobs already 
eliminated and another 250 on the chopping block; scores of refuges 
being completely de-staffed; a crippling backlog of $3.5 billion in 
shelved operations ($1 billion) and maintenance ($2.5 billion) 
projects; and visitors that increasingly find closed visitor centers 
and access roads, dilapidated observation platforms, overgrown hiking 
trails, eliminated visitor education programs, and cancelled hunting or 
fishing events. These same visitors will almost assuredly not encounter 
a law enforcement officer, as a deficiency of more than 500 refuge 
officers has led to a rise in illegal activities such as poaching, drug 
cultivation, sex crimes and various types of natural resource 
violations.
    GAO found that by FY 2007, after adjusting for inflation, core 
funding was actually 4.3% above FY 2002 levels. However, viewing 
funding trends in this way does not fully capture the actual effect of 
essentially flat budgets on the Refuge System, or its actual budgetary 
needs. In recent years, the Refuge System needed an additional $16 
million each year simply to keep pace with rising fixed costs, such as 
salary adjustments, fuel, utilities and rental space. Recently, in 
response to soaring energy prices, the Refuge System recalculated this 
annual need to be approximately $20 million. To put it simply, the 
Refuge System now needs an additional $20 million each year simply to 
pay its staff, put gas in the trucks and keep the lights on. The GAO 
inflationary adjustment did not address this all-important need and 
therefore painted a somewhat misleading picture of recent budget 
trends.
    In addition, these numbers mask the enormous needs facing the 
Refuge System. CARE estimates that the Refuge System needs almost $800 
million per year in operations and maintenance funding to adequately 
meet its mission. I have included CARE's report, ``Restoring America's 
Wildlife Refuges,'' as an attachment to this testimony to provide 
details of CARE's analysis of Refuge System budget needs.
    The MSI Report broadly concludes that declining, inadequate budgets 
coupled with increasing administrative requirements for field personnel 
has most heavily impacted three areas: the Refuge System's ability to 
conduct adequate inventory and monitoring work; the grossly 
understaffed law enforcement program; and the rate of growth of the 
Refuge System, which the report notes has ``declined markedly over the 
last five years.'' I agree completely that deficiencies in these areas 
are seriously hamstringing the Refuge System's potential to deliver on 
its conservation and public use goals. I would further add, however, 
that funding shortfalls and glaring administrative neglect in recent 
years has created a host of other important challenges that warrant 
congressional attention, many of which I will discuss below.
Climate Change
    From the walrus to waterfowl, global climate change is and will 
have profound impacts on wildlife and the habitats they depend on. 
Globally, scientists estimate that 30-40% of known species are at 
increased risk of extinction due to the impacts of climate change under 
current emissions. And if we fail to curtail our emissions that figure 
could rise to as great as 70%. In the United States, species have 
already begun to feel these effects. The Refuge System is particularly 
vulnerable, with over 160 coastal refuges at risk from sea level rise, 
and the bulk of the Refuge System's land in Alaska, which has already 
seen glaciers melt, boreal wetlands dry up, tree-lines move upslope, 
and warming-aided pests destroy millions of acres of forests. In 
addition, the Prairie Pothole region of the Dakotas and parts of 
Montana, Minnesota, and Iowa, America's ``duck factory'' and home to a 
large number of refuges, is expected to lose half of its lakes and 
ponds essential for waterfowl breeding.
    It is instructive that the FWS did not ask MSI to evaluate the 
Refuge System's ability to meet the challenges of climate change. A GAO 
report released last fall concerning the federal resource agencies' 
ability to respond to the management implications of climate change 
found that federal resource agencies, including FWS ``have not made 
climate change a priority, and the agencies' strategic plans do not 
specifically address climate change.'' So it is little wonder that the 
MSI report, which used the Refuge System's own strategic plan as the 
framework for the evaluation, seemingly ignored how climate change is 
affecting the Refuge System and failed to assess how existing Refuge 
System budgets and policies affect the Refuge System's ability to cope 
with the impacts of global warming.
    The GAO report on climate change and federal resource agencies also 
found that FWS and other agencies lacked ``specific guidance for 
incorporating climate change into their management actions and planning 
efforts.'' Finally, that report documented that FWS and other agencies 
lacked ``computational models for local projections of expected changes 
and detailed inventories and monitoring systems for an adequate 
baseline understanding of existing local species. Without such 
information, managers are limited to reacting to already-observed 
climate change effects on their units, which makes it difficult to plan 
for future changes.''
    The failure of the MSI report to directly evaluate these and other 
factors associated with climate change leaves us with lingering 
questions regarding how the Refuge System is responding to this 
critical management challenge. However, the report made important 
observations related to planning, land acquisition, water quality and 
quantity, and inventory and monitoring that have direct bearing on the 
FWS ability to accomplish its mission and meet the environmental 
challenges facing the Refuge System, from habitat loss to climate 
change.
    While the Refuge System faces enormous funding and policy 
deficiencies, the System's importance to wildlife will only be 
magnified as climate change and other environmental problems stress 
plants and wildlife and compromise habitats. Of all the federal land 
agencies, the FWS is perhaps best positioned to adapt to changing land-
uses and climatic conditions. The Refuge System enjoys broad public 
support, has great flexibility in acquiring and restoring select 
habitats, is nested within an agency that wields the essential tools 
for conserving wildlife across jurisdictional boundaries, and has a 
long history of active management that may become increasingly 
necessary. These positive attributes should be utilized and 
supplemented by providing the Refuge System with the resources it needs 
to address serious challenges like climate change, which must 
necessarily begin with better biological and hydrological monitoring.
    I am confident that with Congress's input and oversight, the Refuge 
System can meet these serious challenges. It is clear that national 
policy direction is needed for the Refuge System and other federal 
resource agencies to strategically address the impacts of climate 
change. It is equally clear that the Refuge System, and its sister 
agencies, are already facing funding holes so large that a large 
commitment of additional resources is urgently needed to address the 
added threat of climate change. I urge Congress to work with the 
executive branch to meet these dual needs.
Comprehensive Conservation Plans (CCPs)
    Comprehensive conservation plans are the chief vehicle for 
implementing the important provisions of the Refuge Improvement Act. 
CCPs are the public's chief means for understanding and participating 
in an individual refuge's management direction. According to the MSI 
report, the majority of refuge managers regard CCPs as useful tools 
``for clarifying objectives, guiding habitat management decisions, and 
clarifying public use decisions.'' CCPs are an essential and 
indispensable element of refuge planning, management and decision-
making that should not be rushed, but rather developed with the highest 
possible quality and level of consideration.
    The MSI Report notes that many FWS regions are not on pace to meet 
a congressionally imposed deadline for completion of all CCPs by 2012. 
To avoid missing the deadline, the Refuge System is working hard to 
implement a recently finalized plan entitled ``2012 Plan, An Action 
Plan to Meet Our Legislative Mandate.'' At the same time the FWS has 
crafted a plan to complete CCPs on time, however, the administration 
has cut the refuge planning budget in its budget requests in the last 
few years, and the current planning budget is 14% lower than in FY 
2006.
    Though the MSI report rated the FWS ``effective'' at completing 
``quality and useful CCPs on schedule and with full engagement of 
partners'', there was little basis in MSI's methodology to rate the 
``quality'' of CCPs. Defenders has analyzed and commented on dozens of 
CCPs over the last ten years, and have found that the quality varies 
widely, both between FWS regions and within regions. Because CCPs are 
designed to enhance public understanding of Refuge decision-making, in 
the future we would recommend that the FWS evaluate stakeholder and 
public perceptions of CCP quality and utility.
    Of particular concern is that climate change is virtually ignored 
in nearly all CCPs completed to date. This finding is echoed in the 
2007 GAO report on climate change and resource agencies. The fact that 
refuge managers continue to give high utility evaluations to CCPs 
despite the absence of climate change analysis is perhaps telling.
    An analysis of the effects of climate change is a central and 
required element of refuge planning under the Refuge Improvement Act. 
For example, the FWS is required during the CCP process to identify and 
describe the ``significant problems that may adversely affect the 
populations and habitats of fish, wildlife, and plants within the 
planning unit and the actions necessary to correct or mitigate such 
problems.''
    Helping wildlife adapt to a rapidly changing climate, which the 
Refuge System is well positioned to do with its wildlife-first mandate, 
will necessarily involve many facets. But thoughtful long-range 
planning certainly tops the list. Because global climate change is a 
significant problem that will adversely affect wildlife and habitat and 
may threaten the wildlife, ecosystems, and natural processes on refuges 
nationwide, the anticipated effects of climate change and prudent 
management responses should be carefully considered and described 
during the CCP process. As such, climate change needs to be added to 
FWS evaluative criteria.
Land Protection
    According to the Forest Service, an estimated 6,000 acres of open 
space are lost each day, a rate of 4 acres per minute. Congress 
recognized the need for the Refuge System to protect additional habitat 
when it passed the National Wildlife Refuge System Improvement Act 
which directs the Secretary of the Interior to ``plan and direct the 
continued growth of the System in a manner that is best designed to 
accomplish the mission of the System, to contribute to the conservation 
of the ecosystems of the United States, to complement efforts of States 
and other Federal agencies to conserve fish and wildlife and their 
habitats, and to increase support for the System and participation from 
conservation partners and the public.''
    Despite this clear mandate strategic land and water acquisitions 
have ground to a near halt in recent years. The determination by MSI 
that the Refuge System has been ``ineffective'' at strategically 
growing the Refuge System is, while fully accurate, nonetheless a 
serious understatement. The MSI Report does an excellent job of 
cataloguing and summarizing the many ways in which the Refuge System 
fails in this goal, including problems with databases, political 
motivations and a bureaucratic mess of an appraisal processes.
    The MSI Report finds that the significant decline in land 
acquisitions in recent years is due in part to political motivations, 
such as the administration sharply reducing the amount of acquisition 
funding it requests from Congress. For example, in FY 2008 the 
administration requested funding for only two properties, despite 
hundreds of available parcels and an obvious ecological need to buffer 
or connect existing conservation lands with new acquisitions.
    Current development trends threaten to overwhelm the value that 
refuges and other conservation lands hold for wildlife and ecosystem 
integrity. Furthermore, current protected areas, including state and 
federal wildlife refuges and parks, were established in a manner that, 
at this time, does not benefit the whole of biodiversity or the 
maintenance of landscape-level ecological processes, as many of 
America's natural areas exist as fragmented parcels, surrounded by land 
or water unsuitable for most wildlife. In addition, with the effects of 
climate change now bearing down upon already stressed fish, wildlife 
and plant populations, it is essential that we prioritize strategic 
land acquisition as the logical means to develop an interconnected 
system of conservation lands.
    MSI observed that the very few parcels that are acquired in recent 
years typically ``[do] not match the priorities identified by the 
Refuge System's Land Acquisition Priority System [LAPS].'' This is 
partly due to the fact that the administration is not requesting 
projects, leaving Congress to make land protection decisions without 
the benefit of Refuge System priorities. There is also a disturbing 
level of divergence between acquisition requests made by the Refuge 
System and the priorities listed in the LAPS system. The MSI Report 
made clear that this divergence has now progressed to the point where 
the Refuge System ``no longer appears to be using a transparent 
criteria-based system to prioritize land purchases.'' Defenders 
believes that the Refuge System should develop and then work to 
implement a prioritization system that emphasizes the acquisition of 
parcels that contribute to greater habitat connectivity, provide 
buffers around core habitats, possess adequate water quantity and 
quality, and work to protect currently under-represented ecosystems and 
species--all of which should be in the context of climate change.
    The MSI report also criticized the land appraisal process, stating 
it ``cannot be relied upon to produce timely or accurate appraisals, 
[which] causes available land deals to be lost.'' Since real estate 
appraisal responsibilities were removed from the various DOI agencies 
in 2003 and reestablished at the department level, rising costs and 
bureaucratic inefficiencies have cost the FWS many land acquisition 
opportunities. The move was made with the promise of greater 
efficiency, but since that time costs have doubled and response time 
has been agonizingly slow. For example, if a landowner wishes to sell 
property to an interested refuge, they can now expect to wait from nine 
to eighteen months before a final appraisal is completed. The FWS must 
first send its request to DOI's Appraisal Services Directorate (ASD), 
which in turn accepts bids from a restricted number of contractors for 
appraisal services. A number of factors have resulted in higher overall 
cost since the transfer of the appraisal function to DOI, including the 
self-imposed limitation on the number of bidding contractors that 
drives prices up, and the higher average salaries of ASD employees. 
Further, final appraisals have an expiration date, or ``date of 
value'', of one year. So after much bureaucratic paperwork and other 
delays, the FWS may only have a few months to organize funding and make 
an offer to the landowner before the appraisal expires. Clearly, this 
is a broken system in need of serious common-sense reform. The DOI 
should restore the appraisal function to the agencies for greater 
efficiency, cost savings, and response time. An added benefit is that 
staff at the agency level is often more connected with the resource 
base and more in touch with the lands they are working to protect and 
the mission they are striving to uphold.
    I believe it is of utmost importance for Congress to respond 
quickly and aggressively to the political motivations that have led to 
a virtual cessation of land acquisitions for the Refuge System. 
Unfortunately, this has occurred at the very moment when American 
wildlife is under unprecedented pressure and in great need of 
additional habitats to ensure its sustainability and restoration. I 
recommend that Congress strongly support fully funding the Land and 
Water Conservation Fund and increasing the price of the Migratory Bird 
Hunting and Conservation (Duck) Stamp, the two primary land acquisition 
funding sources.
Inventory and Monitoring Programs
    Unique in having a legislative mandate to monitor the status and 
trends of fish, plants, and wildlife populations, the Refuge System 
should serve as a model for holistic, science-based monitoring and the 
development of adaptive management responses. Collecting baseline 
inventory data and conducting monitoring on every wildlife refuge is 
essential in identifying conservation targets, detecting environmental 
changes, identifying the most vulnerable species and habitats, 
developing objective criteria for prioritizing activities and decision-
making, and developing, implementing, and evaluating plans using 
adaptive management principles. Unfortunately, as the MSI Report shows, 
the reality is that current inventory and monitoring efforts lack 
standardization, priority, and funding. According to the report, only 
11% of refuge managers surveyed describe current inventory and 
monitoring efforts as ``mostly or fully sufficient.''
    The solution to this problem is part funding and part policy. 
Clearly, the Refuge System would benefit from more biologists. Over 200 
refuges have no onsite biologist to speak of. This is a glaring problem 
for a system of lands designed for the conservation of fish, wildlife 
and habitat.
    However, current inventory and monitoring efforts could be made 
more effective. As the MSI report recommends, monitoring efforts should 
be better coordinated and standardized and focus inventory and 
monitoring ``systems toward the management needs of regional 
priorities.'' Some regions of the FWS have begun this process but more 
needs to be done. In addition, standardization and coordination of 
inventory and monitoring systems should be accomplished in conjunction 
with other federal, state, tribe, academic, and private sector 
programs.
Water
    Water is an essential ingredient to all life and, consequently, the 
life blood of the Refuge System. The MSI Report concludes it is 
``unable to evaluate'' the Refuge System on its efforts to secure 
adequate water resources because so little information exists on which 
to gauge effectiveness. It states the System ``does not currently 
operate a well defined and structured water resources program. There is 
currently no individual or office designated to coordinate the Refuge 
System's water rights and water quality activities.'' Coupled with the 
fact that the Refuge System provides no national water policy guidance 
or standardized monitoring protocol to its land managers, perhaps MSI 
could have reasonably concluded that the Refuge System is 
``ineffective'' or at the very least, seriously underperforming in its 
congressionally mandated effort to deliver adequate water quantity and 
quality to all refuges. Viewed holistically, the Refuge System's water 
troubles emanate from a failure to implement sound policy and protocol, 
but also the inability to adequately address these challenges due to a 
severe lack of resources.
    Compared to other federal land management agencies, the Refuge 
System typically manages areas that are wetter, lower in elevation, and 
higher in biodiversity; often freshwater wetlands or coastal marshes. 
Unfortunately, with increasing water demands from agricultural and 
urban development, many refuges are struggling to secure enough water 
to meet their conservation targets. The authors of the Refuge 
Improvement Act showed foresight in addressing the emerging water 
crisis on wildlife refuges, a crisis now exacerbated by climate change, 
intense regional droughts and increasing human demand. The Act 
unequivocally states that ``adequate water quantity and water quality'' 
must be maintained to ``fulfill the mission of the system and the 
purposes of each refuge.''
    The Refuge System must develop a national water policy that 
standardizes protocol for water assessments and helps land managers 
secure and defend water rights on wildlife refuges. In the face of 
increasing human demand, droughts, floods, and altered timing and 
volume of water flows, the Refuge System needs to anticipate and 
appropriately plan for future water challenges. As part of this 
planning effort, the Refuge System should secure the hydrologists and 
equipment, and foster the institutional commitment necessary to 
thoroughly catalogue existing water use along with current and 
projected needs. Currently, some FWS regions have no dedicated 
hydrologists or water monitoring programs at all. With such limited 
capacity, it is not surprising that many wildlife refuges, particularly 
in the East, have not documented current water usage or projected 
future needs. Documentation will be absolutely critical if refuge water 
rights are legally challenged as water supplies dwindle. Thorough 
documentation of usage is essential not only to defend one's rights, 
but also to assert what refuges actually need. Some of the necessary 
inventory and monitoring can be done in conjunction with partners, but 
all data needs to be standardized and accessible in a centralized 
database.
    Consideration of water quality and quantity should be a component 
of all future land and water acquisitions. Priority should be given to 
parcels with high-quality habitat that also have senior water rights, 
where possible. It would also be prudent to identify overlap between 
willing sellers of water rights and areas where the Refuge System has 
identified a need for additional water. Of course, an inventory and 
monitoring of related factors will be necessary first. The DOI should 
encourage and provide guidance to all its land managers to work with 
neighboring landowners and upstream users on various water measures, 
including water conservation techniques and the improvement of water 
quality through, for example, the reduction of contaminants or sediment 
inputs. In some isolated cases, wildlife refuges themselves adversely 
impact water quality by releasing large volumes of nutrient-laden 
waters from freshwater impoundments into larger water bodies. For the 
FWS to achieve its goal of managing refuges within a landscape-level 
context, the Refuge System should develop habitat management strategies 
and population targets that minimize pollution of local watersheds.
Conclusion
    One can look at the findings of the MSI and GAO reports as either 
half empty or half full. When you realize all the potential that is 
being lost due to budget and policy neglect by the current 
administration, it is certainly half empty. But when you think about 
how much the dedicated workforce is actually doing to keep this system 
together for wildlife, it is amazing what they have been able of 
accomplish on so little. The current situation, however, is 
unsustainable.
    The Refuge System is truly at a crossroads. By next year, if 
funding does not turn around, the Refuge System is scheduled to lose 
twenty percent of its workforce, when compared to staffing levels just 
four years ago. But these losses are not of expendable federal 
bureaucrats; these are refuge managers, wildlife biologists who monitor 
endangered species such as Florida manatees, red wolves, and whooping 
cranes, interpretive rangers who teach and guide schoolchildren, and 
essential maintenance personnel who keep each refuge functioning 
smoothly. Without these people, America's Refuge System must continue 
to cut educational programs, eliminate hunting and fishing access, 
close offices, allow equipment and visitor infrastructure to fall into 
disrepair, and significantly reduce management and monitoring of 
wildlife and non-native, invasive plants.
    When wildlife refuges have insufficient staff, it affects 
activities outside the refuge boundaries. Refuge staff are unable to 
dedicate sufficient attention to threats beyond refuge boundaries, such 
as huge rafts of incoming marine debris, water rights issues, upstream 
water contamination, adjacent landfill sites, or planned commercial 
developments. Further, when staff levels are reduced to only one or a 
few staff per refuge, those people are unable to partner with other 
interested stakeholders, which dramatically and adversely affects 
volunteer involvement and leveraging of additional dollars. For 
example, consider that the reasonably well-staffed San Luis Refuge 
Complex in central California often triples its annual budget through 
creative partnerships. With these extra resources, more trees are 
getting planted, invasive species are being eradicated, and refuge 
staff are better able to closely monitor external threats. This 
situation demonstrates how much is possible when sufficient staffing is 
available to capitalize on partnership opportunities, and how much is 
being lost at other wildlife refuges without adequate staffing,.
    The National Wildlife Refuge System is critical to the future of 
wildlife and wildlife-focused recreation in America. Refuges provide 
wildlife with comparatively intact tracts of land that serve as a 
``refuge'' from human development and other pressures, and can serve as 
the backbone of a wider effort across the landscape to protect, 
restore, and connect wildlife habitat. As recommended by the MSI 
report, refuges should ``become fulcrums for influencing conservation 
actions in larger landscapes.''
    With an appropriate investment in resources and sound policy 
direction, I believe the Refuge System can be a fulcrum for 
conservation across the landscape to meet the conservation needs of 
today, and the serious challenges of climate and other global 
environmental changes ahead. In addition to dramatic increases in 
funding, I have outlined a number of actions that will improve the 
management of Refuge System including:
    <bullet>  Establishing a national strategy for the FWS and other 
resource agencies to address the impacts of climate change on wildlife 
and natural resources.
    <bullet>  Ensuring the quality of CCPs does not suffer in order to 
meet the Congressional deadline for their completion, and developing 
guidance for incorporating climate change into CCPs.
    <bullet>  Developing a strategic growth policy for the Refuge 
System to prioritize land protection efforts in the context of climate 
change and other threats to wildlife and habitat and increasing funding 
from the Land and Water Conservation Fund and Migratory Bird 
Conservation Stamp to support land protection.
    <bullet>  Standardizing and coordinating inventory and monitoring 
programs so they provide needed feedback on management actions and 
environmental change.
    <bullet>  Establishing a national water resources policy to ensure 
that the Refuge System is able to maintain the water quality and 
quantity it needs to accomplish its mission in the face of increased 
industrial, agricultural, and residential water withdrawals and climate 
change induced drought.
    On behalf of Defenders of Wildlife, I thank you for the opportunity 
to share my perspectives on these critical issues. We look forward to 
working with this subcommittee and others in Congress on the policy 
reforms that are necessary to ensure the National Wildlife Refuge 
System reaches its full potential, and to invest in the Refuge System 
at a level commensurate with the remarkable benefits it provides to 
American wildlife, people and economies.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Matson.
    Mr. Horn, welcome back to the Subcommittee. The floor is 
yours to testify for five minutes.

            STATEMENT OF WILLIAM P. HORN, COUNSEL, 
                   U.S. SPORTSMEN'S ALLIANCE

    Mr. Horn. Madam Chair, thank you very much. My name is 
William Horn, and on behalf of the U.S. Sportsmen's Alliance, 
we greatly appreciate the opportunity to appear today to 
discuss management issues facing our incomparable Wildlife 
Refuge System.
    Let me start by saying that we commend the Service for 
commissioning the independent evaluation. Few agencies 
demonstrate the courage to ask for such a review and then 
cooperate openly with the reviewers, and we think the Service 
deserves recognition and high marks on both of these particular 
counts.
    I would like to briefly address three refuge management 
issues, including funding, that were touched on in the 
independent evaluation. One management issue that has been 
unresolved now for eight years is the lack of appropriate 
guidance regarding how to combine wilderness management and 
appropriate conservation management within units of the 
Wildlife Refuge System.
    We believe that a recent U.S. District Court ruling 
involving the Kofa Refuge in Arizona should provide the impetus 
to resolve this now outstanding eight-year-old issue. 
Previously proposed Wilderness guidance failed to recognize 
that wilderness designations provide only supplemental 
management guidance. It is not contrary or superseding the 
primary mission of conservation of wildlife within units of the 
System. This supplemental nature of the Wilderness Act has been 
affirmed in that recent court case.
    We believe that it is time now in the wake of that decision 
for the Service to resolve its wilderness management guidance 
system and clearly recognize conservation as the primary 
mission and Wilderness provides merely supplemental management 
purposes.
    The second issue that was identified in the independent 
evaluation was the management of wildlife dependent recreation, 
and the express recognition of those recreation, including 
hunting and fishing, in the 1997 Act was one of its primary 
accomplishments. The Service has been very effective in 
implementing that aspect of the 1997 Act. Of course, that 
action on its part is deeply appreciated within the sporting 
community.
    However, there is one looming problem that has budgetary 
consequences that it may be appropriate for Congress to 
address. Anti-hunting activists have filed suit pending in the 
U.S. District Court in D.C. to compel the Service to prepare 
even more paperwork and more evaluations before hunting and 
fishing programs can be approved within units of the System. 
During a period of limited personnel and monetary resources, we 
believe the Service has far better things to do than prepare 
more reports.
    Accordingly, we strongly urge Congress to take appropriate 
action to make it clear that the thorough evaluations that the 
agency conducts as part of the comprehensive conservation plan 
process, as well as the annual environmental impact statement 
analyses done associated with the migratory bird hunting 
programs, are more than sufficient and adequate and obviate the 
need for any other cumulative effects work that may need to be 
done. We think that that extra work just squanders these 
precious finite resources, and we urge you to check that issue 
out and see if we can resolve it.
    Third and last, let me briefly talk about funding. After a 
period of increased operations and maintenance funding that 
coincided with the Refuge System's centennial, clearly funding 
has begun to slide. Clearly one option is for Congress to 
simply appropriate additional funds.
    However, our concern is that as the System grows and uses 
expand the need for funding will likely outstrip Congress' 
ability to simply provide additional monies. This problem is 
not unique to Fish and Wildlife. Similar problems afflict the 
Forest Service and the BLM.
    We are persuaded that it is time for a new paradigm for 
funding our Federal public land management systems rather than 
just 101 percent reliance on appropriated funds. We strongly 
recommend that Congress, the Service and the conservation 
community come together to pursue development of new funding 
methods and options.
    One hundred years ago the sporting community, in 
cooperation with Teddy Roosevelt's Administration, developed 
what has become the North American model for wildlife 
conservation funding that has worked extraordinarily well for 
nearly a century. We believe a similar effort today is needed 
not only for our Refuge System, but for other public lands, so 
that we don't continue to have these types of hearings 
describing the continued funding problems that we face.
    We think that taking action along those lines would be an 
appropriate step. It was 100 years ago, as I said, that the 
Roosevelt Administration kicked off what has become the North 
American model. It is probably time for a new model that would 
help us put these funding issues to bed in some more 
comprehensive fashion.
    Thank you very much.
    [The prepared statement of Mr. Horn follows:]

            Statement of William P. Horn, on Behalf of the 
                   United States Sportsmen's Alliance

    Madame Chair: My name is William P. Horn appearing on behalf of the 
U.S. Sportsmen's Alliance (USSA). We appreciate the opportunity to 
appear before the Subcommittee to discuss issues facing the National 
Wildlife Refuge. USSA is a national association of hunters, anglers, 
and trappers, and sporting organizations representing over a million 
members and affiliates committed to protecting and advancing America's 
heritage of hunting, fishing and trapping. USSA has long been committed 
to ensuring a vital well managed Refuge System that conserves our 
incomparable wildlife resources while providing important opportunities 
to hunt, fish, and trap.
    My testimony also reflects perspectives gained during my prior 
service as Assistant Secretary of the Interior for Fish, Wildlife and 
Parks under President Reagan and the privilege of serving as Chairman 
of the National Wildlife Refuge Centennial Commission in 2002-2003.
    We commend the Fish and Wildlife Service for commissioning the 
Independent Evaluation of the effectiveness of the Refuge System. Few 
agencies demonstrate the courage to ask for such review and then 
cooperate openly with the reviewers. The Service deserves high marks on 
both counts. Review of the evaluation indicates that the Service is 
doing an outstanding job with limited resources and we were pleased 
that the agency's performance for nine of the twelve Strategic Outcome 
Goals (SOGs) was considered effective and in only two cases was 
performance considered ``ineffective.'' USSA wishes that other federal 
land management entities, with budgets dwarfing the Service, performed 
so well.
    Following our review of the Independent Evaluation, five areas 
presented issues we wish to address: SOG 3--Wilderness; SOG 5--Wildlife 
Dependent Recreation; SOG 7--Law Enforcement; SOG 8--Infrastructure and 
Funding; and SOG 10--Growing the System.
    SOG 3 - Wilderness--The Service is in desperate need of new 
guidance regarding Wilderness management issues and a recent U.S. 
District Court ruling involving the Kofa Refuge in Arizona should 
provide the impetus to finally resolve this issue. Proposed Wilderness 
guidance issued eight years ago failed to recognize that Wilderness 
designations of Refuge lands are designed to provide ``supplemental'' 
management purposes and guidance. Indeed, the ``supplemental'' 
reference is an express term of the 1964 Wilderness Act. Despite this 
statutory clarity, previously proposed guidance improperly elevated 
Wilderness purposes contrary to the more fundamental wildlife 
conservation objective of the Refuge System as clearly articulated in 
the 1997 Refuge Improvement Act.
    This hierarchy has been affirmed in a recent lawsuit in Arizona. 
There the Service, Arizona Game and Fish, and local conservationists 
like the Arizona Desert Bighorn Sheep Society and the Yuma Valley Rod 
and Gun Club (USSA affiliates) developed water catchments to enhance 
desert sheep populations. An interest group named Wilderness Watch 
objected and argued that the Wilderness Act barred such water 
catchments within the Refuge even though they would help wildlife 
populations. The District Court rejected this nonsense and affirmed 
that the primary purpose of Refuges is wildlife conservation. The 
Service should promptly complete new Wilderness guidance that reflects 
this approach.
    SOG 5 - Wildlife Dependent Recreation--The express recognition of 
Wildlife Dependent Recreation, including hunting and fishing, in the 
1997 Refuge Act was one of its primary accomplishments. The Service's 
effective implementation of this statutory policy is widely recognized 
and deeply appreciated within the sporting community. However, there 
are some looming problems that Congress ought to promptly redress.
    First, animal rights radicals and anti-hunting activists have filed 
suit in U.S. District Court to compel the Service to prepare more 
paperwork and more evaluations before hunting and fishing programs can 
be approved. Although contrary to the intent of the 1997 Act, over the 
last two years the Service has had to expend substantial time, effort 
and resources to prepare this extra and superfluous documentation. 
During a period of limited personnel and monetary resources, the 
Service has better things to do with those resources. Accordingly, we 
strongly urge Congress to take action to make it clear that the 
evaluations conducted as part of the Comprehensive Conservation Plan 
process and the annual analyses associated with migratory bird hunting 
regulations are sufficient and that additional ``cumulative effects'' 
work is unnecessary to authorize hunting programs. This would save 
substantial money and free up limited personnel resources for more 
important conservation and refuge management work.
    Second, USSA is extremely apprehensive about language in the 
Independent Evaluation referring to ``prioritizing'' allocation of 
limited resources ``among the various recreational activities.'' The 
last time we saw similar language was in 1995 when the Clinton 
Administration attempted to curtail hunting and fishing opportunities 
on Refuges in the name of budget shortfalls. That effort to put hunting 
and fishing programs on the chopping block was a primary impetus for 
enactment of the 1997 Improvement Act and its recognition of hunting 
and fishing as priority public uses of the Refuge System. Hunting and 
fishing activities generate more revenues for the Service, and their 
partners in the state fish and wildlife agencies, than do the other 
priority public use activities. If budget shortfalls absolutely mandate 
use restrictions, hunting and fishing programs must be the last to be 
impacted.
    Third, we have concerns regarding any efforts to define ``quality'' 
hunting. This is a highly subjective standard and we have witnessed 
efforts by some Refuges to restrict traditional hunting activity on the 
grounds that it doesn't provide sufficient ``quality.'' USSA supports 
quality experiences but wants to ensure that any proposed restrictions 
advanced in the name of ``quality'' must be very carefully vetted with 
local hunters and the appropriate state fish and wildlife agency.
    SOG 7 - Law Enforcement--USSA sympathizes with the need for 
enhanced law enforcement on refuges. We are concerned though that 
simply increasing funding and personnel for the Law Enforcement (LE) 
division without clear management objectives in place will not produce 
the anticipated benefits. From our perspective, the LE division 
continues to wrestle with its priorities and old fashioned on-the-
ground enforcement within the Refuge System appears to be at the bottom 
of the priority list. Rather the focus is on import/export matters 
including CITES, migratory bird enforcement aimed at incidental takes, 
and homeland security related measures. If additional funding is 
provided to LE, it must be clearly designated for improved on-the-
ground activities within Refuges. Without that limitation, we fear that 
enforcement within Refuges will remain at the bottom of LE's 
priorities.
    SOG 8 - Infrastructure and Funding--After a period of increased 
operations and maintenance funding that coincided with the Refuge 
System Centennial, funding has begun to slide. One option is for 
Congress to simply appropriate additional funds. However, it is evident 
that as the System grows and wildlife dependent recreation uses expand, 
the need for funding will outstrip Congresses ability to simply provide 
additional monies. Similar problems afflict the Forest Service and the 
Bureau of Land Management.
    USSA is persuaded that we need a new paradigm for funding public 
land management systems. The hunting and fishing community has been at 
the funding forefront for a century by providing hundreds of millions 
annually via licenses, fees, stamps, and excise taxes for wildlife 
conservation. Many of these dollars are for the benefit of the Refuge 
System. There is no doubt the sporting is prepared to do more but it 
lacks the resources to bear the burden of funding the system--a burden 
that would inequitable as well. Today we are in no position to present 
that new paradigm. Rather we strongly suggest that Congress, the 
Service, and the conservation community come together to pursue 
development of new funding methods and options. One hundred years ago 
the sporting community, in cooperation with the Teddy Roosevelt 
Administration, developed what has become the North American Model for 
wildlife conservation funding. A similar effort is needed today for our 
Refuge system.
    In the near term, however, we strongly endorse recommendations to 
tailor administrative requirements for smaller refuge units. ``One size 
fits all'' rules do not work and it is clear that there is significant 
waste associated with making small units comply with same bureaucratic 
procedures as large units. Streamlining these procedures for small 
units will enable the Service to stretch its available dollars.
    SOG 10 - Growing the System--This was one of two goals where 
Service management was rated as ineffective. My experience indicates, 
however, that this ``ineffectiveness'' is a result of outside forces 
beyond the Service's control. The report noted that land purchases for 
Refuges often do not match the priorities identified by the Land 
Acquisition Priority System (LAPS). This particular problem has existed 
for over 25 years and can be readily fixed by the Congress. I directed 
establishment of LAPS in 1985 because Congressional appropriators were 
ordering land acquisitions inconsistent with the System's bona fide 
needs. LAPS was designed to enable the Service to identify those lands 
that ought to be acquired to advance Refuge System goals. 
Unfortunately, Congress frequently disregards these priorities. A bit 
of self discipline in the Congressional agency funding process (i.e., 
follow the resource priorities set by the professionals in the Service) 
would correct this problem.
    Another problem created outside the Service is the Interior 
Department's land appraisal procedures. Created as an overreaction to 
criticism from the Inspector General, the new system is time consuming, 
complex, costly, and simply doesn't get the job done. The system is 
more focused on nit-picking appraisals than efficient acquisition of 
environmentally valuable lands. We strongly concur with the 
recommendation of the Independent Evaluation that the appraisal 
function be returned to the Service.
    Thank you again for the opportunity to appear today. The Service 
continues to do an excellent job of managing the Refuge System with 
limited resources. We need to assist the Service in making the most 
efficient use of these resources while working to develop a new funding 
model to assure that sufficient funds are available to ensure sound 
conservation, management, and use of our incomparable Wildlife Refuges.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Horn.
    I will now recognize Members for any questions they may 
wish. Normally we ask the witnesses and we alternate between 
the Majority and the Minority Members of the committee, 
allowing five minutes for each Member.
    However, since I am the sole Member here today I will begin 
with the questioning, and we will await the return of Mr. Kind 
and our Ranking Member. There is a strong possibility he may be 
back also.
    I will begin with Mr. Kurth. I am very disappointed by the 
Administration's testimony. I will begin with that. I would 
like to ask you some questions to determine why the 
Administration is unable to provide any comments regarding the 
GAO's report.
    It is my understanding that the GAO forwarded to the U.S. 
Fish and Wildlife Service a copy of its draft report on August 
19, 2008. Is that correct?
    Mr. Kurth. I don't recall the exact date, but, yes, we have 
seen a draft of the report.
    Ms. Bordallo. And quite some time ago?
    Mr. Kurth. Yes.
    Ms. Bordallo. It is my further understanding that according 
to a September 16, 2008, letter from Assistant Secretary Lyle 
Laverty to Ms. Nazzaro that is included as Appendix 6 in the 
GAO report, the U.S. Fish and Wildlife Service provided to the 
GAO technical comments on the draft report. Is that correct?
    Mr. Kurth. Yes.
    Ms. Bordallo. Ms. Nazzaro, a review and comparison of the 
draft report and the final report by committee staff indicates 
that these reports are substantially almost identical. Is that 
correct?
    Ms. Nazzaro. In this case, yes. It wouldn't always have to 
be. It really depends on the nature of the comments. If an 
agency substantively disagrees with us we will consider those 
comments, and we could make changes to the report. In this case 
the agency provided us technical comments, which we did address 
as appropriate. I believe there were about a half a dozen 
comments, and we addressed them all.
    The most substantial one had to do with the fact that we 
used a statistical model to develop some of our information, 
and they wanted to know what kind of a review process we went 
through so we described not only our use of an economist to 
develop the model, but the use of a statistician to review our 
methodology, so that was added, but substantively they did not 
change in this case.
    Ms. Bordallo. Yes. OK. So they were almost identical. The 
answer is yes. All right.
    Let me then return to you, Mr. Kurth. It would appear from 
the previous responses that the U.S. Fish and Wildlife Service 
had ample opportunity to review the GAO report and in fact did 
provide comments. It is also clear that there is materially 
very little different from the GAO's draft report and the final 
product.
    In light of the fact that the Administration has had the 
draft report for over a month and already provided comments to 
the GAO, why is it incapable of providing comments on the 
record today?
    Mr. Kurth. The Fish and Wildlife Service appreciates the 
close relationship we had with GAO working on this and we did 
provide those comments on the draft, but it is the 
Administration's policy to only formally comment on finalized 
GAO reports.
    Ms. Bordallo. What aspects in the final report are so 
different from the draft findings that the Administration is 
unable to provide comments to the committee?
    Mr. Kurth. I believe the fact that the draft is just being 
released this morning didn't allow the officials who were 
involved in the----
    Ms. Bordallo. It was 6:00 last evening, right, to our 
committee?
    Mr. Kurth. I think the people who reviewed the formal 
statement today felt like because they did not have a final 
report that they couldn't offer the formal testimony.
    Ms. Bordallo. So because the word final wasn't there, and 
even though they were very similar, you----
    Mr. Kurth. That is correct.
    Ms. Bordallo.--could not make any comments? All right.
    One of the goals of the 1997 Refuge Improvement Act was to 
establish for the first time uniform policies to ensure 
consistent management across the Refuge System, yet the thrust 
of the GAO and the MSI reports seems to be to the contrary.
    Insufficient resources to hire and retain full-time staff 
and conduct management activities and visitor services has 
forced the Fish and Wildlife Service to scale back core 
operations that has greatly increased program variability and 
equality from refuge to refuge.
    This question I guess I would ask to Mr. Kurth and Mr. 
Matson. Do you agree that the Refuge System is failing to meet 
this fundamental goal of the Refuge Improvement Act? Mr. Kurth 
first.
    Mr. Kurth. I think that the Fish and Wildlife Service is 
successful in accomplishing the Refuge System's mission. I do, 
though, agree with your observation that at some stations we 
are not delivering it as effectively as others.
    I mean, we don't like to do triage in wildlife 
conservation, but when there aren't enough resources to do 
everything we feel we have done a good job of saying where our 
priorities are and putting our resources in the areas of 
highest priority.
    Those are the difficult choices that we have made, and that 
is the direction that Director Hall has given us is to do the 
most important things with the resources you have, and I think 
we have done a good job being clear with our priorities.
    Ms. Bordallo. Mr. Matson?
    Mr. Matson. Yes. I think the Fish and Wildlife Service 
faces a huge challenge. What do you do when you don't have 
enough money?
    You know, they decided in their judgment to instead of cuts 
across the board to try to be a little more strategic with 
those cuts. Are there refuges that are higher priority than the 
others? Are there refuges that have more abundant wildlife that 
might need more attention or more visitors that need more 
attention? And so I think the fundamental premise of how they 
have done that is sound.
    However, I think to the point of consistency across the 
board, the Refuge System is managed under essentially eight 
regimes. There are eight regions of Fish and Wildlife Service, 
and the line authority for the Refuge System does not come from 
Washington. It comes from each regional director. I think that 
leads to a lot of inconsistent management for everything from 
planning to how competitive these rates are done to how land 
acquisition is done. I think that is a big problem.
    Ms. Bordallo. Again, Mr. Kurth, I guess I will ask you to 
answer this. What are the consequences to the Refuge System as 
a whole?
    Mr. Kurth. The consequences of not having the resources to 
do everything we want?
    Ms. Bordallo. Yes.
    Mr. Kurth. You know, these reports both point out that we 
have not the type of inventory and monitoring programs that we 
would like to have. We don't offer all of the environmental 
education and interpretive programs that we could.
    There are a number of things that don't get done, but our 
job is to determine what are the essential things. You know, 
where do we have to have law enforcement officers to assure 
public safety and to protect the wildlife resources? Where do 
we have the greatest opportunities to provide environmental 
education? Where do we have the most significant needs to fight 
invasive species?
    I believe that we have been effective in identifying those 
priorities. It is clear from both reports there are other 
opportunities for us to enhance our conservation and visitor 
services, but I think we are being effective in sorting out 
priorities.
    Ms. Bordallo. With what you have. Mr. Matson?
    Mr. Matson. Can you repeat the question?
    Ms. Bordallo. What are the consequences to the Refuge 
System as a whole?
    Mr. Matson. As a whole? Yes. First of all, I think people 
have said already that the Refuge System--you can look at these 
reports as the Refuge System is half full or half empty. I 
think the half empty part is places like Supawna Meadows, 
Crystal River, a bunch of other refuges that are really being 
neglected. If you have no staff managing a refuge, it is just 
going to be overcome with vandalism, invasive species and the 
like.
    At the same time, given all of the financial problems 
facing the Refuge System, the half full view is that the Refuge 
System is doing a pretty darned good job with what they have, 
and I think they have been really effective at trying to do 
more with less.
    Unfortunately, I think we are finally coming to--they have 
been able to do that for a handful of years, but we are finally 
reaching the crisis point where they can no longer do that. You 
have staff out there. Every time they lose staff they pick up 
the work, and there are so many hours in the day. They can't 
keep picking up the work. You have overworked staff. It is just 
not sustainable.
    And so while I think they have been pretty effective at 
doing what they have so far, I think over the next few years we 
are really going to see a dramatic slide.
    Ms. Bordallo. All right. One more question to the two of 
you.
    How many refuges have been completely closed because of 
this financial situation? I know some of them have been closed 
for in the case of endangered species, protecting the habitat, 
but how many have been closed?
    Mr. Kurth. There is a difference between closing an office 
and the staffing and closing the refuge to the public 
visitation.
    I know of no refuges where we were previously open for the 
public to use the refuge where we have told them they can't 
come in, but clearly in places where we have lost staffing 
the----
    Ms. Bordallo. The office has been closed.
    Mr. Kurth. There has been offices closed. A small number. I 
can get you the exact number, Madam Chair. I don't have that.
    Ms. Bordallo. I would like that number.
    Mr. Kurth. But it is a small number. Again, because we were 
successful in having additional funds appropriated in Fiscal 
Year 2008, some of those trends have begun to reverse, but 
there is no doubt that we have reduced staffing. That doesn't, 
though, equate to necessarily closing the refuge to the public.
    Ms. Bordallo. I understand. I understand. So you will give 
me the number of the closed offices?
    Mr. Kurth. Yes, ma'am.
    Ms. Bordallo. And you are stating emphatically that there 
are no refuges that have been closed in any of the states 
across the Nation or the territories?
    Mr. Kurth. There have been no National Wildlife Refuges 
where the public has been not allowed to enter the refuge 
because of funding crises. Yes.
    Ms. Bordallo. All right. And I have one other question. 
Then I am going to turn to Mr. Kind.
    Ms. Nazzaro and Mr. Callihan--I will ask you, Ms. Nazzaro, 
first. If refuge lands in Alaska are removed, how would that 
change the findings in your respective reports?
    Ms. Nazzaro. We would probably have to recalculate some of 
our responses. I don't have a breakout of which of those 
responses came from the refuges in Alaska.
    Certainly they do account for a large amount of land, but 
as far as the number of refuge managers I don't think there is 
a real disproportionate number so I wouldn't think that there 
would be a significant shift in the responses, but we would 
have to recalculate that.
    Ms. Bordallo. Mr. Callihan?
    Mr. Callihan. Yes. I don't believe it would change any of 
our overall ratings or conclusions.
    However, one of the recommendations we did make is that as 
the refuge moves forward with using its annual reporting 
system, the RAPP system, Refuge Annual Performance Plan 
reporting, that as that system becomes used more as a result of 
base management systems to make decisions that the analysis of 
that data be disaggregated between Alaska and the rest of the 
System because I think the Alaska data can give a skewed 
picture of the performance of the Refuge System.
    I think it is what, 85 percent of the refuge lands are in 
Alaska, and I think 95 percent of those lands are wilderness 
areas. I might be a little bit off on that. So if you take 
those out of the overall aggregated data for performance then 
you see it becomes much more obvious that there is a much more 
greater percentage of land in the rest of the system that 
requires active habitat management and improvement, and there 
you can really see where some of the funding deficiencies are 
really playing out, I think.
    Ms. Bordallo. Thank you. I have one final question. I was 
just given a number here.
    Mr. Kurth, would you agree with that? One hundred and 
eighty-eight unstaffed refuges?
    Mr. Kurth. Yes. I mean, it could be one or two off, but 
that is the ballpark of refuges that don't have on-site staff.
    Ms. Bordallo. And that is offices closed?
    Mr. Kurth. Correct. Often times we will have refuges that 
are in close proximity to one another where we can have staff 
that can manage from a central location some of these areas in 
close proximity.
    Additionally, there are a number of remote islands that we 
wouldn't staff even if we had adequate staffing.
    Ms. Bordallo. Is Guam one of those remote islands?
    Mr. Kurth. No, ma'am. No. Largely small bird nesting 
colonies, not wonderful, beautiful places like the island of 
Guam.
    Ms. Bordallo. Thank you. You have put me on good stead now.
    But the 188. That is quite a significant number, Mr. Kurth. 
I am rather surprised. It is about one-third. Is that correct?
    Mr. Kurth. That is correct. Again, there certainly are 
refuges that if we had unlimited resources we would put staff 
at. There are refuges on that list, though, that we would not.
    There is a refuge called Huron Island, which is a granite 
rock in Lake Superior that has some bird nesting colonies, and 
it is adequately managed from Seney Refuge in the Upper 
Peninsula in Michigan by periodic patrols and survey work. It 
is uninhabited and out in the middle of Lake Superior where not 
very many people go.
    We have other colonies, bird nesting islands, where people 
visit periodically and seasonally when the resources are there, 
and that is an adequate stewardship approach for some of those 
places, but clearly we don't have all the people to put in all 
the places that----
    Ms. Bordallo. Well, it certainly is another reason why we 
should provide adequate funding for this program.
    I will turn over the questions now to the gentleman from 
Wisconsin, Mr. Kind.
    Mr. Kind. Thank you. Thank you, Madam Chair. Again, I 
apologize for having to run in and out.
    I was just wondering if the Chair's previous question 
pertaining to Alaska was anticipating the eventual succession 
of Alaska from the union and that is why we have to revamp the 
numbers. I hope that doesn't occur. It is a beautiful state, 
and we are very proud to have it in the union.
    Mr. Kurth, let me just stay with that line of questioning 
first as far as the 188 field offices that have been closed. 
What was the criteria, the determination, that was used to make 
that decision?
    Mr. Kurth. Well, of the 188 or so refuges that don't have 
staff, most of those never have. There have been a number where 
we destaffed them because of our workforce planning efforts 
simply because we identified them as the lower priorities 
amongst the work that we have to do.
    Nobody likes to make those decisions, but we feel it is 
extremely important that we put our resources where the payoff 
is greatest and so if that requires us to temporarily take 
staff from one place and put them at another then we are 
willing to do that.
    Mr. Kind. Now, obviously with the cooperation of Chairman 
Dicks and the Appropriations Committee we were able to achieve 
a nice plus up as far as the refuge budget in the latest fiscal 
year, but given the $3.5 billion maintenance and operation 
backlog and all the other challenges that you are facing, you 
had mentioned--I think I heard your testimony--that you were 
using some of that to restore some of the staff positions that 
were recently downsized. Is that correct?
    Mr. Kurth. We have been able to add 20 law enforcement 
officers with that funding and a very small number of other 
positions.
    What we have tried to do is put an emphasis on making sure 
that refuges have the dollars they need to pay their bills, to 
do their work projects and to not get too much of the refuge 
funding tied up in staff.
    We can use seasonal workers. We can contract for work. What 
we found in the past is that we had such a high percentage of 
our dollars tied up in salary that when budgetary situations 
became tight we didn't have enough money to do our work and so 
we have as a top priority protecting that management capability 
as a component of refuge funding.
    So in the future funding gets tight then what we will do is 
reduce positions in order to protect our ability to manage the 
places where we have staff.
    Mr. Kind. Mr. Kurth, I was remiss in neglecting to thank 
you as well when Director Haskett came up on the Hill to brief 
many of us on your self-evaluation. That was very helpful and a 
very generous use of your time to do that.
    I know in visiting so many of the refuges throughout the 
country we are blessed to have the dedicated staff and 
personnel that are charged with making it all come together and 
work, but we are also very fortunate, given the strong care 
coalition that has formed about refuge and funding issues and 
the friends of the Refuge System that is indispensable as far 
as getting a lot of the necessary work done.
    But even with the enthusiasm and passion that our friends 
of refuge display, they still need guidance, which means they 
still need professional technical assistance and things of that 
nature, so when we are talking about staff reductions and 
offices closing this does have a ripple effect throughout the 
entire System.
    But let us get to the real crux of the challenge that we 
are facing, and that is the funding issue. Mr. Horn, let me 
direct this toward you because I read your testimony, and you 
did cite in your testimony the North American model for 
wildlife conservation funding and kind of the process that we 
need to put in place to think through a new paradigm of funding 
with our Refuge System.
    In your testimony you also mentioned that you are not 
prepared or the Sportsmen Alliance isn't prepared to offer that 
new paradigm yet, but I would hope that there is some thinking 
about how we get from A to Z with this. As a sportsman myself, 
some of the greatest conservationists I know are those who like 
to go out in the refuge and hunt and fish and enjoy the 
outdoors.
    But we also have to recognize that there is about a 10 to 
one ratio between birders, birdwatching, going into the refuge 
and sportsmen going into the refuge, so how do we expand the 
universe and how do we come up with a new funding paradigm and 
what kind of process are you envisioning here as we move 
forward?
    Mr. Horn. Well, I think the process is essentially a 
political process in terms of developing appropriate public 
policy.
    On behalf of the Alliance, we have begun internal thinking 
about can we find dedicated sources of funding so that we are 
not reliant 100 percent on appropriated dollars? What 
opportunities exist for additional entrance and user fees? We 
know that the sporting community through duck stamps and 
license fees has been the backbone of the North American model. 
What else might the sporting community be able to contribute to 
the mix?
    As you indicate, there is an awful lot of other elements in 
the user community in wildlife-dependent recreation who are not 
anglers and hunters. What kind of contributions can they make, 
and out of that can we come up with something that provides a 
more sustained level of funding over time without this complete 
reliance?
    I remember when we had the comparable hearing two years ago 
and former Secretary Babbitt, and Bruce and I ended up going to 
lunch about a month later and having this very same 
conversation about there has got to be some way to get at this 
because, I think as many of you all know, this problem is not 
unique to the Fish and Wildlife Service. The Forest Service 
probably faces this to an even greater degree, and BLM wrestles 
with it.
    There are efforts of course on the Park Service side to 
come up with that form of dedicated funding in the centennial 
initiative that has been kicking around. We believe that we 
have to sit down and get very creative about how to come up 
with something for this System and others.
    I don't have anything that we can offer, but we would 
appreciate the opportunity to begin working with other elements 
of the community, the Administration and Congress to say how do 
we craft something that gets at this? What is the best model?
    We have been able to do this before. We ought to be able to 
do this again.
    Mr. Kind. I couldn't agree with you more, and I think maybe 
with the centennial of the Park System coming up it might 
provide a nice vehicle or model of how we can move forward on 
all these different levels that you just described because it 
is only backing up and getting worse by the year, and time I 
feel is of the essence.
    Mr. Kurth, let me also ask you, because Mr. Matson talked 
about the three refuges that were wiped out down in Texas, but 
have there been any preliminary cost estimates and what type of 
work needs to be done as far as restoration of those refuges?
    Mr. Kurth. We have preliminary cost estimates that we 
haven't formally transmitted through OMB, but we know from 
Hurricane Ike alone our damages are probably close to $250 
million and from other storm-related damages this year, 
including some flooding in the Midwest, probably as high as 
$300 million.
    Mr. Kind. And in those three refuges we are talking about 
buildings being waylaid too, aren't we? It is not just debris 
and a lot of----
    Mr. Kurth. At those Texas refuges we lost our facilities in 
total. All of our buildings, all of our equipment, all of the 
residences on those refuges were completely destroyed.
    Mr. Kind. And the $250 million figure you are citing is all 
the disasters that occurred throughout the country? Is that 
right?
    Mr. Kurth. $250 million was our estimate of Hurricane Ike.
    Mr. Kind. Just Hurricane Ike.
    Mr. Kurth. Right.
    Mr. Kind. OK.
    Mr. Kurth. For example, at Anahuac Refuge alone we lost $85 
million worth of real property.
    Mr. Kind. All right. Because we are asking the field 
offices now, given the incredible flooding that we experienced 
in the upper Midwest, in some areas twice in 10 months now, 
what they are looking at as far as repair and maintenance of 
the damage that was done there. These disasters keep piling up 
on us as well.
    Mr. Kurth. Right. Let me emphasize they are preliminary 
figures. You know, we will transmit the formal figures through 
the formal channels.
    Mr. Kind. Finally let me ask you, because it sounds as if 
the GAO report that we have here today, that the CCP process is 
pretty well on track as far as the goals.
    From my personal experience, living on one of the largest 
wildlife refuges, the Upper Miss, but given the multiple uses 
of it, there were some inherent conflicting situations that 
arose and it became a very difficult process unfortunately up 
there to get a CCP plan moving forward.
    Is there a plan with the Service to go back and do a review 
of what worked well and what problems were encountered in the 
CCP process so it could be a teachable moment as well?
    Mr. Kurth. Yes. We are planning actually to convene a 
meeting of our planning staff early next year to come together 
and do some lessons learned.
    We did develop a plan that Director Hall implemented to 
assure we get all these CCPs done by the year 2012, the 
statutory deadline. We believe we are on track to do that. I am 
a little concerned that some of the preliminary numbers for 
this year aren't going to be as good as what we thought.
    We think it is important, though, to take the time 
necessary to work with communities to get plans that can be 
implemented, and we will certainly do everything we can to stay 
on track. Our planning budget was reduced by $2 million last 
year, though, and we haven't assessed whether or not that is 
going to change the calculus out to 2012.
    Mr. Kind. Let me also take this opportunity to thank the 
Service for the flexibility that they demonstrated, and 
obviously we are talking field staff, in working with the local 
people and making sure that private/public partnership and 
coalition that forms around the management of the refuges 
remain intact.
    Not that the Upper Miss CCP is completely controversy free 
at this point, but I think there were some decisions later on, 
especially involving some prime duck hunting areas, that was 
taken into account. Don Hultman, the manager of the Upper Miss 
Wildlife Refuge, changed his approach on a couple of matters, 
which went a long ways I think with community support.
    Because ultimately when you talk about the problem you are 
facing with law enforcement, most of the rules and regs that 
exist in the refuge is self-compliance. I mean, it is self-
enforcement. We can't afford to hire an army of law enforcement 
officers to go out there and enforce every little bit of rule. 
It has to be community buy in. Otherwise it is just not going 
to work.
    That ultimately needed to be the goal of the CCP process, 
and I think Mr. Hultman demonstrated some good flexibility on 
that front.
    Mr. Kurth. We think that the involvement of communities and 
our state partners is essential in the CCP process.
    People who helped craft that law, including my friend Mr. 
Horn here, made sure that a central tenet of that law was 
community involvement in our decision making, and it has proven 
to help us implement those plans when the communities are 
actively engaged in shaping the future direction.
    Mr. Kind. All right. Thank you. Thank you, Madam Chair.
    Ms. Bordallo. I thank the gentleman from Wisconsin. We have 
another round of questions if you have any further questions.
    I would like to focus on law enforcement. Both the GAO and 
the MSI reports are highly critical of the insufficient level 
of law enforcement within the Refuge System. In fact, the GAO 
report concludes that the Fish and Wildlife Service needs to 
hire about 200 additional officers in order to meet just the 
minimum--just the minimum--number needed to provide adequate 
protection to refuge resources and the visiting public.
    Ms. Nazzaro and Mr. Callihan, did any of your analysts--I 
will ask you, Ms. Nazzaro, first. Did any of your analysts 
develop a projection for how long it would take the Fish and 
Wildlife Service to hire and train an additional 200 law 
enforcement officers based on the existing trend in funding for 
the refuge system?
    Ms. Nazzaro. The short answer is no, we did not, but I 
would also like to make a correction that that was not our 
assessment that they needed 200 more. That came from the Fish 
and Wildlife Service as far as what their plan is to add.
    Ms. Bordallo. What is your assessment?
    Ms. Nazzaro. We did not look at law enforcement. That is 
one area where our study and MSI differ in that we did not look 
specifically at law enforcement.
    We asked what kind of initiatives the agency has 
undertaken, what would impact habitat management and visitor 
services, and certainly this shift in resources that the agency 
made to ramp up law enforcement did impact other activities at 
the refuges, but we did not look at it specifically.
    Actually Chairman Rahall has a request that he has sent to 
GAO to look at law enforcement across the Federal land 
management agencies, and we will be undertaking that study 
shortly.
    Ms. Bordallo. Thank you. I got the 200 number from Fish and 
Wildlife Service. This is their suggested estimate.
    Ms. Nazzaro. Correct.
    Ms. Bordallo. Mr. Callihan, what do you have to say on 
that?
    Mr. Callihan. Madam Chairwoman, if I may, I want to refer 
this question to my colleague, Keith Brown, as he headed up 
that portion of the analysis for our study. He is right here.
    Ms. Bordallo. All right.
    Mr. Brown. Can I just speak loudly?
    Ms. Bordallo. No. Please step up to the----
    Mr. Brown. OK.
    Ms. Bordallo. Be seated. Could you identify yourself for 
the record?
    Mr. Brown. Yes. My name is Keith Brown. I am Senior Vice 
President with Management Systems International, one of the 
senior evaluators for the MSI evaluation of the Refuge System.
    I took a look at the law enforcement issue, the law 
enforcement strategic outcome goal, as part of the evaluation. 
We did not do any analysis in how long it would take to fill 
the shortfall or our projected shortfall or actually the 
shortfall between the current level, the current number of 
full-time officers, and what we in fact heard from the refuge 
managers and also from other sources, a 200 to 300 shortfall in 
the full-time officers.
    We did not do an analysis of that, of how long it would 
take to fill that shortfall, because it is a very complicated 
question that has to do with how to distribute additional 
resources should they be forthcoming to a range of difficult 
and complicated issues.
    I will say, though, that it is about a six-month training 
process to fully train an officer for deployment. We found that 
training process to be a very rigorous and substantial and 
useful training program, but we did not do any analysis beyond 
that.
    Ms. Bordallo. Thank you very much for clarifying that.
    Mr. Kurth, your report did suggest 200. Is that correct? 
Does it still remain the same?
    Mr. Kurth. For a little background, a number of years ago 
we contracted with the International Association of Chiefs of 
Police, the preeminent professional law enforcement 
organization, and asked them to develop a staffing model for us 
for what they would see based on data--visitation, crime 
statistics, things such as that--we would need for refuge law 
enforcement officers. Their report recommended 845 officers. 
Now, their report also assumed correctly that we could get some 
of that support from state and local authorities.
    What we have done internally is try to think about our 
staffing in a way that gets at what is critical. The reports 
that say we are ineffective beg us to do that, so as 
professionals, as a former officer with our law enforcement 
staff, we have talked about those things, but the number of 
officers we need ends up being officially that which the 
President asks for in his budget request.
    Certainly the number 200 is a number that our refuge law 
enforcement professionals and myself use in our internal 
deliberations, but when it comes to me telling you what we 
need, the President asks for the law enforcement budget that we 
need.
    Ms. Bordallo. What did the President ask for?
    Mr. Kurth. Well, I mean, his law enforcement budget is not 
increasing at a rate that is going to get us to 200 officers.
    Ms. Bordallo. Did he put a number to this?
    Mr. Kurth. Yes, but I would have to look up the exact 
number of our refuge law----
    Ms. Bordallo. You can't remember that?
    Mr. Kurth. It is about $36 million, but I would like to be 
accurate and precise when I give the committee the figures.
    Ms. Bordallo. All right. Thank you.
    Now we will go back to Ms. Nazzaro and Mr. Callihan. Is it 
reasonable to conclude that under existing budget trends the 
Service will not be able to address this particular threat 
without having to cut funding for other program activities, 
including resource management and visitor services?
    Ms. Nazzaro. I don't know that without looking at it we 
could say it is reasonable.
    Any time you make a change, whether it is to shift 
resources or to reduce resources and put it into operational 
funds, it is going to have an impact. What that impact would be 
I wouldn't want to guess at it.
    Like I say, I mean, we will be looking at the whole law 
enforcement issue----
    Ms. Bordallo. Right.
    Ms. Nazzaro.--and we could certainly add that.
    Ms. Bordallo. I think the question is if we were to bring 
law enforcement up to par what else would suffer?
    Ms. Nazzaro. I am saying I don't know what directly would 
suffer.
    Ms. Bordallo. You don't know.
    Ms. Nazzaro. It depends on what tradeoffs because the 
agency certainly has a number of options, whether it would 
reduce other staff positions or whether they would reduce other 
operational aspects. You know, there certainly are options.
    To say what the direct impact would be, I couldn't estimate 
what it would be. It would depend on the tradeoffs that the 
agency would decide to make.
    Ms. Bordallo. All right. Mr. Brown, are you still sitting 
in for Mr. Callihan?
    Mr. Brown. Yes, I am.
    Mr. Callihan. Yes.
    Ms. Bordallo. Do you have the answer to that question?
    Mr. Brown. Well, I am going to go back to what I heard as 
the first part of the question, which was would we conclude 
that under current funding levels that the Fish and Wildlife 
Service would not be able to meet its what we consider adequate 
law enforcement requirements.
    Our report only tracked the budget through 2007 prior to 
the sort of bump in appropriations, but at that point in time 
our conclusion was fairly unequivocal. Without changes in the 
funding stream the law enforcement issue would continue to be a 
substantial and serious problem for the Refuge System.
    Ms. Bordallo. OK. And finally now Mr. Kurth. After hearing 
all of this, what types of impacts is the Refuge System 
experiencing with, as these two reports outline, the grossly 
inadequate levels of law enforcement officers? Can you provide 
some examples of how we are suffering on this because of the 
lack of law enforcement?
    Mr. Kurth. It is always difficult when you don't have an 
officer on site to say what crime is being committed.
    One of the things we find--it is a paradox in law 
enforcement--is when we add officers crime goes up. Well, it 
doesn't go up. We just detect it and slowly deal with it.
    Ms. Bordallo. But certainly you must have some examples of 
the Refuge System or the refuges where you have found things 
that you say if only we had had law enforcement on board.
    Mr. Kurth. You know, we see increases in all sorts of 
criminal behavior.
    Ms. Bordallo. Theft?
    Mr. Kurth. Theft. You know, we have had gang related 
activity here in Fairfax County at Mason Neck Wildlife Refuge. 
There are a wide range of crimes that affect our visitors and 
that affect the national resources we protect.
    I want to emphasize, however, our utmost priority is 
protecting our officers. We were very much grieved this week to 
learn that one of our colleagues, Forest Service Officer Chris 
Fairbanks, was killed in the line of duty last week. These are 
people we train with and work with.
    This is dangerous work, and we feel like the way we deploy 
our officers first and foremost has to assure that when they 
are in the field we deploy them in a manner where they have 
safe working conditions. We feel that is the case, but 
certainly there are every indications that our law enforcement 
program is challenged.
    I think we have to recognize too, you know, in the events 
following September 11 our mission also changed. We have been 
called on to work national security events at icon parks, the 
Salt Lake Olympic Games. I mean, it is a new world requiring a 
different approach to law enforcement. That is why we have been 
challenged.
    We used to use what we call dual function officers--refuge 
managers, wildlife biologists--with these as part-time 
responsibilities. In today's world with the 30-week training 
requirement and the dangers in law enforcement, we are trying 
to transition to a law enforcement workforce of full-time 
officers, and that has just simply been an exacerbating impact 
of the difficulty in making sure we are adequately covered.
    Ms. Bordallo. Mr. Matson, could you give me your ideas on 
this?
    Mr. Matson. Absolutely. In the words of the Refuge System's 
chief officer, every crime that happens in America occurs in a 
National Wildlife Refuge. There are meth labs. There is 
graffiti. There is gang activity. Every single crime that 
happens in America happens in a National Wildlife Refuge, and 
it is a problem.
    As I relayed in my oral testimony, the example of 
harassment of endangered species, of manatees down in Crystal 
River, because there is no law enforcement presence. There are 
a million examples out there of the problem.
    Another issue which isn't explored in these reports is that 
it is a significant investment in training. I think it is 
$50,000 to $100,000 to train an officer. It is over a six month 
period, as was mentioned. Because of the budget issues at Fish 
and Wildlife Service and the structure of their officers, a lot 
of those officers, that is Federal law enforcement training. 
They can then go to the Fish and Wildlife Service or BLM and 
get paid more.
    There is a number of instances where Fish and Wildlife 
Service is paying the bill and not getting the officers, and so 
that is a structural change that needs to happen.
    Ms. Bordallo. Thank you. That was a very good point that 
you brought out.
    I would like to recognize the gentleman from Virginia, Mr. 
Wittman, a Member of this Subcommittee.
    Mr. Wittman. Thank you, Madam Chairwoman. To begin with, I 
would like to ask unanimous consent that the statement by 
Ranking Member Brown be entered into the record.
    Ms. Bordallo. Without objection.
    Mr. Wittman. Thank you.
    [The prepared statement of Mr. Brown follows:]

  Statement of The Honorable Henry E. Brown, Jr., Ranking Republican 
         Member, Subcommittee on Fisheries, Wildlife and Oceans

    Madam Chairwoman, as the 110th Congress draws to a close, it is 
appropriate that this Subcommittee conduct an oversight hearing on the 
management of the National Wildlife Refuge System.
    This unique system of federal lands provides essential habitat to 
hundreds of wildlife species and wildlife-dependent recreational 
opportunities to nearly 40 million Americans who visit at least one 
refuge every year.
    In my own Congressional District, the Cape Romain, Ernest F. 
Hollings ACE Basin and Waccamaw National Wildlife Refuges provide 
87,500 acres of vital habitat for a number of listed species including 
bald eagles, brown pelicans, loggerhead sea turtles and wood storks. 
They also allow nearly 200,000 people to enjoy hunting, fishing, 
environmental education, photography and wildlife observation.
    Together, these three refuges are a key component in what the Fish 
and Wildlife Service has described as the economic benefits to local 
communities from refuge visitation. According to their latest ``Banking 
on Nature'' Report, refuges generate $1.7 billion in annual sales to 
regional economies, they create nearly 27,000 jobs and provide $185 
million in tax revenues.
    Today, we will hear testimony from representatives of Management 
Systems International (MSI) and the Government Accountability Office 
which have recently examined the management of the refuge system. While 
both reports make important contributions, they are in the words of one 
of the organizations nothing more than ``A Snapshot in Time''. 
Nevertheless, I look forward to hearing how MSI determined the ratings 
for the strategic outcome goals and whether the Fish and Wildlife 
Service agrees with these ratings and how they intend to improve them 
in the future.
    Finally, during the past year, a number of witnesses have testified 
that the Bush Administration has financially shortchanged the refuge 
system. The most prominent critic was former Interior Secretary Bruce 
Babbitt who told us on October 9, 2007 that our nation's wildlife 
refuges are ``reeling from years of fiscal starvation.''
    As President John Adams once said: ``Facts are stubborn things.'' 
Here are the facts. During the Clinton Administration, $1.67 billion 
was requested for the refuge system and Congress appropriated $1.7 
billion. By contrast, the Bush Administration has requested $3.08 
billion and Congress appropriated $3.13 billion. In other words, during 
the past eight years the refuge system has enjoyed an increase of $1.4 
billion in requested funds and $1.43 billion in appropriated dollars. 
Only in Washington, D. C., would an increase of $180 million each year 
be considered ``fiscal starvation''!
    While there is no question that despite these additional funds, the 
refuge system has experienced some difficult days. Nevertheless, to 
suggest that the refuge system has been shortchanged or starved is 
factually incorrect and nothing more than empty political rhetoric.
    Madam Chairwoman, I have enjoyed working with you during this 
Congress and I look forward to hearing the testimony from our 
witnesses.
    Thank you, Madam Chairwoman.
                                 ______
                                 
    Mr. Wittman. Gentlemen, I will begin. I will let anybody on 
the panel that is interested in answering this, probably 
somebody from the Wildlife Refuge System.
    Can you tell me the number of permanent and total employees 
within the Refuge System and how many vacancies currently exist 
now within the System?
    Mr. Kurth. I can't give you an accurate number of how many 
vacancies we have today. I would be happy to get that 
information to you. Our workforce is approximately 3,700 
people. Again, I would be happy to give you the precise figure 
for the record.
    Mr. Wittman. OK. That would be very, very helpful. Can you 
tell me how many law enforcement officers work within the 
System, and can you give me an idea about their role--how many 
of them are dual function employees; how many are full-time law 
enforcement officers--just to kind of get a bearing on----
    Mr. Kurth. Sure. We have 217 full-time officers and 151 
dual function officers. That is a total of 368 badges, if my 
math is correct.
    Mr. Wittman. All right. According to Mr. Matson, he says 
that the Fish and Wildlife Service intends to further reduce 
the number of refuge managers, biologists and environmental 
educators and maintenance staff by 20 percent. Is that an 
accurate reflection of what the plan is?
    Mr. Kurth. We had plans on how to deal with a flat and 
declining budget in the Refuge System station-by-station, where 
we would make cuts if need be.
    With the appropriation from Fiscal Year 2008, we stabilized 
our workforce. If we can be successful in having appropriations 
that cover inflationary cost increase each year then we would 
not at this point in time need to eliminate any further staff.
    Mr. Wittman. OK. All right. Thank you. Since the Service is 
likely to receive an increase of about $70 million for the 
National Wildlife Refuge System for the current fiscal year and 
next fiscal year, can you tell me how many of the 350 lost 
refuge jobs would be refilled in the future? How much of that 
lost ground would you regain by the increase of the $70 
million?
    Mr. Kurth. I guess I don't have anything that I am aware of 
that indicates that $70 million increase is likely. I know 
people have been asking for that.
    Mr. Wittman. Yes. Yes. There is $35 million requested for 
this year and $35 million for next year. So if that funding 
were to come through how would that affect the 350 jobs that 
remain unfilled?
    Mr. Kurth. We would probably not precisely refill the jobs 
that were lost. What we would do is continue to implement our 
priorities.
    I would think you would see us put an investment into law 
enforcement officers and wildlife biologists, two of the areas 
that we see from all of these reports that we are weak on. We 
would put them at the highest priority stations.
    You know, a $70 million budget increase would likely be 
able to replace all of those positions, that number of 
positions. We would hopefully align them with our highest 
priority needs. They would not be an identical mirror of what 
was there in the past.
    Some of the efficiencies we have found through these tight 
times of having efficient complexes of refuges where we can 
share things like full-time officers are trends that we are 
going to continue to look at. If we do get additional 
resources, we are going to look to be as highly efficient as we 
possibly can where we would deploy those jobs.
    Mr. Wittman. A question off in a little bit different 
direction. You know, the big issue around a lot of refuges are 
invasive species. I know just in Virginia dealing with 
Phragmites in some of the properties there along the coastline 
has become a major, major issue.
    Can you give us an indication about how many acres in the 
System might be affected by invasive species and the backlog of 
projects to deal with these invasive species?
    Mr. Kurth. You know, I don't want to give you a 
guesstimate. I can tell you that in the lower 48 states it is 
the issue that is most frequently cited by refuge managers as a 
critical natural resources concern.
    We have a variety of types of invasive species--from some 
which are less aggressive that we can lower our priority on--to 
things like melaleuca in the Everglades, an Old World climbing 
fern that, if we don't do something immediately there, we can 
lose the entire value of that habitat. Not all invasive species 
are created equal, but it is certainly a top resource concern 
amongst our managers.
    Mr. Wittman. OK. Just to get your thoughts on priorities 
for invasive species, do you agree with the conclusion that 
invasive species are collectively the single greatest threat to 
native plants, fish and wildlife, with the potential to degrade 
an entire ecosystem?
    Mr. Kurth. I think it is certainly a very high priority, 
and I would agree with that assessment.
    Mr. Wittman. OK. All right. Thank you very much. I 
appreciate it, Madam Chair.
    Ms. Bordallo. I thank the gentleman from Virginia, Mr. 
Wittman, and now I recognize the gentleman from Michigan, Mr. 
Kildee.
    Mr. Kildee. Thank you, Madam Chair.
    Mr. Kurth, the Shiawassee National Wildlife Refuge is on 
the border of my district. Steve Kahl is the refuge manager. 
They have a great staff of people up there. I have had the 
opportunity of visiting it. They are understaffed, as probably 
other ones are also, but what bothers me is that the biological 
technician position has been vacant since 2005.
    Michigan seems to be kind of a center of problems with 
invasive species, all types of invasive species. We were 
worried about the emerald ash borer in Michigan. It probably 
was introduced at a port here in Michigan on some material that 
came from Asia and is moving northward.
    I know they are working with Michigan State University now, 
a land grant university, and they have probably found a natural 
enemy of the emerald ash borer. If that were to reach that far 
north, north of where I live, it would be devastating to that 
wildlife refuge. The number of ash trees is enormous.
    When you look at vacancies do you look at particular need 
and find that perhaps there, particularly with Michigan State 
University within about a 45 minute drive from that area, that 
it would be helpful to have a biological technician working 
with the people at Michigan State to see how they can control 
that emerald ash borer, which could be very destructive to that 
refuge?
    Mr. Kurth. There is no doubt that forest pests are a type 
of invasive species that we don't always talk about, and their 
effects, particularly in the eastern forest, are dramatic.
    I don't know the specifics about the biological technician 
position at Shiawassee, but I think these reports have shown 
that we do leverage our resources very effectively with 
universities and other parties, and it is certainly something 
that I would be happy to look into how we can make sure that we 
effectively work with Michigan State University in order to 
look at the issue of Shiawassee Refuge and the ash borer 
because it is a very critical problem.
    Mr. Kildee. I would appreciate that because in visiting it 
I am really impressed with the sense of mission that the people 
who are there have. There is a real sense of mission there, a 
commitment. It is always like a vocation they have, and they 
are really concerned about maintaining the integrity of that 
refuge.
    As I say, the greatest immediate danger right now, and 
there are many dangers, is the emerald ash borer. Since 
Michigan State is so close and is making some progress in 
trying to find a natural enemy, I would encourage, first of 
all, that you fill the position, but that requires of course 
Congress appropriating sufficient funds, but filling the 
position and also working with Michigan State to see whether we 
can do something to protect that refuge from this really 
invasive species.
    Mr. Kurth. I am happy to look into it. I love Shiawassee 
Refuge. When I was stationed north of the bridge at Seney 
Refuge in the Upper Peninsula we used to collaborate 
frequently, and it is a wonderful resource for the folks there 
in Saginaw. We are happy to look into it.
    Mr. Kildee. You know, they do great work. I mentioned kind 
of almost a sense of vocation.
    We get probably bombarded in Congress with mail and 
bulletins and various papers to read, but the one I always read 
is the one put out by that refuge. They do an excellent job. 
They keep on top of it and keep us informed, keep the public 
informed of what is going on there, what is available.
    I think it is probably the only National Wildlife Refuge 
that I have visited, but if that spirit of vocation permeates 
the rest of your operation, you have a mighty mission yourself. 
I appreciate what you do with your limited resources. I thank 
you.
    Mr. Kurth. I very much appreciate your kind words, sir. 
Thank you.
    Mr. Kildee. I yield back.
    Ms. Bordallo. I thank the gentleman from Michigan, Mr. 
Kildee.
    I have a few questions that may lead to you, Mr. Kurth. You 
are in the hot seat here.
    The MSI report determined that the Refuge System has been 
ineffective in protecting wilderness. In fact, the report notes 
that the Service went so far as to publicly release a draft 
wilderness policy in 2001, but to date has never issued a final 
wilderness policy.
    Mr. Kurth, why has the Service not developed a final 
wilderness policy for the Refuge System, and can we expect to 
see the Service release a final policy before the current 
Administration departs?
    Could you be brief in your response?
    Mr. Kurth. The policy has had points of contention. We 
finished our draft with a recommendation. Because it has been 
so long before we published a draft, we put it out for another 
round of public review and comment. I don't know----
    Ms. Bordallo. How long is that going to take?
    Mr. Kurth. Well, the comment period would likely be 60 or 
90 days. I don't know--that draft policy now is at a policy 
level in review with the lawyers--whether or not they are going 
to accept that recommendation or not.
    Ms. Bordallo. So what you are saying is that it will be the 
next Administration?
    Mr. Kurth. The policy could be sent out in this 
Administration again for comment. It could be, if officials 
choose, finalized in this Administration.
    We work very hard and very closely with our colleagues, 
with state fish and wildlife agencies and the Association of 
Fish and Wildlife Agencies to try and address their concerns, 
some of the concerns that Mr. Horn raised, so that we will have 
a wilderness policy that allows us to accomplish our 
conservation mission and protect the enduring resource of 
wilderness.
    It is one of my professional areas of greatest interest. I 
moved here from the Arctic Refuge in Alaska, and we really 
would like to have an effective policy.
    Ms. Bordallo. Would you say then, Mr. Kurth, that sending 
it out again is going to be results, or will it just come back 
with the same contentious----
    Mr. Kurth. I think that we can move a policy to completion. 
The areas where there have been some areas of disagreement I 
think we are very close on now.
    Ms. Bordallo. All right. The other one is more specifically 
in 2004. A Fish and Wildlife Service director's memo ordered 
all Alaska refuges to stop performing wilderness reviews as a 
part of their planning process. It is my understanding that 
this memo contradicts established refuge policy.
    Is this memo still in effect today, and can you confirm 
that it is contrary to existing refuge policy? Can you please 
explain why this memo was issued in the first place?
    Mr. Kurth. The memo is in place. Our planning policy does 
require wilderness reviews in development of comprehensive 
conservation plans. This is a policy directive that came after 
that policy, and the policy hasn't been formally amended.
    This has been a contentious issue for a couple of decades 
from when we first started doing the first round of CCPs in 
Alaska in the mid 1980s where we didn't do wilderness reviews.
    In the past Administration there was a policy decision that 
we would do them, and then that subsequently changed. I think 
what you see is it reflects policy differences in different 
Administrations.
    Ms. Bordallo. OK. Just for the record now, is the memo 
still in effect today?
    Mr. Kurth. Yes.
    Ms. Bordallo. Can you confirm that it is contrary to 
existing policy?
    Mr. Kurth. The memo provides additional policy and guidance 
to that which was in our planning chapter.
    Ms. Bordallo. So it is not contrary?
    Mr. Kurth. No. The Director issued it as a policy 
directive. The chapter on comprehensive conservation planning 
has different language in it, but this is a subsequent 
direction from the Director of the Fish and Wildlife Service, 
so I think technically we should amend the policy language to 
conform with the more recent policy direction.
    Ms. Bordallo. All right. Another one. Now, Mr. Horn 
mentioned in his testimony that in the recent Arizona District 
Court decision regarding the Kofa Wildlife Refuge the sportsmen 
asserted that the National Wildlife Refuge System Improvement 
Act overrides any seemingly contradictory principles of the 
Wilderness Act. The court agreed rather that the Fish and 
Wildlife Service engage in a reasonable harmonization of the 
two statutes, controlling its actions on the land in question.
    Is the Fish and Wildlife Service's position in accordance 
with this court decision that the wildlife conservation goals 
of the National Wildlife Refuges are not incompatible with the 
language of the Wilderness Act and that both should guide the 
Service's management of our refuges?
    Mr. Kurth. Yes. The Wilderness Act and the Refuge System 
Administration Act are very compatible statutes. Our finest 
wildlife is on some of our wilderness areas in Alaska and other 
places.
    It just requires us to be careful in crafting our 
stewardship in a way that complies with both of the laws, and 
they are not at all irreconcilable.
    Ms. Bordallo. Mr. Horn, could you comment on that?
    Mr. Horn. Yes, Madam Chair. I would make two comments 
briefly.
    One is that partially what the court recognized is express 
statutory language in the 1964 Wilderness Act which prescribes 
clearly that wilderness is a supplemental purpose whereas the 
primary purpose derives from the 1997 Refuge Act. It is that 
supplemental aspect of the Wilderness Act is what we wanted the 
court to recognize, and we believe they did.
    I would say second on the wilderness policy question of 
2004 the issue of wilderness reviews in Alaska is governed by 
specific provisions of the Alaska Lands Act adopted in 1980 
that prescribed that there would be essentially one round and 
one round only of wilderness reviews, and that is the section 
found in Title XIII and also found in another provision of the 
statute called the no more clause.
    So it would be my opinion that the Director's 2004 policy 
is consistent with the specific statutory provision of the 
Alaska Lands Act, whereas the prior wilderness policy was 
inconsistent with that statutory directive.
    Ms. Bordallo. Thank you. Thank you for that clarification.
    Mr. Matson?
    Mr. Matson. In terms of Alaska, to answer your question, 
two of the four memos absolutely are in contradiction to the 
planning policy. There is no doubt about that.
    In terms of the previous wilderness reviews, there has 
really been no adequate wilderness review to date in Alaska. 
ANILCA passed in 1980, followed by an Administration that was 
hostile to wilderness, followed by 12 years of Administrations 
that were hostile to wilderness.
    So it is certainly reasonable to include a wilderness 
review. It is not designating wilderness. It is just reviewing 
lands that are eligible to wilderness. That is all this is 
requiring, and it is perfectly reasonable to include it in the 
plan.
    Ms. Bordallo. Thank you very much, Mr. Matson.
    My time has expired here, and I would like to call on the 
gentleman from Michigan, Mr. Kildee, for further questions.
    Mr. Kildee. Thank you, Madam Chair.
    Ms. Nazzaro, the Cooperative Alliance for Refuge 
Enhancement or CARE reports that the Refuge System has an 
existing $3.5 million operations and maintenance budget 
backlog.
    CARE recommends an annual operating budget of $800 million 
to allow the Refuge System to address annual uncontrollable 
cost and to meet its operations and maintenance obligations.
    Did GAO consider this factor in its analysis? Is this 
amount reasonable considering the needs?
    Ms. Nazzaro. One of the concerns that was raised in our 
survey by refuge managers was the challenge of the backlog 
maintenance.
    We do have a specific report right now that is being 
prepared by GAO dealing with backlog maintenance. That includes 
Federal land management agencies, and that should be out I 
believe in the October timeframe.
    We did not specifically look at the extent to which Fish 
and Wildlife Service has a backlog maintenance or what is being 
done to address that, but rather just raised it as an 
additional challenge that they face.
    Mr. Kildee. Your GAO report found that annual Refuge System 
budgets for core activities fluctuated over the period of 2003 
to 2007. The budget spiked in 2003, declined in subsequent 
years and then increased in 2007. More surprising, the nominal 
budget trend shows a relative increase in operating budgets.
    Ms. Nazzaro, it is my understanding that the Refuge System 
experiences an annual increase in uncontrollable cost in the 
range of $15 to $20 million to cover increases in fuel cost, 
salaries and other matters. Did you examine this issue? How 
does this compare to your general inflationary indices you used 
in your report?
    Ms. Nazzaro. We didn't specifically look at fuel costs and 
what percentage of their operating budget is absorbed through 
fuel cost, but that was one of the challenges that the agency 
tried to address in its regional workforce plan.
    They were recognizing that the percentage of their budget 
that was being absorbed by salaries and benefits was growing 
significantly as a percentage of their budget compared to what 
they had for operating, maintenance and wildland fire, their 
core activities. So it was with that that they put in place and 
made these tough decisions as far as the workforce plans.
    I mean, given its budgets, there are limits to what the 
Forest Service can do, and we felt that the workforce plans, as 
was echoed by the Fish and Wildlife Service, were viewed as a 
necessary step to restore that balance between salary and 
benefit costs, as well as the refuge operational costs.
    You know, given that fact they are going to have to 
continue to make tough choices. We have raised a lot of 
challenges here today that the Service is facing. Given the 
fiscal constraints that the government is also facing, it seems 
unreasonable that there is going to be significant increases in 
budget in the future.
    So the agency is going to continue to have to make these 
tradeoffs, as does any other Federal agency. What we would 
suggest at this point is that the agency just continue to abide 
by sound management initiatives such as making sure that they 
have the information they need to make informed decisions. 
These are things that Congress could work also to help ensure 
that they do these things.
    Another thing would be that they are pursuing the tools, 
the technologies and approaches that are going to ensure 
efficient and effective government, focusing more on the long-
term payoffs that they are using appropriate management 
strategies and that their investment decisions are transparent 
so that the general public understands if there are changes to 
the refuges why they are made and that they are supported by 
sound information.
    Mr. Kildee. Do you agree then with Mr. Callihan's finding 
that despite nominal increases in funding, the actual 
purchasing power declined by, according to his figures, 11 
percent over the same period?
    Ms. Nazzaro. I don't have the figures in front of me, but, 
yes, in general we do say that when you factor in inflation 
that they didn't receive significant increases over time.
    From 2002 to 2007 there was an increase in the budget of 
4.3 percent, a decline of 2.3 percent from the peak year in 
2003, which it was beefed up at that point because of their 
centennial.
    Mr. Kildee. Thank you very much, Ms. Nazzaro.
    Ms. Bordallo. I thank the gentleman from Michigan, Mr. 
Kildee.
    I have a few more questions on personnel attrition and 
impacts. According to the GAO, the Refuge System has 
experienced a significant decline of 8.4 percent in the number 
of Federal employees working in the field over the period of 
2002 to 2007, and even though some refuges and refuge complexes 
saw five percent increases in workforce numbers, three times as 
many refuges or refuge complexes lost five percent or more of 
their workforce.
    Ms. Nazzaro, is it fair to expect the Refuge System to be 
able to deliver on all of its strategic goals when it is forced 
to work with so few employees?
    Ms. Nazzaro. Well, when we looked at the assessment that 
MSI did which focused specifically on the strategic goals, we 
were in agreement with them generally that where there were 
strengths there were also limitations.
    Now, two of the areas that they highlighted, and one we 
have talked extensively about today, was law enforcement. We 
didn't look specifically at it, but that was raised by a number 
of individuals as an issue.
    The other thing that we talked just briefly, and I think 
the Service actually focused on it, was the issue of invasive 
species. That was one of the key problems that were raised 
during the survey of refuge managers that invasives--I think it 
was a 55 percent response rate there; that it had increased at 
half the refuges. So that was a significant concern.
    The other is habitat fragmentation, something we haven't 
talked about today, where you have to manage an environment for 
a species as a total ecosystem. There are issues now where 
these habitats are being fragmented, and it does impact on the 
species.
    Can they address all of them? I think they can address all 
of their goals. It is just going to be a matter of prioritizing 
at which locations and where they have the most significant 
problem.
    Ms. Bordallo. So generally then, in answer to my question, 
it is yes?
    Ms. Nazzaro. I would say they can address all their goals. 
Will they be able to do everything they want to do? No.
    Ms. Bordallo. All right. What are the implications for the 
System if the Fish and Wildlife Service by default is forced to 
shift even more refuges into refuge complexes?
    Ms. Nazzaro. We didn't really assess the pros or cons of 
making such a shift. It does seem like they were able to do 
more with less by doing that, by shifting them into complexes.
    As was noted, for example, with law enforcement officers, 
if you have a complex then you are reducing some of your 
overhead, certainly for administrative purposes as well.
    So it would seem like it was a good strategy if you have a 
reduction in force how you are going to better manage more 
areas with less, but we did not assess the success or failure 
of that.
    Ms. Bordallo. Mr. Matson, could you comment on that?
    Mr. Matson. I think for a lot of refuges that are in close 
proximity, complexes make a lot of sense. I think they have 
gained a lot of efficiencies through complexing, but I imagine 
that we are probably complexed out.
    I think we have probably gained all the efficiencies we 
can, and there are probably some complexes that are just too 
big. I mean, if you have refuges that are over 100 miles apart 
can you really efficiently maintain adequate coverage of those 
refuges? That is a question.
    Ms. Bordallo. All right. Thank you. Getting back to you, 
Ms. Nazzaro, what has been the effect of the workforce 
restructuring on the employees?
    You know, there is always some kind of an effect when you 
do this. How has the morale been affected? Do you anticipate a 
higher rate of retirements? If so, how have these restructuring 
policies affected new employment recruitment?
    Ms. Nazzaro. I specifically can't comment on the impacts on 
recruitment or on retirements because we didn't go down that 
line of questioning. We certainly did ask them to comment on 
it, and one regional manager certainly emphasized that there 
has been an emotional strain.
    The regional workforce plans did result in a reduction of 
the workforce, and any time you have a reduction that is 
inherently difficult, and it is certainly painful for any 
affected staff.
    Ms. Bordallo. All right. Thank you.
    Mr. Callihan, from your perspective?
    Mr. Callihan. I am sorry. The question again was on the 
workforce plan?
    Ms. Bordallo. OK. What has been the effect of the workforce 
restructuring on employees, the morale? Do you find a higher 
rate of retirements? How have these restructuring policies 
affected new employee recruitment?
    Mr. Callihan. You know, we didn't look specifically at that 
question. If I could go back, maybe this will shed some light 
on it, though, in terms of your previous question.
    You know, in surveying the refuge managers, 77 percent 
indicated that they believed that the refuges are not meeting 
or only partially meeting their habitat objective goals, and I 
think----
    Ms. Bordallo. What was that percentage?
    Mr. Callihan. Seventy-seven percent----
    Ms. Bordallo. Seventy-seven percent.
    Mr. Callihan.--believe that their refuge is not meeting or 
is only partially meeting its habitat management goals.
    I think some of our recommendations had to do with 
management and process, but clearly there is an insufficient 
level of inventory and monitoring and biologists on the refuge, 
and I think if it is maintained at current levels that there 
are going to be genuine limitations in terms of the level of 
achievement that can be expected.
    Ms. Bordallo. Thank you. I appreciate that information.
    Mr. Kurth, would you like to comment on this?
    Mr. Kurth. The years of downsizing and workforce planning 
were stressful on our Refuge System employees. I, though, am 
always astonished at how they keep their attitude and their 
dedication at such a high level.
    I think Mr. Kildee's comments about the enthusiasm about 
the Shiawassee staff is really emblematic of our field staffs 
across the country. They become exceptionally frustrated when 
they see the resources that they are entrusted to take care of 
not get everything they need.
    This profession is a way of life as much as it is a 
livelihood, and they are the most dedicated and passionate 
employees I have ever met, so----
    Ms. Bordallo. So you would say then overall, Mr. Kurth, 
that morale is good?
    Mr. Kurth. I think that their morale and their 
professionalism is good, but it is certainly not as high as 
what it is when they are not faced with so many challenges.
    It certainly has been affected by this, but they are 
resolute in their commitment to their job, and I couldn't be 
prouder of them.
    Ms. Bordallo. Thank you. I agree with you on that. I think 
when you love what you are doing, even though you are limited 
to some point, you will just continue to work. I notice that we 
work with a lot of volunteers in keeping these refuges open, so 
I understand that.
    Mr. Kurth. The money gets them, but one of the things these 
reports pointed out that we are trying to work hard on is the 
paperwork and burdens that we put on them are an area where we 
have to improve and have to try and cut some of the red tape 
that goes into modern day refuge managers so they can focus 
their attention more precisely.
    If we could do that for them, their morale would be a lot 
higher.
    Ms. Bordallo. That is right. I understand.
    All right. As you know, CCPs are 15-year long-range 
planning documents that are intended to guide management 
decisionmaking on National Wildlife Refuges. All CCPs are 
supposed to consider the various factors affecting refuge 
resources and should provide policy guidance to address, 
mitigate or avoid any threats.
    However, I understand that the overwhelming majority of 
CCPs completed to date, even recently completed CCPs, fail to 
consider perhaps the most pressing natural resource challenge 
of our time, and that is climate change.
    Mr. Kurth, why do CCPs not substantially consider this most 
serious environmental challenge facing the planet, and what is 
the Refuge System doing to remedy this? Will the Administration 
be requesting additional budget and staff to address this 
critical planning need?
    Mr. Kurth. There are several questions there. Frankly, the 
issue of climate change and how we deal with it has changed 
within the past two years in this Administration.
    There has been a recognition over the last two years that 
we have to talk about how we can adapt in the face of a 
changing climate and mitigate its effects where we can, and so 
our newest CCPs are beginning to address climate change.
    Our coastal refuges are using a tool called SLAMM, sea 
level assessment and marsh monitoring. We are starting to look 
at what is going to happen in coastal areas, but it is new and 
I think it is new to the conservation field. Admittedly, we 
were slow to incorporate those concerns in our CCPs, but I 
think now we have clear direction that that is an appropriate 
thing to do.
    The issue of requesting additional funds in the future, I 
am not in a position to say that because we don't know what----
    Ms. Bordallo. We don't know what the future is going to be, 
right?
    Mr. Kurth. What the future is going to hold and what the 
priorities will be in the next--but I think it is safe to say 
that everyone in the conservation community has a strong focus 
on the challenges that climate change presents us, and no one 
in the natural resource management field is of a mind that we 
can continue to do things as we always have without thinking 
about what adaptations we are going to have to consider.
    Ms. Bordallo. All right. Thank you.
    I am going to ask all of the panelists now one question 
just with a yes or a no, if you don't mind. In the opinion of 
the panel, will existing CCPs that do not consider climate 
change still be relevant and useful to refuge managers well 
into the future?
    We will begin with you.
    Ms. Nazzaro. I would have to say no because you would want 
to consider all factors.
    Ms. Bordallo. Next?
    Mr. Callihan. I would say mostly no, but it will vary 
considerably from refuge to refuge I would think, depending on 
the issues.
    Ms. Bordallo. Mr. Kurth?
    Mr. Kurth. That one word answer is tough. The answer is 
yes, they will be of value because they will have many things 
about how to deal with the public and have hunting programs, 
but no in that there is one glaring omission there that we need 
to deal with because they are very broad plans.
    Ms. Bordallo. That is an interesting answer, Mr. Kurth.
    Mr. Matson?
    Mr. Matson. No.
    Ms. Bordallo. Mr. Horn?
    Mr. Horn. I think I agree with Mr. Kurth simply because, 
yes, they will be simply because most of the changes associated 
with climate change within the 10 to 15 year window are likely 
to be fairly minimal and can be addressed in a second round.
    Ms. Bordallo. All right. I want to thank you, and now I 
have my next range of questions here, a few more.
    I have just one here for Mr. Horn. What would you consider 
to be some of the easiest or least expensive available remedies 
to address the many shortcomings regarding appraisals in land 
acquisitions described in the MSI report?
    Mr. Horn. I think it is fairly simple. Return the appraisal 
function to the Fish and Wildlife Service and terminate the 
consolidation that the Department put in place four or five 
years ago.
    I personally think the Department got stampeded in response 
or in reaction to some appraisal issues that occurred involving 
BLM in Utah, and I think the cure turned out to be worse than 
the disease.
    It is not only adversely impacting the real estate 
functions of the Service. It is adversely impacting the real 
estate functions of BLM and the Park Service as well.
    Ms. Bordallo. Very good. Let me hear from you, Mr. Matson.
    Mr. Matson. I absolutely concur with Mr. Horn.
    Ms. Bordallo. Mr. Kurth?
    Mr. Kurth. I believe if I concurred with Mr. Horn I would 
be at a policy variance with the Department, so I don't think I 
will do that.
    Ms. Bordallo. All right. Mr. Callihan?
    Mr. Callihan. Yes. Our report found that the current DOI 
managed land appraisal process is ineffective and represents a 
step backwards in the Refuge System's ability to purchase land 
and easements from willing sellers. The process simply doesn't 
work.
    Ms. Bordallo. Ms. Nazzaro?
    Ms. Nazzaro. We have not looked at the effectiveness in the 
Fish and Wildlife Service, but I would say that we would 
disagree to disband the current appraisal system process 
because it did address one of the major concerns that GAO had, 
and that was that there was a lack of independence.
    To have the appraisers work in the same office of those 
that were trying to acquire the lands, we did not feel there 
was an arm's length break there, and we actually strongly 
suggested a different construct of which by consolidating it 
within the Department of Interior did solve that problem.
    We have looked at other bureaus within the Department, 
though, and we do recognize that there are problems with the 
timeliness of the services they are delivering so I wouldn't 
say it is totally fixed--there are still some improvements to 
be had--but I wouldn't totally throw the baby out with the bath 
water.
    Ms. Bordallo. Thank you.
    Mr. Matson, you advocate increasing land acquisition 
funding. How do you reconcile buying more land when the Fish 
and Wildlife Service can't seem to take care of what it 
currently has?
    Mr. Matson. That is a great persistent question and has 
been persistent over the last 10 years.
    I think what people don't understand is a refuge is 
established with a boundary and the vast majority of 
acquisitions are in that boundary, so essentially it is 
acquiring in-holdings in refuges which makes management more 
efficient.
    It is reducing those threats to the refuge that are causing 
management headaches. It is purchasing in-holdings that are 
causing management headaches. So I think the vast majority of 
acquisitions, I think there are probably billions of dollars 
that could be spent just on our existing refuge system that 
would make management more efficient, so I think there is a 
huge need.
    In fact, 6,000 acres of open space are lost every day. I 
think during the course of this hearing we have lost 500 acres 
of open space. It is a crisis.
    You know, the appraisal process is one barrier to that. 
Basically the cynic in me says that the Administration did that 
on purpose to completely foil any kind of land acquisition 
because the Federal government cannot acquire land on its own, 
right now, with a year-and-a-half delay in this process, with 
these deadlines. No willing seller is going to wait that long.
    This last year the Administration requested two projects in 
a pool of hundreds of eligible projects for funding. It is a 
big problem.
    Ms. Bordallo. Thank you. Thank you very much, Mr. Matson.
    Mr. Kurth, one of the principal responsibilities assigned 
to the Secretary of the Interior under the Refuge 
Administration Act is to assist in the maintenance of adequate 
water quantity and water quality to fulfill the mission of the 
system and the purposes of each refuge and to acquire water 
rights that are needed for refuge purposes.
    It is more than a little troubling then to read that MSI 
was unable to evaluate whether the Refuge System was meeting 
its strategic goal of providing adequate water because the Fish 
and Wildlife Service does not currently operate a well-defined 
and structured water resources program.
    Considering that it has been over 10 years since the Refuge 
Improvement Act was passed, why has the Service not developed 
such a program?
    Mr. Kurth. I think Director Hall has consistently said that 
he believes water resources are going to be the conservation 
challenge of the twenty-first century. We take them seriously.
    The way to deal with water issues is so variable because of 
the complexities of water law from one part of the country to 
another that we have largely taken a regionalized approach. In 
our western regions we do have staffs that have a good handle 
on water rights issues and where we need to acquire more water 
rights.
    It is a completely different legal framework in the east, 
and, quite frankly, these issues are emerging and we don't 
really have a good handle on the future of water issues in the 
eastern United States.
    I think it is fair to say, though, that are databases to 
roll all this up don't exist, that they are decentralized, and 
so that made it very much more difficult for MSI to evaluate us 
there.
    That strategic goal also, though, includes things like our 
ability to deal with environmental contaminants and air 
quality, and while we think MSI did a good job in this 
evaluation that is one area where we told them that we actually 
didn't think that their review was effective as finding some 
sources of existing databases that exist in other programs and 
other places.
    So we believe in the issues of air quality and our handling 
of contaminant issues that data were available, and it was 
probably not the strongest part of the evaluation, in my 
opinion.
    Ms. Bordallo. Mr. Kurth, I certainly understand the 
challenges involved, but 10 years?
    Mr. Kurth. Well, in that 10 years we have taken any number 
of actions throughout the country dealing with critical water 
issues.
    Our liability, in my mind, is that we aren't doing the job 
that we need to do to have a centralized system that helps us 
understand the priorities. We have recently done a data call to 
all of our field stations asking them to give us their 
priorities in water needs, and it is not just purchasing water 
rights. It is projects to make sure we don't have water loss in 
our irrigation systems and our water management systems.
    It is highly complex. We don't have the hydrologists and 
things that we probably need to do a better job.
    Ms. Bordallo. Well, I certainly feel that more progress 
should have been made in those 10 years.
    I would like to hear from Mr. Callihan since you are the--
--
    Mr. Callihan. On the water rights on the water program 
issues.
    Ms. Bordallo. Yes. Yes.
    Mr. Callihan. Yes. I mean, we came across a pretty intense 
level of activity in regard to water quality and water rights 
in the western regions, particularly out of the Sacramento 
office and in the southwest.
    The Refuge System I think has been mentioned as a very 
decentralized organization where the different regions are 
running their own programs. Sometimes they are similar between 
the regions. Sometimes they are not so similar.
    I think with the water program where it has operated it has 
been highly decentralized, as has been stated, but also we felt 
that there would be a benefit to having more policy, more 
program direction in place, more staffing.
    Of course, this gets back to the tension of more things 
need to be done but there are fewer people to do them, so that 
I imagine has also had an impact on this program.
    Ms. Bordallo. Thank you very much for the answer to the 
question.
    I know it has been a long morning, and I want to thank all 
the witnesses for their participation in the hearing today--Ms. 
Nazzaro, Mr. Callihan, Mr. Kurth, Mr. Matson and Mr. Horn. 
Members of the Subcommittee may have some additional questions 
for the witnesses, and we will ask you to respond to these in 
writing.
    I think some of you did say that you didn't have answers to 
some of our questions and you would prepare the reports and 
have it to us. The hearing record will be held open for 10 days 
for any of these responses.
    And if there is no further business before the 
Subcommittee, the Chairwoman again thanks the Members of the 
Subcommittee and our witnesses for their participation here 
this morning, and the Subcommittee stands adjourned.
    [Whereupon, at 12:02 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
